<html>
<title> - SCIENCE UNDER SIEGE: SCIENTIFIC INTEGRITY AT THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
SCIENCE UNDER SIEGE: SCIENTIFIC INTEGRITY AT THE ENVIRONMENTAL PROTECTION 
                                 AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           SEPTEMBER 18, 2008

                               ----------                              

                           Serial No. 110-149


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


           SCIENCE UNDER SIEGE: SCIENTIFIC INTEGRITY AT THE 
                    ENVIRONMENTAL PROTECTION AGENCY




    SCIENCE UNDER SIEGE: SCIENTIFIC INTEGRITY AT THE ENVIRONMENTAL 
                           PROTECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________

                           Serial No. 110-149


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-923                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
ELIOT L. ENGEL, New York             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chair                       Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             ROY BLUNT, Missouri
JANE HARMAN, California              STEVE BUYER, Indiana
TOM ALLEN, Maine                     GEORGE RADANOVICH, California
JAN SCHAKOWSKY, Illinois             JOSEPH R. PITTS, Pennsylvania
HILDA L. SOLIS, California           MARY BONO MACK, California
CHARLES A. GONZALEZ, Texas           GREG WALDEN, Oregon
JAY INSLEE, Washington               LEE TERRY, Nebraska
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
JIM MATHESON, Utah                   TIM MURPHY, Pennsylvania
G.K. BUTTERFIELD, North Carolina     MICHAEL C. BURGESS, Texas
CHARLIE MELANCON, Louisiana          MARSHA BLACKBURN, Tennessee
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

               David L. Cavicke, Minority Staff Director

                                 7_____

              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
CHARLIE MELANCON, Louisiana              Ranking Member
    Vice Chairman                    ED WHITFIELD, Kentucky
HENRY A. WAXMAN, California          GREG WALDEN, Oregon
GENE GREEN, Texas                    TIM MURPHY, Pennsylvania
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             MARSHA BLACKBURN, Tennessee
JAY INSLEE, Washington               JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)

                                  (ii)

  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     3
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     5
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     9
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................   277
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................   278

                               Witnesses

John B. Stephenson, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................    10
    Prepared statement...........................................    13
Francesca Grifo, Ph.D., Senior Scientist, Director, Science 
  Integrity Program, Union of Concerned Scientists...............    48
    Prepared statement...........................................    51
Deborah Rice, Ph.D., State of Maine, Department of Environmental 
  Protection.....................................................   101
    Prepared statement...........................................   103
Jennifer Sass, Ph.D., Senior Scientist, Natural Resources Defense 
  Council........................................................   104
    Prepared statement...........................................   107
David Parshley, Project Manager, Glynn Environmental Coalition...   137
    Prepared statement...........................................   139
Sharon H. Kneiss, Vice President, Products Division, American 
  Chemistry Council..............................................   212
    Prepared statement...........................................   214
George M. Gray, Ph.D., Assistant Administrator, Office of 
  Research and Development, U.S. Environmental Protection Agency.   245
    Prepared statement...........................................   248

                           Submitted Material

Slide presented by Mr. Inslee....................................   279
Charts on IRIS Process...........................................   280
Subcommittee exhibit binder......................................   285


                    SCIENCE UNDER SIEGE: SCIENTIFIC
            INTEGRITY AT THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2008

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Bart 
Stupak (chairman) presiding.
    Members present: Representatives Stupak, Melancon, Green, 
Inslee, Dingell (ex officio), Shimkus, Walden, Burgess, and 
Barton (ex officio).
    Staff present: Scott Schloegel, John Sopko, John Arlington, 
Paul Jung, Kyle Chapman, Katherine Graham, Alan Slobodin, Karen 
Christian, and Whitney Drew.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. This meeting will come to order.
    Today we have a hearing entitled ``Science under Siege: 
Scientific Integrity at the Environmental Protection Agency.'' 
Each member will have 5 minutes for an opening statement. I 
will begin.
    The mission of the U.S. Environmental Protection Agency, 
EPA, is to protect human health and the environment. This 
mission is best accomplished by regulatory decisions based on 
reliable science. However, indications are that the 
Environmental Protection Agency may instead be using selective 
science in regulatory decisions.
    The purpose of our hearing is to review the apparent lack 
of scientific integrity in parts of the EPA. We will examine 
four specific examples. One, a report from the Union of 
Concerned Scientists that found significant political 
interference in scientific work at EPA; two, the supposed 
``streamlining'' of the Integrated Risk Information System, 
IRIS, which actually makes it more difficult for EPA to publish 
scientific analyses on chemical risk; third, the removal of Dr. 
Deborah Rice from a scientific peer review panel at the request 
of the chemical industry; and fourth, the EPA's adoption of a 
since-discredited clean-up plan for the chemical toxaphene at 
the Hercules Superfund near Brunswick, Georgia.
    The Union of Concerned Scientists, UCS, conducted a study 
on political interference at the EPA. Scientists reported that 
they personally experienced political interference in the last 
5 years and being directed to inappropriately exclude or alter 
technical information from EPA scientific documents. Scientists 
often identified the White House Office of Management and 
Budget as the primary source of external interference. The 
Union of Concerned Scientists' study paints a picture far from 
the open scientific debate that we should expect from a 
science-based regulatory agency.
    The Integrated Risk Information System, or IRIS, is the 
U.S. government's catalog of the health effects of toxic 
chemicals. To have information placed into IRIS, EPA scientists 
carefully evaluate the science of each chemical and provide 
relevant data in the system. On April 10, 2008, the EPA 
instituted a new streamlined process for IRIS, which actually 
increases the number of steps in the evaluation process. 
Notably, the new process now requires approval by OMB at least 
twice prior to final posting in IRIS. As expected, this new 
process will delay the reporting of chemical hazards and make 
it more difficult for EPA scientists to publish their data in 
IRIS.
    Dr. Deborah Rice was invited by EPA to chair a 5-member 
peer review panel to update the IRIS assessment of the chemical 
deca, a flame retardant used on plastics and textiles. After 
the deca peer review panel concluded their business and posted 
their final comments, the EPA removed Dr. Rice from the panel 
and erased her comments from the report at the behest of the 
American Chemistry Council. Their reasons included the fact 
that Dr. Rice provided testimony to the Maine Legislature in 
her capacity as the Maine state toxicologist on their proposal 
to ban deca. Dr. Rice was informed of this decision by 
telephone. She received no written explanation. It appears that 
Dr. Rice was removed from the peer review panel because she had 
expertise on the chemical in question and was asked to provide 
that expertise to a state legislature.
    Toxaphene is an insecticide that was widely used in the 
United States on crops, fish, and livestock before it was 
completely banned in 1990 due to health hazards. Brunswick, 
Georgia, is the home of the Hercules 009 landfill, a superfund 
site where toxaphene waste was dumped from 1975 to 1980. This 
superfund site abuts the local elementary school and the 
community is concerned that toxaphene and its harmful breakdown 
products may persist at that site. Since the Hercules 009 
became a superfund site in 1984, EPA continues to use an 
outdated, inaccurate scientific method to detect the toxaphene, 
while other federal agencies, including the Agency for Toxic 
Substances and Disease Registry, ATSDR, the Army Corps of 
Engineers, and EPA's Inspector General recommended the use of 
the negative ion mass spectroscopy, NIMS, as they call it. EPA 
has not adopted NIMS as their standard test. In addition, the 
EPA's method to clean up the Hercules 009 site is based on an 
article published in the journal Regulatory Toxicology and 
Pharmacology, which has been assailed by scientists as having 
an industry bias. In addition, it appears the Hercules 
Corporation has hired the Weinberg Group, a consulting firm 
under investigation by our committee, to determine the toxicity 
of toxaphene. These actions paint a suspicious picture of 
questionable regulatory decisionmaking.
    Today we will hear from several witnesses. Our first panel 
will include Dr. Francesca Grifo of the Union of Concerned 
Scientists, who will discuss her organization's report, and Mr. 
John Stephenson of the Government Accountability Office, who 
will discuss GAO's report on the new IRIS changes.
    Our second panel will include Dr. Rice, who will testify 
about her removal from the EPA peer review panel, Dr. Jennifer 
Sass from the National Resources Defense Council, who will tell 
us how the new IRIS changes will affect environmental science, 
Mr. Daniel Parshley of the Glynn Environmental Coalition to 
discuss issues at the Hercules superfund site, and Sharon 
Kneiss of the American Chemistry Council, who will testify 
about ACC's role in the removal of Dr. Rice from the EPA's peer 
review panel.
    Finally, we will hear from Marcus Peacock, Deputy Director, 
and George Gray, Ph.D., Assistant Administrator for Research 
and Development at the Environmental Protection Agency.
    I look forward to the testimony of all the witnesses. I 
believe today's testimony will show how the EPA has dangerously 
undermined the role of science in regulatory decision making. 
The EPA under the Bush Administration appears to have put 
politics before science, to the harm of not just the 
environment but to the fundamentals of science. Science is not 
a Republican or Democratic issue. It must be based on facts and 
not political affiliation. I sincerely hope today's testimony 
will be taken seriously by the EPA and that they will work 
seriously to ensure the science will return to its proper role 
within the Agency.
    That concludes my opening statement.
    Mr. Stupak. I will turn to my friend, Mr. Shimkus from 
Illinois, for your opening statement, sir.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, for convening this 
oversight hearing.
    Over the last year, some individuals and advocacy groups 
including some of the witnesses before us today have charged 
that the EPA has interfered with certain scientific decisions 
for political reasons or at the behest of industry. Dr. 
Francesca Grifo of the Union of Concerned Scientists will 
testify on the first panel as she has testified before the 
House and Senate panels about her organization's report, 
Interference at the EPA. After reviewing the testimony in that, 
I guess part of the irony of this is that the Union of 
Concerned Scientists not using a scientific poll in this 
Interference at the EPA, which we all know about polling and we 
know the scientific process and we know one that is not.
    A number of hearings have been held in the House and Senate 
discussing alleging interference, in particular this year's 
hearing on the National Ambient Air Quality Standards, or 
NAAQS. This committee and this subcommittee have a long history 
of examining EPA on issues of scientific decisionmaking. These 
issues are altogether appropriate topics for an oversight 
hearing. What troubles me is the way this hearing has come 
together and the title of the hearing implies that the Majority 
has drawn a conclusion before we have even obtained testimony 
and all the evidence. It is important in any investigation to 
take the time to gather the facts, to hear both sides of the 
story and to weight and vet the information you receive. Given 
the amount of attention that has been devoted to alleged 
political interference at the EPA over the last year, it may be 
tempting to make assumptions and prematurely draw conclusions. 
We are presented today with three separate cases that the 
Majority contends are examples of science under siege, but 
based upon the incomplete factual record of today, I cannot 
conclude one way or the other that EPA made the decisions it 
did because of political or industry influence or that anything 
was done wrong. We all know there are good-faith disputes over 
science and disagreements with policy calls that happen every 
day at the EPA. In fact, the background on each of these cases 
is complex and the three case studies may not even be 
particularly strong examples in support of the charge of 
political interference.
    For instance, let us consider the case of the cleanup plan 
for the Hercules site in Georgia. EPA implemented a plan to 
clean up toxaphene, a pesticide, at a landfill site. A dispute 
arose as to whether the EPA had picked the right method to test 
for toxaphene in the soil and the groundwater. Two EPA Office 
of Inspector General reports issued in 2005 essentially 
concluded that EPA would not be able to determine whether its 
cleanup plan was effective because its testing method was 
incapable of measuring whether degraded toxaphene was present. 
In responding to these reports, EPA cited an article published 
in the Regulatory Toxicology and Pharmacology Journal as a 
basis for its Hercules toxicity calculations. Now, some in the 
scientific community believe this journal's efforts to identify 
conflicts of interest among its board when selecting articles 
for publication are inadequate and therefore the Agency's 
reliance on this article was improper. It may be that this 
article does not support the cleanup plan EPA adopted or does 
not represent the best science on toxaphene. It may also be 
that the Agency's delay in resolving the questions surrounding 
the testing for toxaphene is indefensible. But this does not 
mean that the EPA's decision was improperly influenced by 
industry and we have yet to uncover any evidence to 
substantiate that claim. Indeed, the Committee has not even 
interviewed the EPA staff who worked on the cleanup plan or 
collected a single document on the issue. Let me just highlight 
that. The Committee has not interviewed the EPA staff who 
worked on the cleanup plan or collected a single document on 
this issue.
    I have similar questions about the EPA's actions with 
respect to peer review panel for deca, a flame retardant. Dr. 
Deborah Rice was the chair of the panel but her comments were 
removed from the peer review report due to possible appearance 
of impartiality after the American Chemistry Council informed 
EPA that Dr. Rice has testified before the Maine Legislature 
about deca. Dr. Rice and the ACC are witnesses on the second 
panel, and Dr. George Gray of EPA, who ultimately removed Dr. 
Rice's comments, is on our third panel. At least with respect 
to this case, we may be able to hear all sides of the story 
because the parties are here. The removal of Dr. Rice's 
comments is obviously a very sensitive issue because it 
involves not only the integrity of the peer review process but 
also Dr. Rice's professional reputation. So we must be 
especially careful when we try to sort through the facts in 
order to understand the EPA's rules on impartiality and peer 
review panels and how they are applied in this case. Does the 
fact that Dr. Rice believed that the evidence supported banning 
deca and that reasonable alternatives exist to deca mean that 
she is impartial when it comes to developing a toxicological 
assessment of the chemical? Is a determination about banning 
deca or that alternatives exist a separate issue from the types 
of issues Dr. Rice reviewed as a member of the deca panel? Does 
expressing any opinion on toxicity of a chemical prevent you 
from serving on a peer review panel on IRIS matters? These 
matters are not black and white and I think it is fair to say 
that reasonable minds can disagree about when a person's 
opinions or professional experience might cause them to be 
impartial on a certain issue. I hope the witnesses today will 
give us some guidance on this issue and their thoughts on 
whether the EPA process are sufficient or whether they can be 
improved.
    Finally, Mr. John Stephenson of GAO is here to discuss his 
office report on the recent changes to EPA's Integrated Risk 
Information System, or IRIS. EPA made a number of changes to 
the process to allow for participation by other government 
agencies, the Office of Management and Budget, and the public. 
The GAO report contends that these changes have slowed the IRIS 
review process almost to a halt. I am interested in learning 
why EPA made the changes it did and whether the process can be 
improved so IRIS risk assessments are completed in a timely 
manner, but again, I think we should not rush to conclude that 
simply because changes were made that they were made by this 
Administration that they are not valid reasons for interagency 
involvement in the IRIS process, and that is my point. It is 
one thing to conclude that EPA has been slow to adopt the 
prevailing science and has made the wrong policy decisions. It 
is an entirely different matter to attribute that mistake to 
political or industry interference. That is a serious charge, 
and if it is happening, EPA must be held accountable, but we 
need to do our work and make sure that the facts support the 
charge.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Stupak. Thank you, Mr. Shimkus.
    Mr. Dingell for an opening statement, please.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, thank you.
    First of all, this is an important hearing, and second of 
all, I thank you and commend you for holding it.
    Scientific integrity is an essential ingredient of every 
decision that is made by the Environmental Protection Agency. 
Unfortunately, there is a substantial question as to whether or 
not that is always the case. I would note that this has been a 
continuing problem to me and to this committee for years, and 
it appears to be continuing under the current Administration. 
So the question here is, is this the case under the current 
Administration and why is there a problem under this 
Administration?
    There is growing evidence that the Congress, the States, 
the local governments, the public, and even other countries 
cannot rely on EPA for honest science. I repeat, I have found 
that to be the situation which has confronted this committee 
for a number of years.
    The landmark survey of EPA scientists conducted by the 
Union of Concerned Scientists, UCS, confirms what many had 
feared, that the Bush Administration's political interference 
now going on with EPA scientists is both pervasive and 
frequent.
    The UCS scientist survey found that more than 500 EPA 
scientists knew of many or some cases where EPA political 
appointees had interfered with scientific decisions.
    Nearly 100 EPA scientists identified the White House Office 
of Management and Budget as the primary source of external 
interference and more than 500 scientists said they feared 
retaliation for speaking candidly about EPA's scientific work. 
Clearly then, there is reason to believe we are not talking 
about an isolated instance.
    The testimony we will hear today exposes a broad pattern of 
political meddling by the Bush Administration directed at EPA 
scientists and its science.
    The prime example of the Administration's recent changes to 
the Integrated Risk Information System, IRIS process, under 
which chemicals are evaluated to determine the extent to which 
they may be hazardous to the public health, is a matter of 
concern to the committee. For 20 years, government agencies 
both here and abroad have relied on IRIS for scientific, 
reliable information on the human health effects of hundreds of 
widely used chemicals. Drinking water standards and workplace 
exposure standards are based on scientific data contained in 
the IRIS database.
    Undeterred by the success of the IRIS system, however, the 
Bush Administration has changed the IRIS process to all but 
halt the addition of new chemicals to the database. What was 
once a careful and thoughtful scientific process managed by EPA 
scientists has become a cumbersome, bureaucratic, political 
exercise run by OMB, and the studies and the analysis that you 
have on this matter, Mr. Chairman, will tend to buttress the 
complexity that is now built into this system.
    Under the new system, the two largest polluters in the 
United States--the Department of Defense and the Department of 
Energy--are permitted to provide secret comments to OMB, which 
then has the final say on what goes into the IRIS system. We 
must inquire why these two agencies should be permitted to 
submit secret comments to OMB and why it is that even EPA is 
not permitted to see these comments. It raises questions as to 
the worth of the system under this kind of curious 
modification. And because all of this is now done in secrecy, 
it is entirely unclear as to who has or does not have a hand in 
the process. In short, what was once a process marked by 
transparency, candor, and credibility is now apparently marked 
by secrecy, manipulation, influence, and probably connivers.
    Mr. Chairman, I particularly want to welcome to this 
hearing Dr. Deborah Rice, chief toxicologist for the State of 
Maine. Dr. Rice's removal from the IRIS peer review panel at 
the request of the chemical industry is curious, and it is to 
be assumed that this is because she testified before the Maine 
Legislature. Clearly, this is disgraceful. I look forward to 
hearing from EPA management about specific steps they are 
taking to rectify these problems and to protect the scientific 
integrity of the Agency and at the Agency. I also will look 
forward to hearing from the Administration what they propose to 
do to see to it that the taint of possible political 
manipulation or influence at the IRIS process is corrected in a 
proper fashion.
    Mr. Chairman, I thank you.
    Mr. Stupak. I thank the chairman.
    Mr. Barton for an opening statement, please.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Chairman Stupak. Thank you for 
convening this hearing concerning the Environmental Protection 
Agency.
    Republicans on the Committee welcome oversight of the 
Environmental Protection Agency. The topics discussed in this 
hearing, the EPA's Integrated Risk Information System, the 
composition of EPA peer review panels, and the management of 
Superfund sites are all important issues and important to 
public health. The title of this hearing, however, does trouble 
me. It in itself could be considered to be an attack on the 
EPA, or if you want to say, a surrogate attack on the Bush 
Administration. The title of this hearing makes a serious 
charge that science at the EPA is under siege and that its 
integrity may have been compromised. Has this really happened? 
Have scientific conclusions been improperly influenced by 
politics or by interested parties? These are certainly critical 
questions but somehow I don't believe that we are going to get 
too many facts at this hearing to really answer those 
questions.
    The Majority offers three case studies today to make the 
argument that the EPA and its scientific conclusions have 
somehow been improperly influenced. One case involves changes 
to the IRIS system, which were the subject of a GAO report 
issued last spring. The second involves a Hercules Superfund 
cleanup site in Georgia, which has been the subject of some 
dispute due to the cleanup methods that the EPA adopted for the 
site. The third is a peer review of a chemical used in flame 
retardants known as deca that took place in early 2007 for the 
purpose of including certain information on the aforementioned 
IRIS system. Reviewer's comments were struck from the peer 
review report after concerns were raised about a potential 
conflict of interest. Both Dr. Deborah Rice, the reviewer, and 
the American Chemistry Council, the group that raised the 
concern to EPA, will testify today and I think that is a good 
thing. We will also hear from two organizations, the Union of 
Concerned Scientists and the Natural Resources Defense Council, 
about their experiences with the EPA decision making.
    I am not prepared today to conclude one way or the other 
whether the Agency was right or wrong or whether they 
influenced data. In the Hercules case, for example, the 
Committee has not even talked to the EPA project managers who 
oversaw the cleanup to get a sense of why they adopted the 
cleanup method that they did or why they didn't use certain 
technologies to detect chemicals at the site. As far as I know, 
no documents have been requested from the EPA or, for that 
matter, anyone else. I understand that the Majority may suggest 
that EPA improperly relied on a particular journal article 
because a journal has an affiliation with industry. The 
Agency's reliance on the article and its role in determining 
the Hercules cleanup is a legitimate scientific issue. But at 
least in my opinion, without talking to the people involved and 
obtaining the documents, it is somewhat of a leap to judge the 
EPA's motives. Shooting first and asking questions later does 
get results, especially if you hit your target, but better 
science probably won't be one of them.
    The bottom line is, Mr. Chairman, that whether we are a 
Republican or a Democrat, we all want the EPA to develop and 
use the best science possible, and I emphasize the best science 
possible, when making regulatory decisions. An agency like EPA 
that is entrusted with the public health cannot be allowed to 
ignore honest scientific reports. It must be required to apply 
the data objectively but science is progressing and science 
does change. Good faith disputes about what the data is are 
just that, good-faith disputes. What we conclude from those 
data points, we can all have a different opinion, especially 
experts. It happens all the time. We should be very careful 
before we assign motives to those disputes and attribute 
differences in opinion to political meddling or industry 
influence. It is our job to keep an eye on both the politics 
and the science as members of this oversight subcommittee but 
it is not our job sometimes simply just to shoot at specific 
targets for political purposes.
    We are having a hearing today, and again, I am not opposed 
to having this hearing, but I do think that we should have 
scheduled this particular hearing 2 years ago when the new 
Majority took over. I think it is a legitimate question for a 
different political majority to want to have an honest review 
of a different politically affiliated Administration's opinions 
and perhaps even system review processes about issues of this 
type. I don't really have a problem with that. But we are 
having this almost the last week that we are scheduled to be in 
regular session and it is just simply not the time to find the 
kind of facts and to develop the kind of database that we 
really need to develop if we are going to make some conclusions 
about the EPA, as the title of the hearing puts it, being under 
siege.
    Our oversight and investigation responsibility, and I mean 
this, this subcommittee and the full committee under the 
chairmanship of John Dingell in the past and Mr. Bliley, Mr. 
Tauzin and myself in the recent past and now in the current 
sense with you, Mr. Stupak and Mr. Dingell as the full 
committee chairman is probably, and I shouldn't even say 
``probably,'' I will say it is the most effective oversight 
operation in the House of Representatives, so we should use it 
in an objective fashion to get the facts and then come to the 
conclusions.
    Mr. Chairman, sometimes the risk of overlooking a problem 
is outweighed by the risk of underinvestigating one, and I 
really hope now that we have started this, and I mean this, let 
us really get all the facts. We all need an EPA that is 
objective. We all need an EPA that does use the best science 
and we all need an EPA that does provide the Congress and the 
country with the optimal solutions to our environmental 
problems. So again, I have no problem with this hearing. I do 
have a little bit of a problem with the timing of it and I hope 
that as we progress in this particular inquiry, that we do get 
the facts before we come up with conclusions.
    With that, Mr. Chairman, I certainly respectfully yield 
back my time.
    Mr. Stupak. Well, thanks, Mr. Barton, and specifically as 
to the Hercules cleanup, you raised a couple of questions there 
and I just wanted to let you know that the committee staff on 
both sides have done due diligence here. We did invite the head 
of the Superfund program to testify but they said they couldn't 
make it. We specifically asked for a briefing on Hercules prior 
to the hearing. We are still waiting for the briefing. We also 
invited the EPA to send a witness from Region 4 who would be 
familiar with the site but again, we are still waiting for an 
answer from the EPA whether or not these people can testify. 
And you are right, we are running out of time so I guess bob-
and-weave can only go so long, so we had to have our hearing. 
So some of those concerns are valid but I want you to know, we 
did ask for those witnesses because we do always try to have a 
full, complete hearing. Once in a while we just have to move 
forward if an agency is not going to cooperate with you and we 
didn't think a subpoena was necessary at this point in time. 
Maybe it will be in the future on this issue.
    Mr. Burgess, opening statement, please.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman, and I appreciate the 
recognition. I am going to submit my opening statement for the 
record because this is an important hearing and I do want that 
recorded but I do want to go off topic for just a moment and 
talk about something else because we are up against the end of 
a session and our time is limited.
    This committee, this subcommittee in particular, has taken 
a leadership role with issues relating to individual privacy. 
We have focused on privacy-invading practices such as 
pretexting, spyware, and hacking. We recognize correctly the 
pernicious effects of information theft, identify theft, and 
theft of information in a free society, but this morning we are 
faced with stories on the news wires involving a governor of a 
State, a vice presidential nominee, and these assaults on the 
privacy of Governor Palin should be aggressively investigated 
and the perpetrators prosecuted to the fullest extent of 
federal law. This subcommittee has jurisdiction over this issue 
and should take the lead in this investigation.
    The fact that Governor Palin's e-mail account was hacked 
and not only was it hacked but the information was then freely 
distributed on the World Wide Web and the information posted 
revealed only information of a personal nature because it was a 
personal e-mail account. As the Subcommittee on Oversight and 
Investigations, let us look to whether appropriate safeguards 
are in place by e-mail carriers such as Yahoo, MSN and Google 
against the malicious actions of those who would act to violate 
the personal privacy of a public individual. Theft of personal 
information is an asymmetric threat which can affect any one of 
us in public service and certainly any one of the constituents 
that we serve. We are obligated to maintain oversight of the 
telecommunications industry and ensure that no personal 
information is made inappropriately available. And if and when 
transgressions are uncovered, they need to be fully 
investigated and prosecuted under existing statutes.
    Mr. Chairman, I thank you for the indulgence and I will 
yield back the balance of my time.
    Mr. Stupak. I thank the gentleman for his comments.
    Mr. Melancon, opening statement?
    Mr. Melancon. No, I am going to waive.
    Mr. Stupak. OK. That concludes the opening statements by 
members and I am going to ask the witnesses to come forward. 
They are already seated, Mr. Stephenson and Dr. Grifo. It is 
the policy of this subcommittee to take all testimony under 
oath. Please be advised that you have the right under the rules 
of the House to be advised by counsel during your testimony. Do 
you wish to be represented by counsel?
    Mr. Stephenson. No.
    Mr. Stupak. Dr. Grifo?
    Ms. Grifo. No.
    Mr. Stupak. I am going to ask if you would please rise and 
raise your right hand to take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that the witnesses 
replied in the affirmative. Each of you are now under oath and 
you can give your opening statement. We would ask that you 
please try to limit it to 5 minutes, and your full statement 
will be made part of the record, so Mr. Stephenson, if you 
would like to start, please.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman and members of the 
subcommittee. I am here today to discuss our recent work on 
EPA's Integrated Risk Information System, or IRIS. It is a 
database that contains EPA's scientific position on the health 
effects and exposure of more than 540 toxic chemicals. IRIS is 
a critical component of EPA's capacity to support 
scientifically sound environmental decisions, policies, and 
regulations and is a cornerstone of scientific integrity at the 
Agency. My testimony today is based primarily on our March 2008 
report and additional work we did to support a May 2008 
testimony before the Senate.
    Our work clearly shows that the IRIS database is at serious 
risk of becoming obsolete because EPA has not been able to 
complete timely, credible, scientific assessments or decrease 
its backlog of 70 ongoing assessments. Efforts to improve IRIS 
since 2000 have been thwarted by a combination of factors, 
including OMB and interagency reviews, EPA decisions to delay 
assessments to wait for new research or additional uncertainty 
analysis, and the compounding effects of continuous delays. 
Moreover, two new OMB interagency reviews involve other federal 
agencies in a manner that limits the credibility of these 
scientific assessments and hinders EPA's ability to manage 
them. In addition, OMB is inserting itself into the 
decisionmaking process by, for example, requiring EPA to 
determine five assessments EPA's own Office of Air said that it 
needed to help implement the Clean Air Act. The effect of all 
of these changes to what should be a purely scientific process 
is that chemicals can remain in the assessment process for as 
much as 10 years and the backlog grows.
    Our report included specific recommendations for 
streamlining in the IRIS program, improving the transparency 
and credibility of its assessments and ensuring that EPA has 
the requisite independence to achieve its goals, 
recommendations that EPA in responding to our March 2008 report 
agreed to consider. However, when EPA released its new IRIS 
process in April 2008, we were extremely disappointed.
    The new IRIS process is not responsive to our 
recommendations and in many respects is worse than the draft 
process we reviewed for our report. For example, the draft 
process would have made comments from other federal agencies 
part of the public record. The new process expressly defines 
such comments as deliberative, excluding them from public 
scrutiny in what amounts to a black box. As a result, the first 
assessment drafts to become publicly available are provided to 
independent peer review committees incorporate undisclosed 
changes from federal agencies such as the Departments of 
Defense and Energy, the very agencies that may be affected by 
the assessments should they lead to regulatory actions. You 
cannot on one hand preach sound science and on the other hand 
violate one of its principles: transparency.
    Mr. Chairman, you will hear EPA say later in this hearing 
that the IRIS process is transparent because final assessments 
must undergo public and external peer review. However, in our 
view, transparency at this late stage after OMB and other 
agencies have had multiple opportunities to influence the 
content of the assessment without any disclosure of their input 
does not compensate for its absence earlier. Instead of 
streamlining IRIS, EPA has institutionalized the process that 
from the outset will take 6 to 8 years to complete a chemical 
assessment. Under those time frames, the scientific assessments 
will be obsolete before they can be completed.
    To illustrate how bad the situation is, my testimony 
includes several examples of dangerous chemicals that are stuck 
in the endless loop of assessment and reassessment. For 
example, trichloroethylene, or TCE, is a chemical degreasing 
agent that has been linked to cancer and birth defects since 
1995. It is the most commonly occurring contaminant in 
groundwater today and it is used widely by many including the 
Department of Defense. EPA initiated a scientific risk 
assessment of TCE in 1998. EPA's Science Advisory Board 
completed its peer review and released the assessment for 
public comment in 2002. DOD and others questioned the 
assessment and requested a National Academies of Science 
Review. The Academies concluded its review in 2006 and found 
that the weight of scientific evidence of cancer from TCE had 
actually strengthened since the EPA's original assessment. So 
after more than 10 years, EPA's TCE risk assessment is back to 
the drawing board and is still not complete and won't be until 
2010. In frustration, five Senators who heard about TCE 
contamination in the drinking water at Camp Lejeune introduced 
a bill last year that would require EPA to issue final IRIS 
values and a drinking water standard within 18 months.
    Mr. Chairman, as we stated in our March 2008 report, IRIS 
is a critical process that is clearly broken and needs to be 
fixed. In order to maintain the integrity of the IRIS process, 
EPA must streamline its lengthy assessment process and adopt 
transparency practices that provide assurances that IRIS 
assessments are appropriately based on the best available 
science and are not inappropriately based on the policy 
considerations of OMB and other federal agencies that have a 
vested interest in the results.
    That concludes the summary of my statement, and I will be 
happy to take questions at the appropriate time.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHIC] [TIFF OMITTED] T2923.001
    
    [GRAPHIC] [TIFF OMITTED] T2923.002
    
    [GRAPHIC] [TIFF OMITTED] T2923.003
    
    [GRAPHIC] [TIFF OMITTED] T2923.004
    
    [GRAPHIC] [TIFF OMITTED] T2923.005
    
    [GRAPHIC] [TIFF OMITTED] T2923.006
    
    [GRAPHIC] [TIFF OMITTED] T2923.007
    
    [GRAPHIC] [TIFF OMITTED] T2923.008
    
    [GRAPHIC] [TIFF OMITTED] T2923.009
    
    [GRAPHIC] [TIFF OMITTED] T2923.010
    
    [GRAPHIC] [TIFF OMITTED] T2923.011
    
    [GRAPHIC] [TIFF OMITTED] T2923.012
    
    [GRAPHIC] [TIFF OMITTED] T2923.013
    
    [GRAPHIC] [TIFF OMITTED] T2923.014
    
    [GRAPHIC] [TIFF OMITTED] T2923.015
    
    [GRAPHIC] [TIFF OMITTED] T2923.016
    
    [GRAPHIC] [TIFF OMITTED] T2923.017
    
    [GRAPHIC] [TIFF OMITTED] T2923.018
    
    [GRAPHIC] [TIFF OMITTED] T2923.019
    
    [GRAPHIC] [TIFF OMITTED] T2923.020
    
    [GRAPHIC] [TIFF OMITTED] T2923.021
    
    [GRAPHIC] [TIFF OMITTED] T2923.022
    
    [GRAPHIC] [TIFF OMITTED] T2923.023
    
    [GRAPHIC] [TIFF OMITTED] T2923.024
    
    [GRAPHIC] [TIFF OMITTED] T2923.025
    
    [GRAPHIC] [TIFF OMITTED] T2923.026
    
    [GRAPHIC] [TIFF OMITTED] T2923.027
    
    [GRAPHIC] [TIFF OMITTED] T2923.028
    
    [GRAPHIC] [TIFF OMITTED] T2923.029
    
    [GRAPHIC] [TIFF OMITTED] T2923.030
    
    [GRAPHIC] [TIFF OMITTED] T2923.031
    
    [GRAPHIC] [TIFF OMITTED] T2923.032
    
    [GRAPHIC] [TIFF OMITTED] T2923.033
    
    [GRAPHIC] [TIFF OMITTED] T2923.034
    
    [GRAPHIC] [TIFF OMITTED] T2923.035
    
    Mr. Stupak. Thank you, Mr. Stephenson.
    Dr. Grifo.

    STATEMENT OF FRANCESCA GRIFO, PH.D., SENIOR SCIENTIST, 
    DIRECTOR, SCIENCE INTEGRITY PROGRAM, UNION OF CONCERNED 
                           SCIENTISTS

    Ms. Grifo. Good morning. I am a senior scientist and the 
director of the Scientific Integrity Program at the Union of 
Concerned Scientists, a leading science-based nonprofit working 
for a healthy environment and a safer world. Thank you, 
Chairmen Stupak and Dingell, Ranking Members Barton and 
Shimkus, and members of the subcommittee for the opportunity to 
speak to you this morning about the problem of political 
interference in science. I thank the Committee for your 
oversight and I strongly urge you to keep the pressure on. I 
fear long-lasting consequences from both the abuses of science 
we have documented and perhaps more so from those abuses still 
cloaked in secrecy.
    The United States has enjoyed prosperity and health in 
large part because of its strong and sustained commitment to 
independent science. As the Nation faces new challenges at home 
and growing competitiveness abroad, the need for a robust 
federal scientific enterprise remains critical. Unfortunately, 
political interference in federal science threatens this 
legacy. Allowing agencies who may be the source of toxic 
chemicals greater control over the scientific information in 
EPA's own toxicological database and withholding interagency 
correspondence about these scientific assessments from public 
view is emblematic of the problem of manipulation, suppression, 
and distortion of science at EPA.
    While I am sure we can all agree that the Environmental 
Protection Agency has a skilled and dedicated set of public 
servants that comprise its workforce, our research based on a 
UCS census, not a poll--polls and censuses have very distinct 
methodologies--conducted by Iowa State University including 
responses from 1,586 scientists, combined with essays from 850 
of those scientists, forces us to conclude that this is a 
troubled agency. Hundreds of scientists reported direct 
interference in their scientific work and fears of retaliation 
and systemic disregard for the expertise of EPA's advisory 
committees. Their good work is compromised by the inappropriate 
influence of political appointees at the EPA and other agencies 
as well as commercial and other non-governmental interests.
    This influence takes the following forms: scientists being 
told to exclude or alter technical information in an EPA 
scientific document; scientists being told to provide 
incomplete, inaccurate, or misleading information to the 
public; selective or incomplete use of data to justify a 
specific outcome; changes or edits that change the meaning of 
scientific findings; disappearance or unusual delay in the 
release of scientific information; statements by EPA officials 
that misrepresent scientists' findings; and lack of a coherent 
and consistent EPA policy that allows scientists to speak 
freely to the news media about their research findings.
    Our study found that 889 scientists reported personally 
experiencing one of these events in the last 5 years. In essay 
responses, nearly 100--and we didn't ask them the question, 
this came freely, voluntarily--EPA scientists identified OMB as 
the primary culprit in this interference. Hundreds of 
scientists reported being unable to openly express concerns 
about EPA's mission-driven work without fear of retaliation. 
The percentage of scientists reporting political interference 
was highest at headquarters and at the four program offices 
with regulatory responsibilities: Office of Air and Radiation, 
Office of Prevention, Pesticides and Toxic Substances, and the 
Office of Solid Waste and Emergency Response. The National 
Center for Environmental Assessment ranked amongst the worst in 
the Office of Research and Development.
    A bipartisan Congress passed 12 pieces of legislation that 
authorized the Environmental Protection Agency to protect human 
health and the environment. By suppressing, distorting, and 
manipulating science, the White House has subverted this 
mission, making an end run around the legislative branch. 
Congress must work closely with the next occupants of the White 
House, whoever they may be, to ferret out and address the 
changes that undermine robust science and its application to 
our Nation's health and environment. When agencies that would 
be liable for costly cleanups of environmental poisons are 
given expanded influence over EPA's scientific assessments of 
chemical toxicity, the public loses.
    Fortunately, this is not a problem without a solution. The 
EPA should increase openness in its decisionmaking process. If 
research results and analysis by EPA scientists are made public 
before they drop into the black box of OMB, attempts to distort 
science will be exposed. The expanded reach of the Office of 
Management and Budget must be pushed back. Questioning the 
scientific consensus of agency experts is not the proper role 
for the Office of Management and Budget. The GAO should 
identify changes that have become embedded in the Agency that 
if not exposed will continue to harm scientific integrity. For 
example, what has been the impact of centralization of power in 
the White House on EPA decisionmaking? What needs to be done to 
reverse centralization and restore scientific integrity? How 
many agency employees are signing non-disclosure agreements and 
why? Are there decisions where political interference has been 
exposed that require an immediate review or reversal? All 
important questions.
    Finally, there are three actions that can and must happen 
immediately. The House and Senate overwhelmingly approved 
bipartisan legislation to strengthen whistleblower protections 
for federal employees. It is crucial that the negotiations 
between the two houses come to a close, producing final 
legislation that contains strong, specific protections for 
scientists who expose efforts to suppress or alter federal 
research. EPA should adopt media, communication and scientific 
publication policies that ensure taxpayer-funded scientists and 
their research are accessible, and the scientists at the Agency 
should be proactively made aware of these rights.
    And last but not least, just as former EPA Administrator 
William Ruckelshaus did 25 years ago, Administrator Johnson 
should pledge to operate EPA in a fishbowl. The fishbowl memo, 
which set the standard for an agency so open that it regained 
the trust of the American people, was reaffirmed by several 
subsequent EPA administrators. The original memo, still in the 
history section of EPA's Web site, should be moved front and 
center to its home page.
    We look forward to continuing our work with Congress to 
restore scientific integrity to federal policymaking. Thank 
you.
    [The prepared statement of Ms. Grifo follows:]

    [GRAPHIC] [TIFF OMITTED] T2923.036
    
    [GRAPHIC] [TIFF OMITTED] T2923.037
    
    [GRAPHIC] [TIFF OMITTED] T2923.038
    
    [GRAPHIC] [TIFF OMITTED] T2923.039
    
    [GRAPHIC] [TIFF OMITTED] T2923.040
    
    [GRAPHIC] [TIFF OMITTED] T2923.041
    
    [GRAPHIC] [TIFF OMITTED] T2923.042
    
    [GRAPHIC] [TIFF OMITTED] T2923.043
    
    [GRAPHIC] [TIFF OMITTED] T2923.044
    
    [GRAPHIC] [TIFF OMITTED] T2923.045
    
    [GRAPHIC] [TIFF OMITTED] T2923.046
    
    [GRAPHIC] [TIFF OMITTED] T2923.047
    
    [GRAPHIC] [TIFF OMITTED] T2923.048
    
    [GRAPHIC] [TIFF OMITTED] T2923.049
    
    [GRAPHIC] [TIFF OMITTED] T2923.050
    
    [GRAPHIC] [TIFF OMITTED] T2923.051
    
    [GRAPHIC] [TIFF OMITTED] T2923.052
    
    [GRAPHIC] [TIFF OMITTED] T2923.053
    
    [GRAPHIC] [TIFF OMITTED] T2923.054
    
    [GRAPHIC] [TIFF OMITTED] T2923.055
    
    [GRAPHIC] [TIFF OMITTED] T2923.056
    
    [GRAPHIC] [TIFF OMITTED] T2923.057
    
    [GRAPHIC] [TIFF OMITTED] T2923.058
    
    [GRAPHIC] [TIFF OMITTED] T2923.059
    
    [GRAPHIC] [TIFF OMITTED] T2923.060
    
    [GRAPHIC] [TIFF OMITTED] T2923.061
    
    [GRAPHIC] [TIFF OMITTED] T2923.062
    
    [GRAPHIC] [TIFF OMITTED] T2923.063
    
    [GRAPHIC] [TIFF OMITTED] T2923.064
    
    [GRAPHIC] [TIFF OMITTED] T2923.065
    
    [GRAPHIC] [TIFF OMITTED] T2923.066
    
    [GRAPHIC] [TIFF OMITTED] T2923.067
    
    Mr. Stupak. Thank you, and thank you both. We will go to 
questions, and I think we are going to go 10 minutes and give 
everybody an opportunity so we can move the panels right along.
    You both mentioned transparency, the need for transparency 
in the deliberations and in reports and studies that the EPA 
does, but Dr. Grifo, let me ask you because you have done this 
survey, and your survey shows that political interference with 
science has increased over the past several years. What do you 
think are the consequences of inaction, if nothing happens--you 
gave us three recommendations, if the Congress did nothing--
from your point of view, on behalf of the scientists?
    Ms. Grifo. From my point of view, I think one of the 
scariest things that is going on or come out of my 
conversations independent of this survey were conversations 
that I have with young scientists at the EPA, scientists who 
say to me, we are waiting, we are staying until January, 
February to see what happens, but after that, we are leaving 
because there is no place in this agency for innovation and for 
a young scientist to really blossom and grow. And to me, that 
is frightening. We are at a point anyway with the EPA where 
retirements are happening because of the date that the Agency 
was founded. Many of its scientists are at retirement age, and 
if we don't have a young crop of scientists who are 
enthusiastically there, I think that is a huge problem, but 
obviously there are many other consequences.
    Mr. Stupak. In your report, you mentioned, I think, about 
500 scientists responded. One hundred mentioned the OMB as 
being sort of a source of interference here. Can you give me 
some examples of some of those comments? What did they mean, 
like source of interference? What did they allude OMB does, 
Office of Management and Budget?
    Ms. Grifo. There were a number of things, and I want to be 
clear that we did not ask them about OMB. We asked them how 
could political interference at the EPA, or how could 
scientific integrity be restored at the Environmental 
Protection Agency, and as you said, nearly 100 scientists came 
back and said, you know, it is about OMB. Some of the specific 
quotes: ``Restrain the Office of Management and Budget. This 
administration has not only watered down important rules 
protecting public health, they have also altered internal 
procedures so that scientific findings are accorded less 
weight.'' Another one: ``In this administration, self-
censorship is almost as powerful as the political censorship. 
Options that OMB or the White House wouldn't like aren't even 
put forward,'' and I think that is another serious issue. I 
think if the line is unclear in terms of what you can say or 
do, you don't even want to come near that line and so we find 
scientists not even approaching a study that they think could 
potentially be controversial, and so on. There are many, many 
comments and they are all on our Web site.
    Mr. Stupak. Thank you.
    Mr. Stephenson, if I may, I said that you had mentioned 
transparency in your testimony, and why is transparency 
important in this process?
    Mr. Stephenson. Well, as I mentioned, it is a principle of 
sound science, and even the appearance of a conflict of 
interest is a problem, and what EPA has been doing lately is 
mixing the science part of risk assessment with the management 
and policy part. The science is the science. I can imagine a 
situation where an agency would have a piece of research that 
should be held deliberative. The science is the science so the 
facts drive that. So if they want deliberative comments in the 
policy or the policymaking part of this, that may be OK, 
although I think the entire agency should be transparent.
    Mr. Stupak. So is it fair to say the policy is spilling 
over into the science part of it as to whether--like TCE, you 
mentioned TCE in your testimony--or not that should be listed 
as a cancer-causing agent. The science is one thing, policy is 
another thing, how you handle it. They should be independent of 
each other, should they not?
    Mr. Stephenson. Right, and you have to do reassessments at 
least every 10 years on all the 500 chemicals that are in 
there, so if you are constantly reevaluating or holding until 
additional research is done, there is lots of problems beyond 
just transparency just in the length and the cumbersomeness of 
the process itself. We have to get this done quicker.
    Mr. Stupak. Well, the reason why I mentioned TCE, this 
subcommittee has held a number of hearings on TCE at Camp 
Lejeune which has gone way, way back many, many years and we 
are still trying to get some kind of IRIS completed on TCE so 
we can begin the process and the policy decisions can take 
place and different administrations are going to disagree how 
you handle it, but how do we move past that? How do you get TCE 
on the IRIS? It has taken how long? Eight years? And is it 
completed yet?
    Mr. Stephenson. Ten plus. That is just one example that we 
used. We offer several specific recommendations in our report 
to handle this, for example, giving advance notice when an 
assessment is going to begin so that the research can be done 
prior to the assessment actually starting. Don't hold up a risk 
assessment like TCE for 2 years waiting for the National 
Academy to come up with additional information and then that 
information simply confirms what EPA has already done. Do that 
before that. The IRIS is supposed to capitalize on existing 
scientific research. It is not doing anything new. Why does 
that process take 10 years to assemble the best available 
science on a given chemical?
    Mr. Stupak. Well, if EPA had already made its decision and 
required the National Academy of Science to look at it, they 
reaffirm what EPA did, then why don't we have TCE out there as 
on the IRIS and here is the risk associated with it?
    Mr. Stephenson. That is a very good question. I can't 
explain that.
    Mr. Stupak. Do you know of any scientific information that 
would prevent that from happening?
    Mr. Stephenson. We are not a science organization but we 
can read the research and we can read the science. What we are 
suggesting, there needs to be more organization in this 
process. TCE was done under the old process before comments 
were declared deliberative and it took that long in the old 
process. Now there are several new steps that have been 
introduced into the new process like the two new OMB reviews. 
OMB contends that EPA owns the process. All throughout our 
investigation they said EPA owns this process yet if you look 
at the OIRA part of OMB, they recognize that EPA loses control 
of the process once the assessment goes to OMB, so it is a left 
hand-right hand syndrome at OMB.
    Mr. Stupak. So why is OMB's process in the dark? Why is 
that not open to transparency?
    Mr. Stephenson. Well, it is not OMB. OMB is trying to 
facilitate and coordinate interagency comments, from DOD, from 
the Department of Energy, but why that shouldn't be done in the 
open for a scientific process like a risk assessment, we can't 
explain.
    Mr. Stupak. Well, in this flow chart--and Kyle, if you can 
bring up the flow chart. Bring up the one, the current one, 
post April 10, 2008.
    [Chart shown.]
    Mr. Stupak. And the reason why I bring that one up, it is 
pretty wild, but not only is it hard to follow, but it looks 
like it is open to review until we get to the OMB part, then we 
go into sort of like secret and then it pops back out and there 
is some more review and then we go back into OMB again, we are 
secret, then we get right back to OMB one more time, the final 
process. Why is this process open, closed, open, closed 
throughout this? Any justification for it?
    Mr. Stephenson. From an interagency comment point, it is 
closed until the assessment becomes final and then it is 
provided to the general public, it is peer reviewed, but no 
one, no scientist, the general public, nobody knows what kind 
of input that the Department of Defense or the Department of 
Energy or OMB for that matter might have had. We don't--nobody 
knows. The point is, the public has to have confidence that 
this scientific assessment is done in the sunlight, and this 
particular process doesn't support that objective.
    Mr. Stupak. And this process probably doesn't show it. Is 
it safe to say, does EPA even own this process anymore? Is it 
basically OMB that controls this process?
    Mr. Stephenson. Well, it depends upon which part of OMB you 
ask, but the management part will say that EPA owns the process 
but when you look at the part reviews, the OIRA part of OMB 
admits in the part reviews that EPA loses control of that 
process once the assessments are submitted to OMB.
    Mr. Stupak. EPA is always going to say they control the 
process because it is supposed to be their process but from the 
testimony and studies I am seeing, OMB looks like they control 
it. So you as a member of Government Accountability Office, 
what is your assessment? Who owns this process? Who is 
controlling this process, EPA or OMB?
    Mr. Stephenson. We couldn't get past asking OMB the 
question. OMB says EPA owns it. It appears to us that OMB owns 
the process at a certain phase.
    Mr. Stupak. So it would appear that OMB owns the process?
    Mr. Stephenson. EPA can't move forward on a risk assessment 
until it gets clearance from OMB, until the interagency reviews 
are complete, so----
    Mr. Stupak. OMB coming into this process, this is just--has 
this occurred under this Administration or has it happened 
under other Administrations?
    Mr. Stephenson. OMB has always coordinated interagency 
comments on anything. That is one of their functions. That is 
part of the M in OMB, the management function to facilitate the 
federal family of agencies. However, it should be done in this 
case from a scientific process in the sunlight. That is our big 
concern with this.
    Mr. Stupak. Kyle, go back to Number 1, the first one of 
this, the pre-2004.
    [Chart shown.]
    Mr. Stupak. This is the pre-2004. I don't really see much 
where OMB is in that process. They don't have a designated spot 
in there, do they, where they would come into this process 
other than overall coordination?
    Mr. Stephenson. No.
    Mr. Stupak. OK. Then Kyle, go to the second one, and this 
is from 2004 to 2008.
    [Chart shown.]
    Mr. Stupak. I see OMB in there two places, Number 9 on the 
top there and then Number 13 in the lower right-hand corner 
where final OMB interagency review and approval, and then Kyle, 
go to the last one. I see OMB, and I am just doing a quick look 
here, about three times in it, Number 9 again, Numbers 12A and 
12E, and one place earlier too, I guess that would be pretty 
close to four of them. But it just seems like this process gets 
more bogged down. Have the chemicals being looked at, have they 
been--has the process greatly slowed down under this new 
schematic?
    Mr. Stephenson. It has only been in force since April.
    Mr. Stupak. It is hard to say then, I guess.
    Mr. Stephenson. What we are suggesting is if DOD thinks 
that the research or the scientific evidence isn't sound on a 
given chemical, it can request additional studies like it did 
on TCE of the National Academies. National Academies is a busy 
place. It took them 2 years to complete their assessment, which 
reaffirmed what EPA had already said when it amassed the 
scientific evidence on TCE at the time. So this constantly 
repetitive sending it back to OMB, do more research, look at 
the sensitivity analysis, do more research, it just never gets 
out of this process and it is supposed to assimilate existing 
scientific research. It is not supposed to be creating new 
research on a given chemical. How can that process take 10 
years?
    Mr. Stupak. My time is up. Mr. Shimkus for questions, 
please.
    Mr. Shimkus. Thank you. I want to ask Ranking Member 
Barton, do you still want to--all right.
    Kyle, if you would put the messy one up.
    [Chart shown.]
    Mr. Shimkus. No one is going to try to defend this process, 
no one, so that is just bureaucratic slowing down the processes 
and it is not efficient and you will find no one on our side 
trying to defend that, and that definitely has to be 
streamlined.
    Dr. Grifo, who funds the Union of Concerned Scientists?
    Ms. Grifo. We are funded by our membership and by 
foundations.
    Mr. Shimkus. And can you name the foundations?
    Ms. Grifo. Not all of them. They are in our annual report 
on the Web site but I can name the ones, a couple--Hewlett 
Foundation, Packard Foundation, it is a long list.
    Mr. Shimkus. Can you tell me how this report that you 
published was peer reviewed, and was it done as we expect the 
EPA to do it publicly and externally?
    Ms. Grifo. Yes.
    Mr. Shimkus. And can you tell me who peer reviewed it?
    Ms. Grifo. Yes, it is on the acknowledgements page, roman 
numeral VII. It is listed David Michaels, Mike Walsh, Eric 
Shaffer, Molly Churchill, Rick Melburth, Michael Halpern, Kathy 
Rest, Kurt Gottfried, and an unnamed former EPA scientist 
providing valuable comments. We also had a steering committee 
early on in the process as well.
    Mr. Shimkus. Obviously I am going to base most of my 
questions on the CRS report because my frustration is, you want 
it both ways. I think because you knew we had the CRS report, 
then you had a chance to respond in writing, which is in the 
binder, but at one point you say it was a census but then in 
your testimony in the questions you say, well, we are going to 
extrapolate this to the whole body. You really can't have it 
both ways. Either it is a census or it is a credible poll that 
you can extrapolate to the whole body, and for scientists to 
claim support of the scientific method and not use a scientific 
process is frustrating. Some examples, on page 2 of the report, 
the CRS report states that what constitutes such interference 
as opposed to editorial differences and policy or substantive 
disagreements is not spelled out for the respondents. One 
person's political interference might be another's heavy-handed 
editing. The report gives us examples of political 
interference. Aside from that, how do you define it?
    Ms. Grifo. It is actually defined in the questionnaire that 
the scientists had.
    Mr. Shimkus. Well, I am asking, how do you define it?
    Ms. Grifo. Well, I can refer you to that page in the report 
where it specifically lists a specific--it is on page 73 of the 
report and it is a very long list of about 10 different things, 
and this is the list that was given to the scientists when they 
were given this to respond to.
    Mr. Shimkus. How do you answer the concern that the way you 
phrase questions about political interference may have in fact 
influenced the way people answered these questions?
    Ms. Grifo. We used political interference twice at the very 
end of the survey and where we used it was just above this list 
where we defined it. I would also like to say, I think there is 
another misconception which is that the entire report and the 
conclusions are based on the survey. They are not. The report 
is comprised of both qualitative and quantitative information. 
I think when we look at the list of incidents, we interviewed 
and----
    Mr. Shimkus. Let me reclaim my time and stay on this 
political interference discussion. Your report in defining 
political interference gave a number of examples of situations 
that could construe to political interference. These include 
directed to exclude or alter technical information in report, 
changes or edits during review that change the meaning of 
scientific findings. Is it possible that some of these 
situations may be the result of good-faith disputes about 
science rather than the product of interference?
    Ms. Grifo. I think if we look at the long list of incidents 
that we have documented at the EPA, I think we would be hard 
pressed to call them heavy-handed editing. I think if we look 
at, you know, the mercury in power plants, new source review, 
OMB and the EPA----
    Mr. Shimkus. You know, I can debate----
    Ms. Grifo. There is a long list of documents.
    Mr. Shimkus [continuing]. New source review from the 
electricity generation debate which has a false premise that 
when you replace a more efficient generator, that you have to 
redo the whole EPA permitting when you get a bigger, higher 
input versus that. So I mean, we can talk new source review all 
we would like but----
    Ms. Grifo. Could we go to page----
    Mr. Shimkus. No, ma'am, it is my time. We deal with surveys 
and polls all the time. Here is a summary. Terms and phrases 
used in the questionnaire are vague. A control group was not 
included. Longitudinal analysis was not conducted, which means 
this environment of corporate culture at the EPA may have 
existed in previous administrations but since you did not do a 
longitudinal analysis, you make a political attack on this 
Administration based upon an unscientific poll. Some 
questions--and this is just from the CRS report. This is not 
me. Some questions relied on what the respondent knew of or 
hearsay.
    Ms. Grifo. That was to get at the culture at the Agency. 
That was not to document incidences.
    Mr. Shimkus. Hearsay.
    Ms. Grifo. In agencies like this, culture is very 
important.
    Mr. Shimkus. Hearsay, a scientist using hearsay to attack 
the scientific process of the EPA. I just find that members of 
Congress, if we would use hearsay, we would get held 
accountable.
    Ms. Grifo. We did not draw our conclusions based on 
hearsay. The hearsay was there to measure the culture----
    Mr. Shimkus. OK, let us go to another one. The respondents 
likely included those beyond the intended sample such as non-
scientists and was biased toward senior scientists. The sample 
was not designed so that results can be extrapolated to a total 
population.
    Ms. Grifo. Yes. Correct.
    Mr. Shimkus. But your statement, in your opening statement, 
you talk about, you making it widespread abuse. If you are 
going to say widespread abuse, what are you saying? We are 
going to extrapolate that. So that is why you can't have it 
both ways.
    Ms. Grifo. Could I respond?
    Mr. Shimkus. If it is a census, then you can't say 
widespread. If it is a poll that has a sample size and it has 
been done randomly, we all know that, how polls operate, then 
you could extrapolate for the whole body. But you can't have, 
you just can't have it both ways. And I think the frustration 
point here is again scientists attacking the Administration and 
the EPA using an unscientific poll. The original questionnaire 
and data limitations are not included in the analysis. The 
conclusions drawn from the analysis may be inappropriate 
instances in which no opinion responses to a question exceed 20 
percent. And then the results of these investigations show an 
agency under siege from political pressures, that is your 
comment, on a number of issues ranging from mercury pollution 
to groundwater, which you have mentioned, to climate change, 
political appointees, the Administration have edited--and here 
is a response to that statement. However, depending upon the 
population base used, the percentage who personally experienced 
at least one incident of political interference is either 56 
percent or 15.3 percent, which may influence one's perception 
of whether the EPA is under siege. Fifty-six percent, oh, we 
got a problem. Fifteen percent, who knows. Maybe disgruntled 
individuals.
    Ms. Grifo. Eight hundred and----
    Mr. Shimkus. In addition, the survey respondents were not 
asked questions about specific environmental issues such as 
those in the quote mercury pollution. This is not my report, 
ma'am.
    Ms. Grifo. Well, if I could----
    Mr. Shimkus. This is a congressional resource.
    Ms. Grifo. You know, later on in the----
    Mr. Shimkus. Ma'am, it is my time. So it is unknown as to 
which environmental issues survey respondents were referring to 
when they indicated political interference had taken place. 
That is my frustration. Now you have time, ma'am.
    Ms. Grifo. Thank you. Also in the CRS report, they 
acknowledge that they didn't have all the materials that they 
needed in order to do this analysis. This report was not done 
in any sort of consultation with us where we could have 
provided them with the screens that the scientists saw when 
they took the survey. They didn't have that information. They 
didn't have information, other parts of our research 
methodology.
    Mr. Shimkus. Can I ask a question?
    Ms. Grifo. And CRS--could I finish? I think this is my 
time.
    Mr. Shimkus. No, it is not. Ma'am, it is not your time.
    Mr. Stupak. It is technically Mr. Shimkus's time.
    Mr. Shimkus. Let me ask why didn't you just do a survey, a 
scientific survey with a random sample to be able to 
extrapolate to the whole?
    Ms. Grifo. Because of the lack of transparency at the 
Agency. We did not have access to a full list of the scientists 
at the Agency. We had to construct that ourselves. We did not 
have the cooperation of the Agency.
    Mr. Shimkus. Did you ask?
    Ms. Grifo. Absolutely we asked.
    Mr. Shimkus. Was it in writing or by a phone call or an e-
mail? Do you have documents that support that request?
    Ms. Grifo. We had conversations that we had trying to get 
that list.
    Ms. Shimkus. Do you have a phone log?
    Ms. Grifo. I could probably find one.
    Mr. Shimkus. That would be helpful to us. Science under 
siege, if you are going to use science to attack that science 
is under siege from the scientific community, I would request 
that you have scientific background to do that.
    I yield back, Mr. Chairman.
    Mr. Stupak. Do you want to answer?
    Ms. Grifo. I would love to.
    Mr. Stupak. I will let you answer. It should also be noted 
just for the record, and I am sure Mr. Shimkus realized that 
their response to the CRS is found at tab number 29 in our 
binder. It is right there----
    Mr. Shimkus. That is true, Mr. Chairman, and I think it 
would be fair for the Majority and for Dr. Grifo to appreciate 
the fact that we are the ones who found the CRS timely manner 
to the Majority so you had an opportunity to respond. It was 
because of what the Minority did to give you the opportunity to 
respond in writing.
    Mr. Stupak. It is there. It is exhibit number 30. We never 
move until the end of the hearing so without objection, tab 
number 29 in our hearing book will be part of the record. We 
will do it right now. If you care to respond, I will give you a 
minute.
    Ms. Grifo. Thank you.
    Mr. Stupak. Mr. Shimkus has the right to take all 10 
minutes to ask a question if he wants, but you have time and 
then we will move on to Mr. Dingell.
    Ms. Grifo. Thank you. Many, many things that need to be 
clarified. First of all, the CRS report was sprung on us during 
testimony at a hearing in May. There was no notice whatsoever. 
The response was constructed after that hearing so this was not 
a gift from anyone. I think we can turn to the last paragraph, 
to the last page of the CRS report, and it says it is 
difficult, you know, to tell whether or not any of the 
critiques identified above would change the public's perception 
of the survey results regarding this issue. Further, it is 
important to keep in mind that for many in the science and 
engineering community, even one case of political interference 
would be considered to be improper. Independence is a critical 
part of this community's value system regardless of whether 
they are working for government, universities, or industry. In 
the response that we did, we go into a lot of the specifics but 
I think the key point is the conclusions that we made regarding 
those other issues and regarding the Agency as a whole are not 
based solely on the survey. They are based on qualitative 
research as well as that quantitative research. Both of them 
come together to produce those results. As I have said, there 
is a long list of examples: mercury in power plants; OMB in 
EPA; climate change. I hardly think that removing a reference 
to numerous studies such that EPA itself didn't even leave the 
chapter in a draft report in the environment in 2003, I think 
that is a lot more than heavy-handed editing that we are 
talking about here. And there are many examples: particulate 
matter; ozone, peer review, risk assessment, IRIS, program 
assessment tool rating; EPA and communication barriers; 
communication of climate change science; right to publish; 
particulate matter; and ozone, I have talked about--and on and 
on--lead, NOO<INF>x</INF>, hydraulic fracturing, library 
closures. It is a very long list. I believe that we have a lot 
of evidence that supports our conclusion, and I would just end 
with the statement that 889 scientists reporting interference 
in the last 5 years, that is a number that is far too large to 
be acceptable, and at a hearing in May, Dr. Gray accepted that, 
that that number was too large. Thank you.
    Mr. Stupak. OK. That concludes the questions of Mr. 
Shimkus. Mr. Dingell is not back yet so we will go to Mr. 
Melancon for questions, please, 10 minutes.
    Mr. Melancon. Thank you, Mr. Chairman. I appreciate the 
opportunity. I was going to offer Ms. Grifo the opportunity to 
comment since the time for the other member had run out.
    I guess one of the questions or one of the things that I 
have observed in one of my previous careers was scientists that 
feel that people are trying to direct their data to where they 
want it to go. Is that, do they actually do the science, do the 
report and then after the fact OMB and others are trying to 
delete or change or alter the outcome, Dr. Grifo?
    Ms. Grifo. Yes, I think one of the most startling examples 
of that does have to do with mercury and power plants. It has 
to do with the example where the clean air mercury rule. This 
took place in 2005. We have evidence that the White House and 
utility companies and power companies shaped this rule when in 
reality it should have been based on the science that was 
coming from the scientists at the EPA, and we have significant 
documentation to that effect that I am happy to share, and that 
is one example, you know, of many that we could bring up.
    Mr. Melancon. And Mr. Stephenson, from your perspective, 
the analogy that you can't have it both ways, do you feel that 
that in fact is the case or do you feel that the information 
that you were able to obtain and of course obviously not being 
able to follow the paper trail all the way through the process 
because it disappears at points in times, do you feel that 
there is validity? I have always been a believer if there is 
smoke, there is fire. Do you believe that from your review, 
from, I would assume your interviews with people within the 
Agency, that in fact there is interference?
    Mr. Stephenson. We didn't try to ascribe blame or--what 
actually transpired. Our problem is with the process itself. No 
scientific process should be deliberative. You have just got to 
be more organized in these risk assessments than get them done 
quicker. We didn't try to say there was political influence or 
anything else. We just noted how many times OMB can stop the 
process at DOD's direction or anything else, ask for additional 
research, ask for uncertainty analysis, ask for a lot of things 
and continue to go back to the drawing boards on these 
assessments. They simply have to be done quicker than 10 years 
if they are going to be effective. We can't leave the public 
exposed to a dangerous chemical while we are waiting for them 
to complete a risk assessment.
    Mr. Melancon. So for either or both, where do we get 
someone to give us an objective diagram of how the process 
works so that we take manipulation either from the Congress or 
from any administration out of the process so that when we are 
delivered a report, we know that report has got all the 
scientific data right, draw your own conclusions if you would, 
but is there a place or an organization that can help us 
streamline, as Mr. Shimkus would like to do, which I agree 
with, and to make it so that when the data is there, we know 
that the data is in fact legitimate scientific data?
    Mr. Stephenson. In our view, that is the importance of 
transparency for the science to be done in the sunlight so it 
would be huge to remove the black box. If the Department of 
Defense or Department of Energy or OMB or any other agency, for 
that matter, has a problem with the scientific assessments that 
EPA has done and has additional research to provide towards 
that science, it should be in the public. Why should that be 
done in a backroom?
    Mr. Melancon. I agree with you. I totally agree with you. 
The peer review process, and I think at some point in time they 
are talking about looking at what the science, and I think what 
happens, my experience has been, scientists just don't go in a 
cubicle all day long. They come out and they communicate with 
their counterparts what they are thinking, what they are 
hearing, what they are seeing, what they are feeling, because 
that is where they get the food for thought to go forward. Has 
there been a hindrance in that processing do you believe 
because of the concern with OMB or any other agency or even the 
Congress coming in and somebody--the fear of somebody looking 
over your shoulder and saying well, you are going in the wrong 
direction? I mean, is there a fear even working with your 
fellow scientists that maybe somebody would cause you problems?
    Ms. Grifo. In fact, we did ask a question in the survey 
about retaliation and fear of retaliation, and hundreds of 
scientists reported that but I think what is really telling is 
that 492 felt that they could not speak candidly within the 
Agency. This is not talking to the press, this is not talking 
to colleagues at universities. This is simply within the 
Agency, and 382 felt they could not do so outside the Agency, 
but setting the survey aside for a moment, there are also many 
other examples. If we look at the publication policies, the EPA 
peer review handbook, if we look at several scientists 
reporting problems with press contacts, if we look at, Dr. 
Titus, who was a project manager, was not--had interference in 
his desires to have an interview with the New York Times and so 
on and so forth. So we also have examples of scientists not 
being able to go to meetings. One colleague at a meeting went 
so far as to say if the scientist doesn't come, we are going to 
have 20 minutes of silence in the place where their talk would 
have been because they were so baffled by the fact that this 
scientist couldn't come. I think as you have rightly said, 
secrecy is an anathema to the scientific process. Scientists 
move ahead, the entire process moves ahead through this very 
transparent deliberative process, and that I think is a really 
frightening aspect of this closed-door deliberations, of these 
closed-door deliberations.
    Mr. Melancon. How many scientists do you have at the 
Agency?
    Ms. Grifo. We don't have a number. At the hearing in May, 
Dr. Gray, I think, said 7,000 scientists at the EPA.
    Mr. Melancon. That is a lot of scientists to be paranoid 
now.
    Ms. Grifo. Even one would be too many.
    Mr. Melancon. Yes, ma'am. Thank you.
    I yield back my time.
    Mr. Stupak. Thank you, Mr. Melancon.
    Mr. Barton for questions, please.
    Mr. Barton. Thank you, Mr. Chairman. I am going to focus 
most of my questions to Dr. Grifo.
    I will just ask a general question to Mr. Stephenson 
because we have, one of the examples before us is the removal 
of Dr. Rice from a peer review panel on the chemical deca 
because she had stated to the Maine Legislature that she 
thought deca was a hazard, and if I understand correctly, 
should be banned, so they put her on this panel and then the 
industry complained that she was on the panel because she had 
announced, basically, a conclusion before the panel did its 
review. Mr. Stephenson, if you were accused of some crime and 
were on trial, would you want somebody on the jury who already 
had said publicly that you were guilty?
    Mr. Stephenson. Of course not.
    Mr. Barton. So there may be a valid reason that Dr. Rice 
should have been on that panel but there also appears to be 
sufficient reason that she shouldn't have been.
    Mr. Stephenson. Well, there are special rules. The peer 
review panels are large and balanced intentionally so----
    Mr. Barton. But you don't normally----
    Mr. Stephenson. One peer reviewer should not theoretically 
make a difference.
    Mr. Barton. But you wouldn't put somebody on a peer review 
panel that already had a conclusion about the subject under 
consideration?
    Mr. Stephenson. I don't know the situation but logically it 
doesn't seem like you would.
    Mr. Barton. OK. Let us go to Dr. Grifo. You say in your 
written testimony down at the bottom on your introduction, and 
I quote, ``Our report documents changes in EPA policies 
regarding risk assessments that allow polluting federal 
agencies more control over the science.'' What is a polluting 
federal agency?
    Ms. Grifo. Well, I think in this instance, we were 
referring to the Department of Defense and the chemical that 
was already alluded to in the GAO report.
    Mr. Barton. So you are just stipulating that at least the 
Department of Defense is a polluting agency and you used the 
plural ``agencies.''
    Ms. Grifo. That is one. There are other instances. 
Department of Energy. I can provide you with full documentation 
of those instances.
    Mr. Barton. You just assert that these federal agencies are 
themselves polluters.
    Ms. Grifo. The federal agencies are responsible for 
chemicals that they are releasing in the course of their 
mission-driven duties and releasing a chemical that is 
potentially dangerous to public health into the environment, I 
think we would have to--that would be my definition.
    Mr. Barton. So you want us to eliminate or shut down the 
Department of Defense and----
    Ms. Grifo. No, I want----
    Mr. Barton [continuing]. Energy?
    Ms. Grifo. Sorry, sir. I didn't mean to interrupt. I think 
that there has been in the past a deliberative process that was 
more efficient and more transparent by which these things were 
resolved. No one is saying that OMB should not have a 
coordinating role. I think that is a very appropriate role for 
the Office----
    Mr. Barton. I didn't ask you about OMB yet. When you make 
the assertion that our federal agencies are themselves 
polluters, that does show to me somewhat of a bias, at least by 
yourself. I would hate to know what you think about the House 
of Representatives.
    Ms. Grifo. We are all polluters, sir. I will grant you that 
point. We are all certainly not perfect in that regard. But I 
do think that if an agency is using a chemical or putting a 
chemical into the environment that is potentially damaging to 
public health, then that is a cause for deliberation and 
concern and we need to have a process that respects that.
    Mr. Barton. I agree with the last statement. In the second 
page, you say, ``The White House has rewritten EPA's scientific 
documents concerning climate change and pressured EPA 
scientists to support predetermined conclusions regarding 
mercury pollution.'' What predetermined conclusions did the 
White House pressure EPA scientists to adopt?
    Ms. Grifo. I don't think you have to take my word on that. 
EPA Inspector General Nicky Tinsley confirmed in February 2005 
that EPA scientists were pressured to change their analysis----
    Mr. Barton. No, no, I want to know what the predetermined 
conclusion is.
    Ms. Grifo. Well, this particular example was about the 
level of mercury that was allowable under the clean air mercury 
rule.
    Mr. Barton. But the level, the parts per billion or parts 
per million, you are saying that the White House knew 
beforehand what the level should be and forced the EPA to put 
that level into the rule?
    Ms. Grifo. I am saying that the Inspector General----
    Mr. Barton. If you believe that, let us document it, OK? 
Don't just say it, let us document it. I don't think that 
statement can be substantiated but I don't know, but if you 
know, let us put that in the record. That is what the oversight 
subcommittee is all about.
    Ms. Grifo. We will be happy to.
    Mr. Barton. Now, later on on this same page you say, 
``Political interference has penetrated deeply into the culture 
and practices of federal agencies.'' Do you believe a president 
of either political party should not have the right to put his 
or her political appointees at the top of these federal 
agencies?
    Ms. Grifo. No, sir, I believe that is entirely appropriate.
    Mr. Barton. If it is appropriate, and I agree with you on 
that, should not these political appointees have some ability 
to oversee and influence the culture and practice of the 
federal agency that they are the appointee to?
    Ms. Grifo. They should not have the ability to change the 
science, to manipulate science----
    Mr. Barton. That is not my question.
    Ms. Grifo. And I don't think they should have the ability 
to intimidate the scientists.
    Mr. Barton. You said that----
    Ms. Grifo. That is part of the culture, I would say.
    Mr. Barton [continuing]. Political interference has 
penetrated deeply into the culture and practices of a federal 
agency, and I don't know how many federal employees we have on 
the Administration side but it is tens of thousands, maybe 
hundreds of thousands. We have got, I think, 500 presidential 
appointees. Now, I could be wrong on that, and Mr. Stupak or 
you can show me, but it is----
    Ms. Grifo. Close enough.
    Mr. Barton [continuing]. A small number. Those individuals, 
whoever is fortunate enough to become President of the United 
States, should have the right to appoint his or her appointees 
and they should have some ability to influence the culture and 
practice of that agency. If they don't, they shouldn't be 
there. They should not be there. Now, so to make a statement 
that the fact that they are appointees and the fact that they 
try to manage, that somehow political interference is a 
pejorative term. They shouldn't be there if they don't try to 
manage in some way the agencies. Now, on page 3 of your 
testimony, and you underlined this with a bullet point, you 
say, ``Interference can take many different forms including 
falsifying data and fabricating results.'' Can you give any 
specific examples where a political appointee has flat 
falsified the data or fabricated results?
    Ms. Grifo. Yes, sir.
    Mr. Barton. Can you give one off the top of your head?
    Ms. Grifo. Off the top of my head, I would say this is an 
example of both the things that we are talking about. I am 
thinking of Assistant Deputy Secretary of Interior, Julie 
McDonald, calling biologists in the field and bullying them 
into reaching conclusions that----
    Mr. Barton. Wait a minute. Wait a minute. Making a phone 
call is not----
    Ms. Grifo. Well, let me finish.
    Mr. Barton. Falsifying data is----
    Ms. Grifo. We have her changes, track changes----
    Mr. Barton. You tell me the data point is 10 parts per 
million and I say no, no, it is not, we are going to put that 
it is 5 parts per million or we are going to put it as 100. 
That is falsifying data. Having a difference of opinion or 
challenging an assumption or a conclusion is one thing, and 
that may be wrong past a certain point in time, but that is not 
what you say. You said they falsify data and they fabricate 
results. Now, if you all can prove that, Mr. Stupak and Mr. 
Shimkus and myself and Mr. Dingell, we want to know it. I mean, 
that is fraud.
    Ms. Grifo. Yes, sir. Can I direct you to our A-Z guide to 
political interference in science? We have nearly 90 examples 
there of exactly what we mean by political interference. Every 
single one of them is----
    Mr. Barton. Well, wait a minute. You are changing the 
terminology. We are not talking about political interference, 
we are talking about falsifying data.
    Ms. Grifo. Well, that is one of those kinds of----
    Mr. Barton. Fabricating a result, now, that is different. 
Now, my time is just about up, so I want to put something in 
the record, Mr. Chairman, and we will give it to the Majority 
staff before you agree to put it in but I am going to read from 
it because later on in her testimony the doctor talks about 
climate change and greenhouse gases and how that has been 
impacted. I haven't verified this but I want to get your take 
on it. This is a gentleman named David Evans. He is an 
Australian scientist, and he participated in the Kyoto Protocol 
and I am just taking his word so I can't verify under oath this 
is true. I am going to quote, ``I have been following the 
global warming debate closely for years. When I started the job 
in 1999, the evidence that carbon emissions caused global 
warming seemed pretty good. CO<INF>2</INF> is a greenhouse gas. 
The evidence wasn't conclusive but why wait until we were 
certain when it appeared we needed to act quickly. Soon the 
government and the scientific community were working together 
and lots of science research jobs were created. But since 1999, 
the new evidence has seriously weakened the case that carbon 
emissions are the main cause of global warming, and by 2007, 
the evidence was pretty conclusive that carbon played only a 
minor role and was not the main cause of the recent global 
warming. As Lord Kean famously said, when the facts change, I 
change my mind. What do you do, sir. There hasn't been any 
public debate about the causes of global warming and most of 
the public and our decision makers are not aware of the most 
basic facts. Number one, the greenhouse gas signature is 
missing. We have been looking and measuring it for years and 
cannot find it. Each possible cause of global warming has a 
different pattern everywhere in the planet the warming occurs. 
The signature of an increased greenhouse effect is a hot spot 
about 10 kilometers up in the atmosphere over the tropics. We 
have been measuring the atmosphere for decades using radiosons, 
which are weather balloons with thermometers that radio back 
the temperature as the balloon ascends through the atmosphere. 
They show no hot spot whatsoever. If there is not a hot spot, 
then an increased greenhouse effect is not the cause of global 
warming. So we know for sure that carbon emissions are not a 
significant cause of global warming. If we had found the 
greenhouse signature, then I would be an alarmist again. When 
the signature was found to be missing in 2007, after the latest 
IPCC report, the alarmists objected that maybe the readings of 
the radioson thermometers might not be accurate. Maybe the hot 
spot was there but had gone undetected. Yet hundreds of 
radiosons have given the same answer so statistically it is not 
possible that they have missed the hot spot. Recently the 
alarmists have suggested we ignore the radioson thermometers 
but instead take on radioson wind measurements, apply a theory 
about wind shear and run the results through the computers to 
estimate the temperature. Then they say that the results will 
show that we cannot rule out the presence of a hot spot. If you 
believe that, you will believe anything.'' Do you think that 
the Bush Administration has prevented this information from 
being public?
    Ms. Grifo. Is that to me?
    Mr. Barton. Yes, ma'am.
    Ms. Grifo. No idea.
    Mr. Barton. Well, do you have an opinion?
    Ms. Grifo. No, not my issue. Climate change is a 
complicated debate.
    Mr. Barton. Not your issue?
    Ms. Grifo. No, I think----
    Mr. Barton. You talk about patterns of abuse.
    Ms. Grifo. Could I finish?
    Mr. Barton. Scientists studying what may very well be the 
most profound global change of the century, global warming, are 
effectively barred from communicating their findings to the 
news media and the public.
    Ms. Grifo. Well, that I am happy to discuss. I mean, we do 
have------
    Mr. Barton. That is what I am asking about.
    Ms. Grifo [continuing]. Examples of interference. We do 
have many examples. I think James Hanson achieved great 
notoriety.
    Mr. Barton. Do you think that this might be an example of 
the scientific community not wanting to acknowledge an 
unpleasant fact, that in fact you can't prove that manmade 
CO<INF>2</INF> is a cause of global warming and it may be the 
scientific community whose theory is wrong and so they don't 
want to publicize this? You know, this isn't OMB preventing 
this from becoming public or Dr. Johnson at the EPA or some 
assistant secretary or something.
    Ms. Grifo. The IPCC is a very thorough process, very peer 
reviewed, very well constructed. It is the gold standard for 
this information. I am sure that they have considered and 
deliberated that gentleman's opinion and I am sure----
    Mr. Barton. And I don't know that it is----
    Ms. Grifo. But I don't know that it was suppressed. I have 
no evidence of that. If you have evidence of that that you 
would like to----
    Mr. Barton. No, ma'am, I am not the one alleging 
suppression.
    Ms. Grifo. I am happy to investigate it and add it to our 
list of examples, if you have that documentation.
    Mr. Barton. Mr. Chairman, I have abused the privileges of 
the subcommittee in terms of its time commitment.
    Mr. Stupak. I was going to remind you of that.
    Mr. Barton. I will submit this for the record if the 
Majority and you determine it is worthy of being included, and 
I do ask our Dr. Grifo to please supply the subcommittee with 
specific facts and not just opinions and we will investigate 
those facts and see where they lead.
    Thank you, Mr. Chairman.
    Mr. Stupak. Sure, and as to Dr. Grifo and the facts, their 
report is under tab number 2 and has pretty much very specific 
examples from former EPA Director Christie Todd Whitman and 
others, so I think a lot of the stuff you are asking for is 
probably there. As far as this report on climate change from 
the Australian newspaper, this really isn't a hearing on 
climate change but I have no objection if you want to include 
it in the record.
    Mr. Barton. Well, if there is no objection, I would like it 
to be in the record, but I cannot verify that what it says is 
totally true but it is something we need to look into.
    Mr. Stupak. Right. Maybe we ought to have Mr. Evans come 
here on a climate change hearing.
    Mr. Barton. That might be a good idea.
    Mr. Stupak. Thanks.
    Mr. Stupak. Mr. Inslee for questions, please.
    Mr. Inslee. Yes, that author of that report that Mr. Barton 
is quoting could arrive on his UFO that he has told us about as 
well. If the definition of successful political appointees are 
ones that do in fact affect science, then this Administration 
has been supremely successful. There is no question about that, 
because they have suppressed it every chance they can and it is 
pretty obvious it has gone on. We have seen it on multiple 
occasions from Julie McDonald on up, and it is perverted 
science and it has perverted what the taxpayers have paid for 
and I don't really even think we need a study to know that. If 
you talk to people at the EPA like I do, you just simply know 
that. When I get on the ferry boat and talk to my neighbors who 
work for the EPA, you know that, and you know it from the sort 
of macro view. You know it because in December of 2007, the EPA 
scientists essentially recommended allowing States to limit 
greenhouse gases from cars and trucks and then the political 
appointees deny that and refuse to allow that to happen. Now, 
we know that. There is no dispute about this. The scientists 
made a recommendation. The political appointees denied it. It 
is out in the open, and that is a fraud and that is a travesty 
and that is a rejection of science that is right out in the 
open. We don't even have to have surveys about it. July 11, 
2008, the EPA political appointees decided not to take any 
steps to regulate greenhouse gases despite the fact they have 
been ordered to do so if it affects human health. They have 
concluded it does, but right out in the open, this was a bank 
robbery out in the open, this wasn't at night. I mean, and I 
really respect the people who work for the EPA who are trying 
to do their jobs under these very, very difficult situations, 
and I just want to tip my hat to them. It would be so easy to 
be totally demoralized to do good science, to give it and then 
have it squashed by the Bush Administration must be very 
difficult for them and I want to honor them, and I want to tell 
you why I am so concerned.
    If somebody would put up this picture here, my staff can 
help me, a little picture of what is at stake here. This is a 
photograph of the--actually a graphical representation of 
satellite information of the poles, the Arctic basically 
showing the summer ice, the September ice in the upper left-
hand corner showing September 1979. The sort of light blue is 
what is called the very new ice, the very, very thin ice, and 
the white is the permanent ice, the long-term ice. Then you go 
to down below that to September 1989, you see a very 
significant reduction in the permanent or essentially long-term 
ice. You go up in the right-hand corner, you will see September 
1999, a continued reduction, and this is what is stunning. 
September 2007, the bottom right-hand corner, the only new ice 
are just basically little tiny vestigial remnants of the white 
down at the bottom. We have had an absolute collapse of the 
Arctic while we are sitting here debating about whether the 
Administration has suppressed science in the EPA or not. It is 
pretty doggone clear that this Administration has suppressed 
the single-most important scientific inquiry probably in human 
history in this issue of how rapidly this is happening, and I 
want to show this because this is grounded in the real world. 
In the Arctic, if people understand how important this is, this 
is the heat shield for the planet. John Glenn, if you remember 
when he came in, he had the heat shield. It shielded him. This 
is the heat shield for the planet earth because it reflects 
massive amount of radiation when there is snow there, but when 
there isn't ice there, the ocean absorbs the energy, and this 
is a tipping point potentially that the scientists are so 
concerned about.
    So to me, I appreciate our two witnesses today but it is so 
obvious that the Administration has suppressed and ignored 
scientists that it is not a survey that is private, it is a 
public rejection of science that we have witnessed, and it 
portends potential fairly cataclysmic results, and I am 
astounded that we are still having these discussions, but we 
are, and I just look forward to January 20, 2009, when this 
country can get back to the job of science. If anybody wants to 
comment on that, go ahead. Anybody want any comment?
    Ms. Grifo. Touche.
    Mr. Inslee. Thank you.
    Mr. Stupak. All right. Mr. Shimkus has a question.
    Mr. Shimkus. Just one follow-up. Dr. Grifo, you mentioned 
the names of the peer reviewers who did your report. Were any 
of those inside of your organization that were not outside?
    Ms. Grifo. Two.
    Mr. Shimkus. And can you name the two?
    Ms. Grifo. I think it was Kathy Rest and Michael Halpern.
    Mr. Shimkus. Kurt Gottfried.
    Ms. Grifo. Kurt is not inside. He is on our board but he is 
a physicist----
    Mr. Shimkus. He is not just on the board, he is the 
chairman.
    Ms. Grifo. He is, but he is also a physicist at Cornell 
University.
    Mr. Shimkus. So there are three?
    Ms. Grifo. Yes. Well, about your definition of inside, but 
I will grant you that----
    Mr. Shimkus. That is our problem. Yes, is that typical for 
peer-reviewed scientific reports to be peer reviewed by people 
within the organization?
    Ms. Grifo. It is very typical for people within an 
organization to comment on a report. They are included in the 
list----
    Mr. Shimkus. But to use that as the official peer review?
    Ms. Grifo. There are other names on that list that are not 
within the organization that are part of the official peer 
review. I was talking about the review of the documents in 
general since----
    Mr. Shimkus. As you know, we have problems with your 
presentation today.
    I yield back. Thank you, Mr. Chairman.
    Mr. Stupak. Let me ask this question, and I will ask either 
Mr. Stephenson or Dr. Grifo. Peer review, explain it, what does 
it do, peer review?
    Mr. Stephenson. She is the scientist.
    Mr. Stupak. OK. It is my understanding you gather 
information. You are asked to look at it. You gather 
information and then you do your individual assessment. In this 
case, it would go, let us say, to the EPA and the EPA would 
draw conclusions based upon the peer review. It is not unusual 
for a peer review panel to have someone who may be in the 
industry, outside the industry, academia. Is that basically a 
peer review? You get people from all over, some whom might come 
with some preconceived bias on this chemical and some who would 
be just the opposite and academia and they look at the 
unisphere or the universe of information and then they make an 
assessment and they submit it to the Agency. It is the Agency 
that makes the final decision, correct?
    Ms. Grifo. Yes. I think what is important is to distinguish 
between scientific advisory committees and scientific review 
versus a stakeholder committee, and I think we have both kinds 
of committees that are out there considering information and 
advising agencies. I think on a stakeholder committee, you do 
in fact have multiple points of view, you know, you do have 
conflicts of interest. People are representing industry, 
representing different aspects of society, but the key is that 
a stakeholder panel should not make scientific judgments. I 
think the topic that we have been dancing around here is that 
there is a difference between scientific conclusions and a 
political decision, a policy decision. ``Political'' may be too 
loaded a word, a policy decision, and I think the root of the 
problem that we have seen at EPA and multiple other agencies is 
the firewall that should be between those decisions has come 
down. You don't interfere with the science. You take the 
scientific conclusions, as a policymaker you can ignore them if 
the statutes will allow you.
    Mr. Stupak. So the peer review would look at the 
information, give it to the policy side and policy decision 
makers make the decision?
    Ms. Grifo. Depending on the statute that is governing. But 
I think the other thing is, on a strictly scientific review 
panel, you do want to look at conflict of interest, you want to 
look at financial connections. It is a very different kind of a 
group of people that is convened for a different purpose.
    Mr. Stephenson. Could I add, from a layman's point of view, 
the peer reviewer is there to assert to the reasonableness of 
the scientific approach. There are very specific rules 
governing the makeup of peer review panels that they must be 
balanced, so you don't have to be a scientist to understand the 
rules of peer review. You can argue with whom is on the peer 
review but all agencies and all scientific organizations that 
use peer reviewers are very careful about making sure there is 
a balanced makeup across that, and EPA is as well.
    Mr. Stupak. So a peer review panel would look at this 
document that Mr. Barton put in the record, the Australian, and 
Mr. David Evans, who disagreed with global climate change, if 
they were looking at climate change, they might include that 
one or they might----
    Mr. Stephenson. Well, the IPCC would look into the basis 
for that conclusion, the evidence that he used to draw that 
conclusion and talk about the reasonableness of that.
    Mr. Stupak. And one person may submit it in their 
assessment where another peer review person may not?
    Mr. Stephenson. The peer reviews try to come to consensus. 
They are expected to have divergent views. But in the end, 
there are safeguards that the approach used for the science is 
in fact reasonable.
    Mr. Stupak. Mr. Shimkus?
    Mr. Shimkus. Mr. Chairman, I would just say that, and some 
of the testimony talked about it, it being public and external, 
at least for the EPA. I would think it would be more accurate 
to identify those peer review people who are internal to the 
organization versus those who are external to the organization, 
and again, my problem with this whole debate is that the 
accusations that are lobbed at the EPA, I would submit are the 
same accusations that can be lobbed at this report that you 
presented and it is very hard for--you just can't have it both 
ways.
    Ms. Grifo. Could I respond?
    Mr. Stupak. Quickly.
    Ms. Grifo. One sentence. In the paragraph in the 
acknowledgements, it talks about how those people provided 
comment. We do not use the words ``peer review'' in referring 
to them. That was my answer to your question.
    Mr. Shimkus. Not being specific. I mean, that is the whole 
point of this whole frustration. You called them peer review. 
You named them out and they are part of your organization.
    Ms. Grifo. You asked me.
    Mr. Stupak. All right. We have two frustrated people now in 
the room and that is it, it is not getting any bigger, so why 
don't we do this? Let us dismiss this panel. We have two votes 
on the floor. We will take a break here. Let us go vote and we 
will come right back, or do you want to do the testimony of the 
next panel? We have four people on there. We would never get 
in.
    All right. Let us adjourn for recess for two votes. 
Hopefully we are back here by 20 after, OK, so 12:20. We stand 
in recess.
    [Recess.]
    Mr. Stupak. We will reconvene this hearing. I thank 
everyone for your patience while we had a few votes on the 
floor there. The second panel of witnesses that we have now is 
Dr. Deborah Rice, who is the Epidemiologist at the State of 
Maine's Department of Environmental Protection; Dr. Jennifer 
Sass, who is Senior Scientist at the Natural Resources Defense 
Council; Mr. Daniel Parshley, who is Project Manager at the 
Glynn Environmental Coalition in Brunswick, Georgia, and Ms. 
Sharon H. Kneiss, who is Vice President of Products Division at 
the American Chemistry Council.
    It is the policy of this subcommittee to take all testimony 
under oath. Please be advised that you have the right to 
counsel during your testimony. Do any of you wish to be 
represented by counsel? Everyone is shaking their head no. Ms. 
Kneiss?
    Ms. Kneiss. Chairman, I do have counsel with me.
    Mr. Stupak. They can advise you but not testify, OK? And if 
you do consult him, we may ask who the name is at that time. 
All right. I am going to ask you to take the oath, so if you 
able to, raise your right hand.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that the witnesses have 
taken the oath. They are now under oath. We will hear an 
opening statement for 5 minutes, please. If you have a longer 
statement, just submit it for the record. It will be made part 
of the official record. Dr. Rice we will start with you, 
please.

STATEMENT OF DEBORAH RICE, PH.D., STATE OF MAINE, DEPARTMENT OF 
                    ENVIRONMENTAL PROTECTION

    Ms. Rice. Mr. Chairman, members of the committee, my name 
is Dr. Deborah Rice. I am a toxicologist with over 30 years of 
experience in basic research and risk assessment. I am 
currently employed by the Maine Center for Disease Control and 
Prevention. I previously served as a senior risk assessor in 
the National Center for Environmental Assessment at the U.S. 
Environment Protection Agency, which by the way is the home of 
the IRIS program.
    I am here today to outline the events related to my removal 
from an expert panel reviewing an EPA assessment for four 
polybrominated diphenyl ether flame retardants, so-called 
PBDEs, and to offer my perspective on the events. To do that, I 
need to describe my activities as part of my professional 
duties for the State of Maine. In 2004, the Maine Legislature 
approved a presumptive ban on one flame retardant, deca BDE, 
pending a series of annual reports by State professional staff 
on the health and environmental hazards of deca BDE and 
potential available alternatives. I contributed to three 
reports in 2005 to 2007 and spoke before the relevant 
legislative committee regarding the Maine bill. In that 
capacity, I conveyed my scientific opinion on the hazards of 
deca BDE compared to possible alternatives.
    In December 2006, EPA published a draft document for four 
individual forms of PBDEs, including deca BDE. This document 
consisted of a scientific review of the health effects and 
derivation of a safe intake level, the so-called reference 
dose, for each of these individual PBDEs. There is no 
consideration in this type of document of banning a chemical or 
of its use in specific products. I was invited to chair the 
external panel convened to review this document by the 
independent contractor responsible for organizing the peer 
review. The panel met in February 2007. My function as chair 
was to ensure that all scientific issues were discussed and all 
reviewers had an opportunity to express their views. There is 
no requirement for reviewers to reach consensus. The final 
comments of each peer reviewer were posted on the EPA Web site 
in March 2007.
    In May 2007, I received a telephone call from Dr. George 
Gray informing me that EPA had received a letter from the 
American Chemistry Council requesting that I be removed from 
the panel on the grounds that my comments in Maine concerning 
deca BDE reflected bias. The ACC further argued that they 
disagreed with the results in a scientific research paper that 
I coauthored published subsequent to the EPA review. Dr. Gray 
questioned me concerning my activities in Maine and indicated 
that he was considering acquiescing to industry's request. A 
later phone call informed me of that decision. I did not 
receive any written notification that I was being removed from 
the panel. I was told that only my comments on deca BDE would 
be removed. In fact, my comments for all four chemicals were 
removed from a revised peer review report published in August 
and my name erased from the document. In September, EPA 
published a third version of the document which added a 
statement requested by the American Chemistry Council that 
``one reviewer's comments were excluded from the report due to 
the perception of a potential conflict of interest,'' a 
statement also currently on the EPA IRIS Web site. The final 
version of the EPA toxicological review included my name as a 
peer reviewer but does not include response to my comments.
    There are several points that I think are relevant to 
interpreting the validity of my removal from the peer review 
panel by EPA. First, my professional activities for the State 
of Maine were required as part of my duties as the toxicologist 
charged with providing expert scientific opinion to State 
legislators. I had no opinion on the hazards posed by deca BDE 
before I started my review. I believe that having an informed 
scientific opinion constitutes neither bias nor conflict of 
interest. Indeed, if this is the definition of bias, then only 
individuals who are uninformed on a particular chemical would 
be considered suitable to serve as peer reviewers.
    Second, the bill before the Maine Legislature and the EPA 
document on the derivation of reference doses address different 
issues. The Maine bill dealt with whether safer chemicals were 
available as substitutes for one specific flame-retardant 
chemical. The EPA document addressed derivation of a safe level 
of ingestion over a life span for four of these chemicals. My 
view that safer chemicals were available did not reflect on my 
ability to follow the EPA protocol for derivation of a 
reference dose. I am very familiar with the process, having 
worked as a senior risk assessor for EPA. In addition, EPA 
regards these chemicals as hazardous or it would not have 
derived reference doses for them.
    Third, I believe my comments and recommendations were 
objective and based on my 30 years of expertise as a 
toxicologist. To give an example, in initial comments I was the 
only reviewer to be critical of a specific feature of the 
experimental design of the studies upon which the EPA 
derivations were based. The identical argument was made by the 
ACC in their comments to EPA. The only evidence provided by the 
ACC that I performed in a biased manner with regard to the peer 
review was that they disagreed that deca BDE produces a 
specific health effect.
    I thank the Committee for the opportunity to discuss this 
issue.
    [The prepared statement of Ms. Rice follows:]

                       Statement of Deborah Rice

    My name is Dr. Deborah Rice. I am a toxicologist with over 
30 years of experience in basic research and risk assessment. I 
am currently employed by the Maine Center for Disease Control 
and Prevention. I previously served as a senior risk assessor 
in the National Center for Environmental Assessment at the U.S. 
Environmental Protection Agency.
    I am here today to outline the events related to my removal 
from an expert panel reviewing an EPA assessment of four 
polybrominated diphenyl ether flame retardants (PBDEs), and to 
offer my perspective on the events. To do that, I need to 
describe my activities as part of my professional duties for 
the State of Maine. In 2004, the Maine legislature approved a 
presumptive ban on one flame retardant, deca BDE, pending a 
series of annual reports by state professional staff on the 
health and environmental hazards of deca BDE and potential 
available alternatives. I contributed to three reports in 2005 
092007, and spoke before the relevant legislative committee 
regarding the Maine bill. In that capacity I conveyed my 
scientific opinion on the hazards of deca BDE compared to 
possible alternatives.
    In December, 2006, EPA published a draft document for four 
individual forms of PBDEs, including deca BDE. This document 
consisted of a scientific review of the health effects and 
derivation of a safe intake level (reference dose) for each of 
these individual PBDEs. There is no consideration in this type 
of document of banning a chemical or its use in specific 
products. I was invited to chair the external panel convened to 
review this document by the independent contractor responsible 
for organizing the peer review. The panel met in February 2007. 
My function as chair was to ensure that all scientific issues 
were discussed, and all reviewers had an opportunity to express 
their views. There was no requirement for reviewers to reach 
consensus. The final comments of each reviewer were posted on 
the EPA Web site in March 2007.
    In May 2007, I received a telephone call from Dr. George 
Gray informing me that EPA had received a letter from the 
American Chemistry Council requesting that I be removed from 
the panel, on the grounds that my comments in Maine concerning 
deca BDE reflected bias. The ACC further argued that they 
disagreed with results in a scientific research paper that I 
co-authored published subsequent to the EPA review. Dr. Gray 
questioned me concerning my activities in Maine, and indicated 
that he was considering acquiescing to industry's request. A 
later phone call informed me of that decision. I did not 
receive any written notification that I was being removed from 
the panel. I was told that only my comments on deca BDE would 
be removed. In fact my comments for all four chemicals were 
removed from a revised peer review report published in August, 
and my name erased from the document. In September, EPA 
published a third version of the document, which added a 
statement requested by the American Chemistry Council that 
``one reviewer's comments were excluded from the report . due 
to the perception of a potential conflict of interest,'' a 
statement also currently on the EPA IRIS Web site. The final 
version of the EPA toxicological review includes my name as a 
peer reviewer, but does not include response to my comments.
    There are several points that I think are relevant to 
interpreting the validity of my removal from the peer review 
panel by EPA.
    First, my professional activities for the State of Maine 
were required as part of my duties as the toxicologist charged 
with providing expert scientific opinion to the state 
legislators. I had no opinion on the hazard poised by deca BDE 
before I started my review. I believe that having an informed 
scientific opinion constitutes neither bias nor conflict of 
interest. Indeed, if this is the definition of bias, then only 
individuals who are uninformed on a particular chemical would 
be considered suitable to serve as peer reviewers.
    Second, the bill before the Maine legislature and the EPA 
document on the derivation of reference doses addressed 
different issues. The Maine bill dealt with whether safer 
chemicals were available as substitutes for one specific flame 
retardant chemical. The EPA document addressed derivation of a 
safe level of ingestion over the lifespan for four of these 
chemicals. My view that safer chemicals were available did not 
reflect on my ability to follow the EPA protocol for derivation 
of a reference dose. I am very familiar with the process, 
having worked as a senior risk assessor for EPA. In addition, 
EPA regards these chemicals as hazardous, or it would not have 
derived reference doses for them.
    Third, I believe my comments and recommendations were 
objective and based on my 30 years of expertise as a 
toxicologist. To give an example, in initial comments I was the 
only reviewer to be critical of a specific feature of the 
experimental design of the studies upon which the EPA 
derivations were based. The identical argument was made by the 
ACC in their comments to EPA. The only evidence provided by the 
ACC that I performed in a biased manner with regard to the peer 
review was that they disagreed that deca BDE produces a 
specific health effect.
    I thank the Committee for the opportunity to discuss this 
issue.
                              ----------                              

    Mr. Stupak. Thank you, Doctor.
    Dr. Sass, your opening statement, please.

 STATEMENT OF JENNIFER SASS, PH.D., SENIOR SCIENTIST, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Ms. Sass. Good afternoon, and thank you for the opportunity 
to testify on the failure of the EPA IRIS program to serve the 
needs of the public. My name is Jennifer Sass and I am a Senior 
Scientist in the health program at the Natural Resources 
Defense Council. I worked there for 8 years. I have a 
scientific background in toxicology, developmental biology, and 
neurotoxicology, and my task with NRDC is primarily to review 
and assess the science that underlies the regulation of 
hazardous chemicals.
    We commend the subcommittee for its interest in the EPA 
IRIS review process and its oversight of recent changes made to 
the program. IRIS is a cornerstone program at EPA which 
provides the scientific information necessary to develop our 
Nation's air and drinking water standards as well as hazardous 
cleanup levels. It is the program that evaluates the scientific 
evidence available on the potential for chemicals to cause harm 
to human health.
    The Administration's record of political interference with 
the work of government scientists across a range of 
environmental issues including global warming and endangered 
species has been well documented. Things are no better in the 
case of analyzing and regulating toxic chemicals that pose a 
risk to human health. In this area, the Administration has 
attempted and in some instances succeeded to block, weaken, or 
delay health standards for a long list of dangerous pollutants 
including the pesticides atrazine and carbofurin, the rocket 
fuel additive perchlorate, and formaldehyde. Not content to 
simply undermine health hazards for a host of toxic chemicals 
one by one, the Administration officials have now set their 
sights on the foundational process for assessing the risks of 
toxic chemicals, the EPA Integrated Risk Information System, or 
IRIS, that assesses hazardous substances. The new 2008 IRIS 
process introduces three new opportunities for the White House 
Office of Management and Budget and other non-health agencies 
such as the Department of Defense and the Department of Energy 
to comment on EPA's health assessments where previously there 
has been only one opportunity. Thus, where the pre-2004 IRIS 
process provided the agencies and OMB with the draft assessment 
at the same time as it was provided to the public, the new 
process invites the other agencies into the assessment process 
at an earlier stage and obligates the IRIS staff to address the 
queries of the agencies and OMB whether or not they are 
consistent with health-protective policies. Following this 
negotiation, the draft review is then publicly noticed, but 
then there is a final intervention point provided to OMB and 
the other agencies that requires IRIS staff to resolve any 
outstanding concerns by OMB and the other agencies including 
polluting agencies before the assessment can be finalized.
    While the 2008 process boils down to death by a thousand 
cuts, this ability to have the last word and to potentially axe 
an assessment at the bitter end may be the deepest cut of all. 
Although current EPA management argues that the new process was 
developed to provide greater transparency, objectivity, 
balance, rigor, and predictability to the IRIS assessments, 
this new process gives the polluting agencies more access and 
more influence to what has historically been a reasonably 
objective scientific evaluation process. The new process 
established by the White House invites interference by OMB and 
other agencies at the outset of the process, in the middle, and 
at the end. Importantly, the Administration has sought to 
classify these newly introduced intervention points as 
deliberative and hence shield them from public view, and 
alarmingly, the new opportunities are not limited to data 
critiques. One particularly misguided new feature offers 
agencies outside of EPA up to 2 years to undertake their own 
studies of mission-critical chemicals, potentially suspending 
EPA's evaluation of these contaminants for a very substantial 
period of time.
    The IRIS program has always struggled to keep pace with 
EPA's regulatory needs and many environmental contaminants 
lacking IRIS assessments are quite important to public health. 
For instance, there is no IRIS assessment for nearly one-third 
of the 189 pollutants listed as hazardous under the Clean Air 
Act. Furthermore, even when important chemicals are in the IRIS 
database, the risk assessments for many of these are outdated. 
The average IRIS assessment is over 13 years old. The oldest 
one has not been significantly revised since the mid-1980s. 
These problems greatly exacerbate the already long period of 
time required for EPA standard-setting procedures, up to a 
decade in some cases, and have been the focus of criticism for 
some time. Clearly, constructive reform of the IRIS program 
would focus on increasing resources available to undertake IRIS 
reviews as well as policy changes that would streamline the 
difficult decisionmaking inherent in the process. Properly 
managed, the EPA IRIS program provides a critical scientific 
service to the public. Speed is important but scientific 
quality and integrity is paramount.
    Another example of politics trumping science is the recent 
dismissal by EPA of one of their most respected and credible 
scientific reviewers, Dr. Rice, in response to a written 
request from the Brominated Flame Retardant Industry Panel of 
the American Chemistry Council. A notice posted on EPA's Web 
site states that the exclusion is because due to the perception 
of a potential conflict of interest. The way EPA management has 
applied the peer review guidelines and expert scientists like 
Dr. Rice could be disqualified by taking a public position 
supporting the phase-out of chemicals where scientific evidence 
is mounting that they are persistent, biocumulative, and toxic 
and in cases where safer alternatives are available. This 
position is not in conflict with the scientific consensus among 
public health experts and it is not in conflict with many State 
public health agencies where some PBDEs have been banned or 
restricted. The only potential conflict that Dr. Rice seems to 
have is with the American Chemistry Council and their member 
companies that manufacture PBDEs. These groups continue to 
defend the chemicals and testify against State bans.
    In a book recently issued by David Michaels, former 
Assistant Secretary of Energy, titled ``Doubt Is Their Product: 
How Industry's Assault on Science Threatens Your Health,'' the 
author emphasizes that the failures of EPA to regulate 
hazardous materials are not the fault of most agency scientists 
or career employees, many of whom are heartsick that their work 
has been so undermined.
    We requested this subcommittee and full committee work with 
colleagues to defend our public servant scientists as the 
Nation's brain trust. Thank you.
    [The prepared statement of Ms. Sass follows:]

    [GRAPHIC] [TIFF OMITTED] T2923.068
    
    [GRAPHIC] [TIFF OMITTED] T2923.069
    
    [GRAPHIC] [TIFF OMITTED] T2923.070
    
    [GRAPHIC] [TIFF OMITTED] T2923.071
    
    [GRAPHIC] [TIFF OMITTED] T2923.072
    
    [GRAPHIC] [TIFF OMITTED] T2923.073
    
    [GRAPHIC] [TIFF OMITTED] T2923.074
    
    [GRAPHIC] [TIFF OMITTED] T2923.075
    
    [GRAPHIC] [TIFF OMITTED] T2923.076
    
    [GRAPHIC] [TIFF OMITTED] T2923.077
    
    [GRAPHIC] [TIFF OMITTED] T2923.078
    
    [GRAPHIC] [TIFF OMITTED] T2923.079
    
    [GRAPHIC] [TIFF OMITTED] T2923.080
    
    [GRAPHIC] [TIFF OMITTED] T2923.081
    
    [GRAPHIC] [TIFF OMITTED] T2923.082
    
    [GRAPHIC] [TIFF OMITTED] T2923.083
    
    [GRAPHIC] [TIFF OMITTED] T2923.084
    
    [GRAPHIC] [TIFF OMITTED] T2923.085
    
    [GRAPHIC] [TIFF OMITTED] T2923.086
    
    [GRAPHIC] [TIFF OMITTED] T2923.087
    
    [GRAPHIC] [TIFF OMITTED] T2923.088
    
    [GRAPHIC] [TIFF OMITTED] T2923.089
    
    [GRAPHIC] [TIFF OMITTED] T2923.090
    
    [GRAPHIC] [TIFF OMITTED] T2923.091
    
    [GRAPHIC] [TIFF OMITTED] T2923.092
    
    [GRAPHIC] [TIFF OMITTED] T2923.093
    
    [GRAPHIC] [TIFF OMITTED] T2923.094
    
    [GRAPHIC] [TIFF OMITTED] T2923.095
    
    [GRAPHIC] [TIFF OMITTED] T2923.096
    
    [GRAPHIC] [TIFF OMITTED] T2923.097
    
    Mr. Stupak. Thank you.
    Mr. Parshley, your testimony, please.

      STATEMENT OF DAVID PARSHLEY, PROJECT MANAGER, GLYNN 
                    ENVIRONMENTAL COALITION

    Mr. Parshley. Good afternoon, Chairman Dingell, Chairman 
Stupak and members of the Committee. My name is Daniel 
Parshley. I am the Project Manager for the Glynn Environmental 
Coalition, a community nonprofit organization ensuring a clean 
environment and healthy economy for citizens of coastal 
Georgia.
    The committee's February 5, 2008, letter to the Weinberg 
Group and its April 2, 2008, letter to the American Chemistry 
Council concerning the journal Regulatory Toxicology and 
Pharmacology was of great interest to the Glynn Environmental 
Coalition since this journal has been used to deny our 
community the basic protections that most Americans take for 
granted. Toxaphene, a now-banned pesticide composed of more 
than 670 chemicals, was manufactured in Brunswick, Georgia, by 
the Hercules Corporation from 1948 to 1980 and disposed of in 
many landfills and our estuaries. Now this toxic waste has 
spread throughout our community, including two Superfund sites, 
one of which, the Hercules 009 landfill, is located next to an 
elementary school. In 1991, EPA Region 4, the State of Georgia, 
and the Hercules Corporation, which manufactured the pesticide, 
met and agreed to use an analytical method that only reported a 
few of the toxaphene chemicals present. The EPA Office of 
Inspector General found this analytical method was 
inappropriate and that it did underreport the amount of 
chemicals present. The Inspector General ordered new and 
appropriate analytical methods be developed. The Inspector 
General was joined by other federal agencies including the 
Agency for Toxic Substance and Disease Registry and the Army 
Corps of Engineers.
    In response, EPA Region 4 and the Georgia Environment 
Protection Division toxicologists published a paper in the 
journal Regulatory Toxicology and Pharmacology by Drs. Ted 
Simon and Randall Manning, advocating the reporting of only 
three of the 670 chemicals in the toxaphene mixture. The 
article did not present any new data but was rather a creative 
reinterpretation of existing scientific studies that came to a 
radically different conclusion about the toxic and carcinogenic 
properties of toxaphene. The Inspector General noted that the 
Simon and Manning method would underestimate the amount of 
toxaphene chemicals present and would exclude the toxaphene 
chemicals present in the largest amounts in our community. 
Furthermore, the Inspector General accepted the report under 
the condition that the authors produce the calculations used to 
reach the conclusions. Neither EPA Region 4 nor the authors 
have been able to produce the calculations. The Simon and 
Manning article has been extensively reviewed and commented 
upon by the Glynn Environmental Coalition and numerous outside 
biochemists and toxicologists who found deficiencies and 
inaccuracies in the journal article as well as the journal's 
bias toward industry.
    Scientific standards require transparency and 
reproducibility. We believe that our community's needs are not 
being properly met by the EPA's reliance on such questionable 
science. Our request of EPA Region 4 is very simple: test our 
elementary school and report all the chemicals present. For 
more than 10 years, the Glynn Environmental Coalition has asked 
EPA Region 4 to retest by an appropriate analytical method 
Altama Elementary School, which abuts the Hercules 009 
Superfund site. We want all chemicals present to be tested for 
and appropriately reported. For more than 10 years, EPA has 
been unresponsive. Earlier this year, EPA Region 4 made a 
presentation to our board of education that used the Simon and 
Manning article from Regulatory Toxicology and Pharmacology to 
conclude that even if toxaphene was present on school property, 
the chemicals are not a health risk to elementary school 
children. There appears to be a scientific consensus in 
addition to a general consensus among federal agencies except 
EPA that the Simon and Manning method is inadequate to test for 
toxaphene. In addition, the Weinberg Group has been hired by 
Hercules to reassess toxaphene's toxicity. Tactics noted by the 
Committee in its February 5, 2008, letter have been put in 
motion including a scientific advisory panel to design two 
studies to determine the toxicity of only a few chemicals in 
the toxaphene mixture. We fear that there is a concerted effort 
by industry and EPA that is opposed to the appropriate testing 
of our community.
    In closing, the Glynn Environmental Coalition is grateful 
for your attention to the abuses being perpetrated under the 
guide of science through the journal Regulatory Toxicology and 
Pharmacology and consulting firms such as the Weinberg Group. 
We have tried to briefly outline how EPA has delayed the proper 
testing of toxaphene in our community. I conclude by asking the 
simple question: do we ask too much when we ask that our 
elementary school be tested by an appropriate method and report 
all the chemicals present?
    Thank you for allowing me to testify, and I look forward to 
answering any questions you might have.
    [The prepared statement of Mr. Parshley follows:]

    [GRAPHIC] [TIFF OMITTED] T2923.098
    
    [GRAPHIC] [TIFF OMITTED] T2923.099
    
    [GRAPHIC] [TIFF OMITTED] T2923.100
    
    [GRAPHIC] [TIFF OMITTED] T2923.101
    
    [GRAPHIC] [TIFF OMITTED] T2923.102
    
    [GRAPHIC] [TIFF OMITTED] T2923.103
    
    [GRAPHIC] [TIFF OMITTED] T2923.104
    
    [GRAPHIC] [TIFF OMITTED] T2923.105
    
    [GRAPHIC] [TIFF OMITTED] T2923.106
    
    [GRAPHIC] [TIFF OMITTED] T2923.107
    
    [GRAPHIC] [TIFF OMITTED] T2923.108
    
    [GRAPHIC] [TIFF OMITTED] T2923.109
    
    [GRAPHIC] [TIFF OMITTED] T2923.110
    
    [GRAPHIC] [TIFF OMITTED] T2923.111
    
    [GRAPHIC] [TIFF OMITTED] T2923.112
    
    [GRAPHIC] [TIFF OMITTED] T2923.113
    
    [GRAPHIC] [TIFF OMITTED] T2923.114
    
    [GRAPHIC] [TIFF OMITTED] T2923.115
    
    [GRAPHIC] [TIFF OMITTED] T2923.116
    
    [GRAPHIC] [TIFF OMITTED] T2923.117
    
    [GRAPHIC] [TIFF OMITTED] T2923.118
    
    [GRAPHIC] [TIFF OMITTED] T2923.119
    
    [GRAPHIC] [TIFF OMITTED] T2923.120
    
    [GRAPHIC] [TIFF OMITTED] T2923.121
    
    [GRAPHIC] [TIFF OMITTED] T2923.122
    
    [GRAPHIC] [TIFF OMITTED] T2923.123
    
    [GRAPHIC] [TIFF OMITTED] T2923.124
    
    [GRAPHIC] [TIFF OMITTED] T2923.125
    
    [GRAPHIC] [TIFF OMITTED] T2923.126
    
    [GRAPHIC] [TIFF OMITTED] T2923.127
    
    [GRAPHIC] [TIFF OMITTED] T2923.128
    
    [GRAPHIC] [TIFF OMITTED] T2923.129
    
    [GRAPHIC] [TIFF OMITTED] T2923.130
    
    [GRAPHIC] [TIFF OMITTED] T2923.131
    
    [GRAPHIC] [TIFF OMITTED] T2923.132
    
    [GRAPHIC] [TIFF OMITTED] T2923.133
    
    [GRAPHIC] [TIFF OMITTED] T2923.134
    
    [GRAPHIC] [TIFF OMITTED] T2923.135
    
    [GRAPHIC] [TIFF OMITTED] T2923.136
    
    [GRAPHIC] [TIFF OMITTED] T2923.137
    
    [GRAPHIC] [TIFF OMITTED] T2923.138
    
    [GRAPHIC] [TIFF OMITTED] T2923.139
    
    [GRAPHIC] [TIFF OMITTED] T2923.140
    
    [GRAPHIC] [TIFF OMITTED] T2923.141
    
    [GRAPHIC] [TIFF OMITTED] T2923.142
    
    [GRAPHIC] [TIFF OMITTED] T2923.143
    
    [GRAPHIC] [TIFF OMITTED] T2923.144
    
    [GRAPHIC] [TIFF OMITTED] T2923.145
    
    [GRAPHIC] [TIFF OMITTED] T2923.146
    
    [GRAPHIC] [TIFF OMITTED] T2923.147
    
    [GRAPHIC] [TIFF OMITTED] T2923.148
    
    [GRAPHIC] [TIFF OMITTED] T2923.149
    
    [GRAPHIC] [TIFF OMITTED] T2923.150
    
    [GRAPHIC] [TIFF OMITTED] T2923.151
    
    [GRAPHIC] [TIFF OMITTED] T2923.152
    
    [GRAPHIC] [TIFF OMITTED] T2923.153
    
    [GRAPHIC] [TIFF OMITTED] T2923.154
    
    [GRAPHIC] [TIFF OMITTED] T2923.155
    
    [GRAPHIC] [TIFF OMITTED] T2923.156
    
    [GRAPHIC] [TIFF OMITTED] T2923.157
    
    [GRAPHIC] [TIFF OMITTED] T2923.158
    
    [GRAPHIC] [TIFF OMITTED] T2923.159
    
    [GRAPHIC] [TIFF OMITTED] T2923.160
    
    [GRAPHIC] [TIFF OMITTED] T2923.161
    
    [GRAPHIC] [TIFF OMITTED] T2923.162
    
    [GRAPHIC] [TIFF OMITTED] T2923.163
    
    [GRAPHIC] [TIFF OMITTED] T2923.164
    
    [GRAPHIC] [TIFF OMITTED] T2923.165
    
    [GRAPHIC] [TIFF OMITTED] T2923.166
    
    [GRAPHIC] [TIFF OMITTED] T2923.167
    
    [GRAPHIC] [TIFF OMITTED] T2923.168
    
    [GRAPHIC] [TIFF OMITTED] T2923.169
    
    [GRAPHIC] [TIFF OMITTED] T2923.170
    
    Mr. Stupak. Thank you, Mr. Parshley.
    Ms. Kneiss, your testimony, please.

    STATEMENT OF SHARON H. KNEISS, VICE PRESIDENT, PRODUCTS 
              DIVISION, AMERICAN CHEMISTRY COUNCIL

    Ms. Kneiss. Thank you, Mr. Chairman, and good afternoon. My 
name is Sharon Kneiss and I am the Vice President of the 
Products Division at the American Chemistry Council. I 
appreciate the opportunity to be here today to talk about a 
flawed EPA process used to revise a very important health 
effects value for a lifesaving chemical.
    The process failings go directly to the integrity of the 
science at EPA. Fundamentally, if you don't have confidence in 
the process, you can't have confidence in the result. In this 
case, EPA's procedures on paper are appropriate. Had EPA 
followed them, we wouldn't be here today. This June, EPA 
revised the oral reference dose, or RfD, for deca bromodiphenyl 
ether, a crucial flame retardant. EPA's failure to follow its 
own processes has produced an RfD in which EPA itself says it 
has low confidence. If these shortcomings are widespread, they 
could seriously undermine the integrity of IRIS.
    ACC represents the leading companies in the business of 
chemistry. We have worked hard over the last decade to improve 
the quality and reliability of IRIS. Deca BDE is the most 
studied flame retardant and is widely used to help prevent 
fires and slow their spread. A prime example of the difference 
that flame retardants make is the Air France airliner that 
skidded off the runway and burst into flames in Toronto in 
2005. Ignition of the seats and other fabrics on the plane was 
delayed for those vital few minutes so that all 309 passengers 
and crew could escape safely. It is important to remember that 
the reliability of this scientific review is not a theoretical 
or an academic exercise but poses real human consequences.
    Because EPA did not follow its own guidelines for peer 
review processes and study integrity, two major failures 
occurred in the deca assessment. First, EPA used a completely 
inappropriate study to set the reference dose. Second, EPA did 
not vet the panel properly and appointed a chair who had made 
numerous public statements indicating she had already made her 
mind up on the science and had taken sides. In relying on the 
Viberg study to set an RfD, EPA failed to uphold its own most 
important science processes. The study did not follow EPA's 
Good Laboratory Practices or EPA's study protocols. EPA's TSCA 
Office said the study's methodology had a fundamental flaw and 
its author repeatedly ignored requests for the study data. Both 
EPA and the European Union regulators have concluded that the 
Viberg study is not adequate for quantitative risk assessment, 
and yet EPA used it even though the National Academies of 
Science had already derived an RfD using top-quality studies 
conducted by the National Toxicology Program.
    EPA also failed to follow its own peer review handbook 
which ACC and NGOs alike endorse. The handbook is clear that 
the choice of peer reviewers should be based primarily upon the 
reviewer's expertise and experience and that reviewers should 
be sufficiently broad and diverse to fairly represent a 
balanced range of technical points of view. The handbook also 
recognizes, however, that experts with a stake in the outcome 
and therefore a conflict or appearance issue may be the most 
knowledgeable and up-to-date experts but federal law prohibits 
EPA from using peer reviewers who either have current financial 
conflicts of interest or appear to lack impartiality. It says 
as a general rule, experts who have clearly taken sides may 
have an appearance of a lack of impartiality and should be 
avoided. The National Academies and NGO groups draw a similar 
line.
    To ensure that EPA gets this difficult balancing act right, 
the peer review handbook recommends that EPA notify the public 
before a peer review panel is formed, so interested parties can 
nominate proposed reviewers and provide the public with the 
list of proposed reviewers, so interested parties can comment 
on their qualifications and potential sources of conflict or 
bias. EPA did neither of these things. The peer review panel's 
composition did not reflect a wide range of expertise and was 
chaired by an individual who had not been adequately vetted and 
appeared to have made up her mind. For example, she told one 
newspaper that there was no question in her mind that deca 
should be eliminated because it is a persistent toxin that 
accumulates in the food chain. She told another, we know enough 
to ban deca, we don't need to wait another 2 years and let it 
increase in the environment while we nail down every possible 
question we have.
    With all these concerns surrounding the panel and its 
deliberations, we wrote and met with EPA to express our 
concerns. We did not ask that the chair be removed from the 
panel or argue that the scientific expertise was the basis for 
the disqualification from the peer review board. But at that 
late date, there really was no satisfactory way to undo the 
damage caused by these process failures. As a result, we were 
reduced to asking EPA to base its final toxicological review on 
data, opinions, and conclusions other than the chairperson's. 
EPA ultimately deleted the chair's statements from the peer 
review panel's report but the damage was done. EPA's attempt to 
unring the bell thus had no effect on the ultimate result and 
did not benefit ACC. EPA has set an RfD for deca that is three 
orders of magnitude lower than the best available science 
supports.
    ACC thanks the subcommittee for shedding light on the 
numerous process failures involved in the deca reassessment. I 
would be happy to answer any questions you might have.
    [The prepared statement of Ms. Kneiss follows:]

    [GRAPHIC] [TIFF OMITTED] T2923.171
    
    [GRAPHIC] [TIFF OMITTED] T2923.172
    
    [GRAPHIC] [TIFF OMITTED] T2923.173
    
    [GRAPHIC] [TIFF OMITTED] T2923.174
    
    [GRAPHIC] [TIFF OMITTED] T2923.175
    
    [GRAPHIC] [TIFF OMITTED] T2923.176
    
    [GRAPHIC] [TIFF OMITTED] T2923.177
    
    [GRAPHIC] [TIFF OMITTED] T2923.178
    
    [GRAPHIC] [TIFF OMITTED] T2923.179
    
    [GRAPHIC] [TIFF OMITTED] T2923.180
    
    [GRAPHIC] [TIFF OMITTED] T2923.181
    
    [GRAPHIC] [TIFF OMITTED] T2923.182
    
    [GRAPHIC] [TIFF OMITTED] T2923.183
    
    [GRAPHIC] [TIFF OMITTED] T2923.184
    
    [GRAPHIC] [TIFF OMITTED] T2923.185
    
    [GRAPHIC] [TIFF OMITTED] T2923.186
    
    [GRAPHIC] [TIFF OMITTED] T2923.187
    
    Mr. Stupak. Well, thank you for your testimony. We will 
start with questions.
    Ms. Kneiss, as I read your testimony, I get the impression 
that ACC thinks that the deca peer review process was flawed 
not just because of Dr. Rice's participation but also because 
you didn't have a say in the selection of the peer reviewers, 
and I think in your opinion, the peer reviewers relied on a 
scientific study you don't agree with. Is that correct?
    Ms. Kneiss. Our concern was with the lack of following the 
process that EPA has in their handbook to follow on how to form 
a peer review panel.
    Mr. Stupak. But they don't need your input to do a peer 
review panel.
    Ms. Kneiss. The guidelines do state that they should 
consider putting together a panel and they start by----
    Mr. Stupak. Right, but they don't----
    Ms. Kneiss [continuing]. Alerting the public that they are 
going to do a peer review and seeking input on those panels 
and----
    Mr. Stupak. So you wanted input on the panel, who was going 
to be on the panel?
    Ms. Kneiss. We would like them to follow the handbook as 
they have----
    Mr. Stupak. That is not what I asked you. ACC wanted input 
on who was going to be on the panel?
    Ms. Kneiss. We wanted input on an open and transparent 
process, open to the public.
    Mr. Stupak. Well, if you have input, then how can the panel 
be said it is not biased then, if you put your people on it? 
Don't they come with preconceived ideas then or biases, as you 
said?
    Ms. Kneiss. The key with a peer review panel is that it is 
broadly constructed, first of all, that I have the----
    Mr. Stupak. Sure. There are five people on this panel, 
right?
    Ms. Kneiss. Correct.
    Mr. Stupak. OK. So they represent different views, right?
    Ms. Kneiss. I would assume so.
    Mr. Stupak. OK. And some of them might agree with your view 
and others might not, right?
    Ms. Kneiss. That is possible.
    Mr. Stupak. And a peer review panel analyzes everything 
including that Viberg report that you mentioned. They can take 
that into consideration. They can take all kinds of information 
and they make an assessment and give it to the EPA, right?
    Ms. Kneiss. Correct.
    Mr. Stupak. And then there is time for public comment, 
correct?
    Ms. Kneiss. Yes.
    Mr. Stupak. So why would you have Dr. Rice, why would you 
want Dr. Rice removed then?
    Ms. Kneiss. It goes to the open process, the transparency 
of the process, the need to form a panel----
    Mr. Stupak. What was not transparent in this process?
    Ms. Kneiss. We had no idea who was on the panel until the 
panel actually met and deliberated. We had no opportunity----
    Mr. Stupak. Then why didn't you ask all five people on the 
panel be removed then? Why just Dr. Rice?
    Ms. Kneiss. Because the process was so flawed and it was so 
late in the process, we felt that our opportunities, quite 
frankly, were limited on how we could rectify the many problems 
with the process.
    Mr. Stupak. So why do you pick on one of the peer 
reviewers, why not all five of them then?
    Ms. Kneiss. There were clear indications in the media and I 
might note that the EPA handbook clearly says that while you 
need knowledgeable experts as a general rule, those who have 
taken sides should not be put on the peer review panel because 
there is----
    Mr. Stupak. Were these statements of Dr. Rice before or 
after she was on the panel?
    Ms. Kneiss. It is both.
    Mr. Stupak. Both? OK. Well, on page 4 of your testimony you 
state that deca was subject to an extensive 10-year study by 
the European Union as well as other major studies and has been 
found to present no significant risk to human health or the 
environment. Is that correct?
    Ms. Kneiss. That is correct.
    Mr. Stupak. Didn't EU ban deca in 2002?
    Ms. Kneiss. No, not deca.
    Mr. Stupak. They didn't?
    Ms. Kneiss. It was other brominated flame retardants.
    Mr. Stupak. OK. Did they just ban it this year, deca?
    Ms. Kneiss. No, it is still in use--oh, excuse me. I am 
sorry. I am confused. But they do have a risk assessment that 
had found that it is safe for use.
    Mr. Stupak. That is safe for use?
    Ms. Kneiss. Yes. There is a risk assessment that took 10 
years to complete and looked at 580 studies.
    Mr. Stupak. OK. Has deca been banned in Maine and 
Washington?
    Ms. Kneiss. That is my understanding.
    Mr. Stupak. OK. On page 8 of your testimony, you state very 
strongly that transparency about data and methods is an 
indispensable element of influential scientific information 
such as the IRIS file, correct?
    Ms. Kneiss. That is correct.
    Mr. Stupak. So I gather you would agree with the GAO, who 
testified earlier, and I noticed you were in the room at the 
time, that comments made on IRIS assessment by OMB and other 
federal agencies should be part of the public record. Do you 
agree with that?
    Ms. Kneiss. We have supported improvements in the IRIS 
process for many years, improvements that would----
    Mr. Stupak. So you would agree with the GAO testimony 
earlier today then?
    Ms. Kneiss. We agree with many of the recommendations from 
GAO that----
    Mr. Stupak. No, I am asking about their testimony today 
about the IRIS and transparency. Would you agree or disagree?
    Ms. Kneiss. We agree with IRIS and the need for 
transparency.
    Mr. Stupak. OK. You allege that Dr. Rice--this is on page 
12 now--testified before the Maine Legislature in support of a 
report specifically advocating that the State mandate a phase-
out of deca BDE. Isn't it true that what Dr. Rice really 
testified on was the issue of whether there were safer 
chemicals available as substitutes? Isn't that what she 
testified?
    Ms. Kneiss. My understanding is one of the statements was 
that there should be a phase-out of deca BDE.
    Mr. Stupak. Do you have a copy of her----
    Ms. Kneiss. She did address other----
    Mr. Stupak. Do you have a copy of her testimony or anything 
where you could point to that?
    Ms. Kneiss. I do have it, but not with me. We can get it to 
you.
    Mr. Stupak. Isn't it true that she did not testify before 
the Maine Legislature to recommend the phase-out of deca? She 
never recommended a phase-out of deca to Maine, did she?
    Ms. Kneiss. She supported a report that recommended a 
phase-out.
    Mr. Stupak. Right, but my question was, she never testified 
before the Maine Legislature the phase-out, did she?
    Ms. Kneiss. Part of her testimony was the support of a 
report that recommended a phase-out.
    Mr. Stupak. Do you have that report?
    Ms. Kneiss. Yes, we will submit it to the Committee.
    Mr. Stupak. So let me ask you this. The role of the peer 
review panel is to receive an array of opinions on the safety 
of the chemical in question, and this one is deca, right?
    Ms. Kneiss. Correct.
    Mr. Stupak. And isn't it the opinion of your organization, 
ACC, that only likeminded individuals should be on that panel 
then?
    Ms. Kneiss. Oh, absolutely not. We believe that it is 
important to the credibility of the process that it be broadly 
constructed, that it reflect all of the technically legitimate 
beliefs.
    Mr. Stupak. Well, on this review panel, there are five 
people. Did they all submit their comments to the EPA on this 
deca?
    Ms. Kneiss. As part of the process?
    Mr. Stupak. Yes.
    Ms. Kneiss. Yes.
    Mr. Stupak. And did they all reach the same conclusion as 
Dr. Rice, all five of them?
    Ms. Kneiss. I can't speak directly to--they all commented 
on different aspects.
    Mr. Stupak. And they all basically came to the same 
conclusion, did they not?
    Ms. Kneiss. On certain aspects.
    Mr. Stupak. So they all agreed?
    Ms. Kneiss. I guess so.
    Mr. Stupak. So if you are concerned about the makeup of 
this panel and Dr. Rice, it sounds like the other four people 
agreed with Dr. Rice, correct?
    Ms. Kneiss. We have concerns that go far beyond Dr. Rice. 
It goes to the process and how the process was conducted and 
the failed process that resulted in the result that it did. It 
had many failings.
    Mr. Stupak. But these other four people gave the same 
conclusion as Dr. Rice so they are all wrong?
    Ms. Kneiss. What we were saying was, the appropriate 
response would have been to reconstruct the entire panel to 
make sure that it reflected the broad range of views and we 
didn't have that.
    Mr. Stupak. Why didn't you object to the other four? 
Because they did exactly what you wanted. They got Dr. Rice off 
and the other four agreed with Dr. Rice so the report should 
really be that we should ban deca.
    Ms. Kneiss. This was a process in our view that was 
conducted in the early stages in secret. We had no idea who the 
peer reviewers were. We had no idea what their credentials were 
or what their potential conflicts of interest were. By the time 
we found out, we were so far into the process, we felt that our 
options were very limited.
    Mr. Stupak. Dr. Rice, let me ask you this. What were you 
asked to do in this panel? What were you tasked to do, this 
peer review panel on deca?
    Ms. Rice. A peer review panel, the chair of a peer review 
panel, really, their only obligation or their obligation is to 
hear all of the scientific opinions. We are presented with a 
series of charge questions by the Environmental Protection 
Agency. We can address other questions as well if we want to. 
But what I did in the peer review meeting was, I basically went 
around the table for each charge question and made sure that 
the opinions of all of the scientists, all four of the other 
scientists as well as myself, were heard and I think it is 
important to understand that these peer review panels, unlike 
some other panels that EPA convenes, there is no requirement 
for consensus. We don't have to reach a conclusion. We really 
submit our individual comments to EPA and then EPA responds to 
those.
    Mr. Stupak. And when all five people entered their comments 
to the EPA, were they similar to your comments?
    Ms. Rice. I think that all of the comments for the most 
part were very similar. The bottom line, the whole purpose of 
this is to derive a so-called safe level, and the comments of 
all of us really came down in just ultimately just about the 
same place, so my comments were not outliers.
    Mr. Stupak. And one of the panel members had ties to 
industry?
    Ms. Rice. Yes.
    Mr. Stupak. And they reached the same conclusion you did?
    Ms. Rice. Yes. He was a perfectly reasonable scientific 
member of the panel.
    Mr. Stupak. Do you know, did ACC ask for the removal of any 
other member other than yourself?
    Ms. Rice. To my knowledge, no, not from the correspondence 
I have seen.
    Mr. Stupak. OK. My time is up. We will come back for a 
second round. I will go to Mr. Shimkus for questions right now.
    Mr. Shimkus. Thank you, Mr. Chairman. Because Greg Walden 
was so gracious in helping me out, I am going to defer and let 
him take it.
    Mr. Walden. All right. Thank you. Thank you, Mr. Chairman, 
and thank you to our ranking member.
    Ms. Kneiss, I want to go back to what you were saying. It 
sounds to me like the EPA didn't follow its own guidelines. 
That is your argument?
    Ms. Kneiss. That is correct.
    Mr. Walden. And the part of the guidelines they didn't 
follow was how you impanel and make sure the public whether you 
are for or against, in between has a right under their own 
guidelines to understand that a panel is going to be created 
and to have some ability to have input into how that panel is 
structured.
    Ms. Kneiss. Correct.
    Mr. Walden. Or who is on it. Is that right?
    Ms. Kneiss. Correct.
    Mr. Walden. And so our friend Dr. Sass at NRDC, has your 
organization ever weighed in on the creation of a panel? Has 
your organization ever weighed in on any particular panel 
member?
    Ms. Sass. I have been there 8 years, and one of my primary 
tasks is to look at these kinds of issues, and I have never 
commented on a peer reviewer. I have never contested a peer 
reviewer and I didn't contest any of the peer reviewers on this 
panel.
    Mr. Walden. So your testimony is, NRDC has never done that 
in any case?
    Ms. Sass. Not on a peer review panel.
    Mr. Walden. Not on Dr. Bull?
    Ms. Sass. Not on a peer review panel. Dr. Bull, when I 
contested him, was on a National Academies panel, very 
different from this peer review panel. They draft the document 
in a single consensus report as the final outcome, and at that 
point I showed evidence that he was on the payroll to Lockheed 
Martin on an issue in litigation on a pollutant that Lockheed 
Martin would be responsible for.
    Mr. Walden. And you wrote that to EPA?
    Ms. Sass. It was not an EPA panel. It was National 
Academies and it was a panel that would write a consensus 
report on that chemical.
    Mr. Walden. But did you raise that issue, that information 
with EPA at any time?
    Ms. Sass. To try and contest Dr. Bull's----
    Mr. Walden. No, did you present any information to EPA 
relative to Dr. Bull that concerns you on the deca panel?
    Ms. Sass. The letter that I wrote said why should someone 
like Dr. Rice be removed from a panel when there are other 
people that have actual biases that weren't removed, but I 
never----
    Mr. Walden. So you never specifically referenced Dr. Bull 
then in your correspondence?
    Ms. Sass. In that letter I did but I never opposed his----
    Mr. Walden. Could you provide that letter to us?
    Ms. Sass. Sure. Also you might want to look at the peer 
review handbook guidelines, page 61, because it refers to the 
specific panel as actually put together by a contractor. But 
for the contract mechanism, the contractor may have its own 
pool of scientific and technical experts that it chooses from 
and EPA is actually not permitted to direct the prime 
contractor or the subcontractor in that process.
    Mr. Walden. OK. So is there a process ahead of that though 
that EPA is supposed to follow in selecting the contractor or--
so what you are reading overrides the other EPA guidelines? Is 
that what you are testifying to?
    Ms. Sass. No. There is a real confusion about panels and 
committees here. But there is basically three different types. 
This committee was a peer review and there is not a consensus 
report that comes from it.
    Mr. Walden. Correct. I understand.
    Ms. Sass. And every opinion counts, so I agree that it is 
important to have a wide variety of opinions coming in as long 
as they are scientific criticisms. That is what EPA would want 
to collect. For a federal advisory committee, they have a 
single report and then for the National Academies also a single 
report and consensus. They write the report.
    Mr. Walden. So what impact, Dr. Sass, did removing Dr. 
Rice's comments have on the substance of the peer review? Are 
you aware of, did it affect the substance in the end?
    Ms. Sass. As much as I am aware, it didn't change the 
outcome very much at all. Essentially most of the peer 
reviewers had basic agreement. So there was really no reason to 
contest--I would not contest a peer reviewer at all.
    Mr. Walden. I understand.
    Ms. Kneiss, if I could go back to you, because the question 
has been raised, why did you pick on Dr. Rice. I mean, that is 
the substance of the question here, and what you have testified 
is, there were public comments attributed to her that indicated 
from your perspective that she had a bias going in.
    Ms. Kneiss. That is correct.
    Mr. Walden. Were there public comments attributed to other 
members on that peer review panel that showed bias either for 
or against----
    Ms. Kneiss. We weren't aware of any.
    Mr. Walden. Is she the only one then that you had public 
information on that indicated----
    Ms. Kneiss. In terms of public comments, yes.
    Mr. Walden. And is that why your organization----
    Ms. Kneiss. That is correct. At that late point in the 
process, from our perspective and according to the guidelines, 
this should have all been resolved before the panel was put in 
place. There was not the opportunity to do that.
    Mr. Walden. Now, what about this issue Dr. Sass just 
raised, that this was a different type of panel that was 
created under a contractor and therefore, I assume you are 
saying, not subject to that rule. Is that your understanding of 
it?
    Ms. Kneiss. Our understanding is that the guidelines are 
still important to that process and there is a lot of 
requirements in there that suggest that it be open and it be an 
open and transparent process.
    Mr. Walden. Personally, I think that is the way they all 
should be, regardless of the side of the issue you are on. I 
know we had a situation in my district where an organization 
that was on the GAO approved list to simply take data that had 
been accumulated and transcribe it. No scientific input 
whatsoever. And an environmental organization objected and 
there was quite a stir raised including a full investigator IG 
report done because the allegation was this group was biased 
because they also were certified to do consulting work with 
mining organizations. At the end of the day, the IG said it was 
all bogus, this group did what they were supposed to do, it was 
all legitimate but not before it was a page 1 story and all 
that. So there is a lot of give and take when it comes to areas 
of dispute and especially when it comes to this type of science 
because there are a lot of high emotions. If you have bad 
chemicals running around a school, you want to make sure your 
kids are safe. So I guess the question is, how do we fix this? 
How do we fix this? And Dr. Rice, does something need to be 
changed here? If there was somebody--let us say--sorry, I will 
let you answer. Let us say somebody had the opposite view you 
held or allegedly hold, which is that this is a wonderful 
chemical and there are no problems to it, should somebody be 
able to object to that person being on a peer review panel?
    Ms. Rice. Yes, I think that people should be able to object 
before the fact. I agree with that. EPA personnel can also 
challenge the--I mean, when I was at EPA, EPA people could also 
challenge the choices of the contractors for conflict of 
interest or for lack of the appropriate expertise, which is the 
only two things that really should matter.
    Mr. Walden. So you don't have an objection to--I mean, 
personally you might, I understand and respect that--either Dr. 
Sass or Ms. Kneiss being part of that public process to weigh 
in for or against somebody being on one of these panels but 
then it is ultimately up to the----
    Ms. Rice. Ultimately it is up to the contractor to respond 
to that or not. That is the level at which it should have 
happened. After a panel is held to go back to EPA, which was 
the only thing that they could do at that point, is not----
    Mr. Walden. Was there an opportunity to object to the 
contractor?
    Ms. Kneiss. No.
    Mr. Walden. So that was the issue here at the core?
    Ms. Kneiss. We were not--we had no idea what this process 
was, what it looked like, what the panel looked like, until 
their first meeting.
    Mr. Walden. Do you concur with that, Dr. Sass, in this 
case?
    Ms. Sass. Yes, and I think that we agree too that 
transparency is really paramount, because even if there is not 
a real problem, if you don't have transparency, the perception 
of the problem could be the problem. So I agree that EPA needs 
to be left to do its work and I also agree that anybody should 
be able to comment or write letters and provide information if 
they think it is relevant and that EPA should weigh the 
scientific comments appropriately and as much transparency as 
you can put in that process means you don't have to have a 
problem later.
    Ms. Kneiss. Again, if you don't have confidence in the 
process, you don't have confidence in the result.
    Mr. Walden. And the irony is, even with this dispute, those 
who don't like this chemical, actually the report seems to back 
up their view over what your organization would like to see 
come out of this whole process, right?
    Ms. Kneiss. That is the result of the report, correct.
    Mr. Walden. Mr. Chairman, I will yield back to my colleague 
from Illinois the final 57 seconds on my clock.
    Thank you all for your testimony today.
    Mr. Stupak. Mr. Shimkus for questions.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Dr. Rice, first of all, for everyone here, I have calmed 
down a little bit. So that should be good news. But you worked 
for EPA from 1993 to 2003. In fact, you received a level I 
scientific and technological achievement award from EPA for the 
high quality of your research, and I wanted to put that into 
the record and just thank you for your service. I thought about 
the first panel, I thought this is scientists playing politics 
or politicians playing scientists. I was trying to figure out. 
But that is part of this basic debate of peer review, whether 
they have--can they be objective if they come to the panel with 
already preconceived statements. So I am learning a lot, so I 
appreciate the first panel and this one, and I apologize for 
not being here for opening statements.
    Dr. Rice, we have already had some discussions about 
Richard Bull as a member of the peer advisory panel and we all 
know that. Dr. Sass has obviously raised the issue. In your 
experience with the panel, do you believe Mr. Bull was 
impartial when reviewing the literature?
    Ms. Rice. Yes, I believe that all five of us were 
impartial.
    Mr. Shimkus. Yes. I mean, that is just part of this whole 
debate on both sides. So do you think it is possible to have 
ties or an affiliation with an advocacy group or industry and 
still be able to objectively interpret the data?
    Ms. Rice. It is possible, yes.
    Mr. Shimkus. If so, how can the EPA determine when 
someone's ties would make them impartial? What should the test 
be and how could it be implemented before a peer review panel 
is selected?
    Ms. Rice. Well, I think one litmus test is whether a person 
has financial ties. I think that would delete them from the 
panel right from the get-go. But then after that, I think it 
gets a little bit murkier and I think that you have to look to 
whether the particular person is speaking from the science and 
certainly reasonable people, reasonable scientists can disagree 
on the interpretation of the science and that is OK. I mean, 
that is the way it works. But if there is a perception that the 
person is going beyond the science to talk about policy and 
that that is coming from some special interest, financial or 
otherwise, then that should disqualify them from the panel.
    Mr. Shimkus. But in Bull's case, he had a financial tie.
    Ms. Rice. Excuse me?
    Mr. Shimkus. Bull's case, or was this another case?
    Ms. Rice. It was another case that you are thinking of, 
yes. For this panel, he did not. I don't think he was in 
conflict.
    Mr. Shimkus. So when these scientists are all in this room, 
five of you, if someone, and you are going on the scientific 
data, you all are professionals so you could probably tell if 
someone is way off the deep end on their analysis?
    Ms. Rice. I think so.
    Mr. Shimkus. OK. You went to Maine and of course we have 
covered the testimony and you reported to the Maine 
Legislature. How do you characterize your testimony before the 
Maine Legislature? We have heard what was asked. How would you, 
give us in your own words.
    Ms. Rice. Well, the Maine bill was very specific, and the 
question before me, the question before the legislature was, 
were there safer alternatives to deca, and so, to do my job as 
a toxicologist, I had to look at the properties of deca and 
then the properties of the alternatives, and I have to say that 
my main concern with regard to deca was not really the 
toxicity. I think we know less about the toxicity than I would 
like to know. My concern really was that it is persistent in 
the environment, that it bioaccumulates up the food chain. It 
is found in breast milk. Most of us are carrying body burdens 
of deca. It breaks down in our bodies, into the environment to 
some of the chemicals, some of the PBDEs that had already been 
banned by Maine. You know, so that was the framework. That was 
the context. And in fact, the ACC has a quote from me in a 
newspaper where I say that there are hints about the toxicity, 
and it is important to understand that the EPA peer review 
panel was about toxicity. It didn't include at all anything 
about persistence, bioaccumulation, breakdown, to other forms 
of these PBDEs which I am on record as saying that those were 
my main concerns, and when I testified from Maine, the real 
problem that I had was determining, trying to determine whether 
the alternatives were safer, and the reason for that was 
because we know less about the alternatives than we do about 
deca or many of the alternatives than we do about deca. The 
toxicity data in particular aren't there and I ended up going 
to the European industry and getting some toxicity data from 
them for some of these alternatives because, you know, as a 
person advising the legislature, I really didn't want it on my 
conscience that I said there are safer alternatives when it 
turned out that there weren't.
    Mr. Shimkus. Why would the--again, we are laymen so you are 
kind of saying there are two separate issues here. Why would 
the ACC say they are not, they are linked?
    Ms. Rice. I personally think it is a mischaracterization 
because--in my testimony I said that the peer review of the EPA 
document and my work for the State of Maine were really two 
entirely different things. I feel that I am perfectly capable 
of being very objective about following EPA guidelines on how 
to set a reference dose. In fact, I did that for the Agency. I 
had no preconceived ideas about what the reference dose should 
be at all and I don't even think about the final number. I 
mean, I never do. I just follow the process and whatever it 
ends up being is whatever it ends up being.
    Mr. Shimkus. Thank you.
    Ms. Kneiss, the ACC raised a concern. Why did you all 
concur that there is a connection? Do you know?
    Ms. Kneiss. It all goes to the flawed process to begin 
with. We had no information about how this process was going to 
move along, who was on it, what the credentials for the 
panelists even were. We had to FOIA that to find out the 
credentials of the panelists. And so it was a process in which 
we had very little confidence to begin with because it wasn't 
open and transparent. And then we had concerns with how the 
Agency took on studies and looked at studies which didn't 
follow their own scientific guidelines.
    Mr. Shimkus. Great.
    Dr. Rice, do you think this qualified as, in essence, the 
public pronouncement issue that the EPA uses to say oh, maybe 
she shouldn't be on the board, your testimony as a public 
pronouncement?
    Ms. Rice. No, I don't at all because I really think that 
they are different issues, and I am perfectly capable of being 
objective in following the process to set a reference dose.
    Mr. Shimkus. And I really appreciate these testimonies and 
this hearing.
    Dr. Rice, having worked in the EPA, say going back to the 
last panel, did you as a scientist ever feel that you were 
bullied or pushed into making a scientific judgment based upon 
the political hacks that were appointed at the EPA?
    Ms. Rice. Well, I left in 2003, and that was just beginning 
to happen, and I didn't leave because of that. A lot of people 
have asked me that, and I didn't. That was not the reason I 
left. But I really personally didn't.
    Mr. Shimkus. Thank you.
    Mr. Chairman, I think I am done. Thank you.
    Mr. Stupak. Let me just clarify a couple things. Dr. Rice, 
when you worked with the Maine Legislature at the time when you 
were talking to the Maine Legislature about deca, your work had 
already been done on this peer review panel, correct?
    Ms. Rice. I think they overlapped. I think--I have handouts 
that are dated in April. The peer review met in February. I 
think I had testified before that once but I am not--I have to 
say that I am not really clear on the timeline because to me, 
these were completely separate events that really had nothing 
to do with each other.
    Mr. Stupak. And you are the State toxicologist so it would 
be normal for you to talk to the legislature about chemicals 
and on legislation they are proposing, things like that?
    Ms. Rice. Yes. Their committee meetings are called work 
groups and I think----
    Mr. Stupak. It was a work group?
    Ms. Rice. It was a work group and they asked me questions 
for an hour, and I was charged as the toxicologist to do this 
for the legislature.
    Mr. Stupak. And when you were put on this peer review, they 
knew you were the toxicologist for the State of Maine?
    Ms. Rice. Yes, certainly.
    Mr. Stupak. Let me ask you this, Ms. Kneiss. You are 
familiar with the Peer Review Handbook, 3rd edition?
    Ms. Kneiss. Yes.
    Mr. Stupak. OK. These are only guidelines.
    Ms. Kneiss. That is correct.
    Mr. Stupak. There is nothing in there that requires 
industry to be consulted or to be made known of who is on peer 
review panels.
    Ms. Kneiss. But it does recommend it.
    Mr. Stupak. Recommendation. It is a guideline. They are not 
required to get your approval before they do a peer review 
panel, correct?
    Ms. Kneiss. That is correct.
    Mr. Stupak. OK. You have talked an awful lot about 
transparency, and you were here at the last panel so the new 
IRIS process doesn't allow for much transparency when OMB is 
involved, correct?
    Ms. Kneiss. Well, what we believe--we have been supporters 
of an improved IRIS process for many years.
    Mr. Stupak. So you don't think----
    Ms. Kneiss. And we believe transparency is very important 
in that process.
    Mr. Stupak. So in the IRIS process, OMB should open up 
their deliberations and their reports from Department of 
Energy, Department of Defense so we have this transparency you 
want, correct?
    Ms. Kneiss. I can tell you, we haven't taken--we haven't 
looked specifically at that aspect of it. I can tell you----
    Mr. Stupak. Right, but----
    Ms. Kneiss. From the broader point of view, we----
    Mr. Stupak. I am asking you, from your passionate concern 
for transparency, shouldn't we have transparency then in IRIS, 
including OMB, DOD, and DOE?
    Ms. Kneiss. We should have transparency in the process. I 
do not know the specific issues surrounding that to make a 
statement on that particular aspect.
    Mr. Stupak. OK. Dr. Rice, in our exhibits here, in our 
exhibit book right there if you want to look at it, Exhibit 
#10, there is a letter from the governor of Maine, Governor 
Baldacci, to the EPA protesting your removal from the panel. 
Did you have anything to do with the governor writing that 
letter? Did you ask the governor to write the letter?
    Ms. Rice. No, I found out about it after the fact actually. 
I appreciated it but I found out about it after the fact.
    Mr. Shimkus. And Mr. Chairman, he is a former colleague of 
ours and I think we all hold him in high regard. I know I do.
    Mr. Stupak. Dr. Sass, can you say a little bit more about 
the increased secrecy under the new process of IRIS that 
undermines the scientific method and the public's right to 
know? Could you say a little bit more about that? You seem 
pretty familiar with it.
    Ms. Sass. Right. I will comment on it but also I think I 
can't refer the whole group but at least in my written 
testimony that is being submitted because it has a table on 
page 9 and 10 where I really struggled to clarify the old and 
the new because, as you know, the new is far more complicated. 
But in essence, there was always an opportunity for interagency 
review and of course, the agencies are allowed to call each 
other any time they want, so that hasn't changed and they 
always had that opportunity under the old process, and also of 
course these always go to OMB for review. That was always done. 
The difference is that at this point they have inserted a 
number of new opportunities. They have obligated the IRIS 
process to incorporate new opportunities for interagency and 
OMB review, both early but also a final one at the end, and 
that the public doesn't have an opportunity during those times 
to comment. So they haven't increased public transparency or 
participation at all but they have increased the interagencies.
    Mr. Stupak. So with OMB at the end there, the public 
doesn't really have any input until the final rule comes out 
then so they don't know what happened between OMB and the final 
decision?
    Ms. Sass. Right, which is very concerning to us, but the 
new rules do obligate the IRIS staff to have to respond and 
resolve those OMB concerns and our concerns are that they may 
not all be scientific so that there is agencies like DOD and 
DOE that are not public health agencies and we are concerned 
that comments that are not scientific comments may derail or 
alter the process.
    Mr. Stupak. Since you are the scientist familiar with this, 
Mr. Parshley mentioned this journal Regulatory Toxicology and 
Pharmacology as not being very credible in the eyes of some 
people but having a bias towards industry. Your opinion on 
that? Is Mr. Parshley right in his testimony?
    Ms. Sass. This is a journal that has a number of industry-
affiliated people on its editorial board and associate 
editorial boards and it is shown, has a tendency, a pattern of 
publishing articles that are very friendly to the industry 
perspective and they are specifically targeting regulatory 
decisions or chemicals that are undergoing regulatory review.
    Mr. Stupak. Let me ask Mr. Parshley, if I may. You take the 
mic there, if you would. You talked about toxaphene, and how 
does toxaphene damage your health? Do you know?
    Mr. Parshley. I am a project manager, and my job is really 
to get that information from the experts, and so I avoid trying 
to be the expert but when people ask me those type of 
questions, in my community when they come to me and ask those 
questions, I very often refer to ATSDR's toxicological profile 
for toxaphene, and then depending on whether it is adults or 
children, they get more specific about the different threats.
    Mr. Stupak. Well, do you have some understanding of the 
health risks of toxaphene? I mean, you are concerned about it 
being next to an elementary school. Why are you concerned? What 
are the health effects you are concerned about?
    Mr. Parshley. I am familiar with the issue. You know, my 
concerns are more than just with the elementary school, but at 
the elementary school itself, toxaphene is shown to have some 
developmental delays and so the very early years in school are 
important for children. Children's immune systems are not as 
robust, are not fully developed.
    Mr. Stupak. OK. Well, let me ask this question. Why are you 
after the EPA to do more studies then, your Glynn Environmental 
Coalition there?
    Mr. Parshley. We are not asking for more studies actually.
    Mr. Stupak. What are you asking the EPA to do then?
    Mr. Parshley. A process for measuring toxaphene that was 
developed it was only used in our community that did not report 
all the chemicals present. The Office of Inspector General 
found, agreed with us, and it was appropriate, particularly--we 
are not just dealing with toxaphene. We are dealing with 
toxaphene manufacturing waste, and so, you know, the argument 
of what is and what isn't toxaphene has gotten very convoluted 
but what we want is very simple, test, report all the chemicals 
present. Then the toxicologists can look at it and tell what we 
need to protect our children and our families.
    Mr. Stupak. Well, what chemicals do you think aren't being 
reported?
    Mr. Parshley. The Office of Inspector General was very 
specific. The previous method looked at only one part of the 
chromatogram and eliminated everything else. Well, in that part 
that they eliminated, there was chemicals in the toxaphene 
mixture that have six and seven chlorines, it is a whole group, 
and that is what is mostly in our community and it is the 
stable form and what is going to hang around for a long time. 
And he said, gee, you know, you are not reporting the chemicals 
that are present in the most amounts in the community. So 
other--why we need the data, we need to know, can public works 
clean out the drainage ditch and not re-contaminate the school? 
When the life of the school is gone, does our community have an 
encumbered piece of property? These are other questions in 
addition to, are our children safe.
    Mr. Stupak. So what you are basically saying, you don't 
believe the EPA has adequately tested for toxaphene or the 
breakdown chemicals that come from toxaphene in the landfill 
near the school and in your community. Is that what you are 
saying?
    Mr. Parshley. Yes, but if I could clarify, there has been 
technical toxaphene, weathered toxaphene, breakdown toxaphene, 
I will tell you the definition we use. We went to the Hercules 
patent and they said, well, this is what we patent-protected 
and that is what we call toxaphene. All these different 
definitions all fall in there. It is all toxaphene. What has 
happened is, the different amounts or ratios of the individual 
chemicals have changed but it is all still toxaphene, so that 
is a good clarification. Over time, the ratio of the different 
chemicals has changed, how much the different chemicals are 
there, but it is still there. But what we need for our 
community, not only for protection of our children, we have an 
estuary where 2 to 3 million pounds were released. We need to 
be looking at what disciplines are going to use this data, the 
actual resource managers, people that are going to be looking 
at fisheries, not only protecting people from contaminated fish 
but what is the effect on wildlife and the recovery of our 
natural resources.
    Mr. Stupak. Have you asked EPA to do these studies?
    Mr. Parshley. Well, a study is built off of good, sound 
data. We need to know what is there is the first step and that 
is what we are asking is why I came here today is, we have a 
very simple request: test and report all the chemicals that are 
there. There is no reason on this earth to test and not report 
the chemicals that are there.
    Mr. Stupak. Very good.
    Questions?
    Mr. Shimkus. Thank you, and I will be brief. First of all, 
I was thinking about these rules of guidelines and I was 
thinking about Pirates of the Caribbean, are they rules or are 
they guidelines. That is part of the legislative challenges we 
have, the pirate rule.
    I was interested in this magazine, Regulatory Toxicology 
and Pharmacology Journal, which now, Dr. Rice, are they a 
credible magazine, would you feel?
    Ms. Rice. I agree with Dr. Sass that they tend to be biased 
toward industry.
    Mr. Shimkus. So in your letter to the editor in 2004, 
titled ``Critical Effect of Perchlorate on Neonates in Iodine 
Uptake Inhibition,'' why did you send the letter?
    Ms. Rice. Because perchlorate is something that industry as 
well as government and various states are very concerned with. 
It was an appropriate place to put it. It was an appropriate 
audience for it.
    Mr. Shimkus. Did you place it elsewhere?
    Ms. Rice. No.
    Mr. Shimkus. So they are credible enough for you to write a 
letter to inform the scientific community of this issue?
    Ms. Rice. Yes, I am not saying that nothing is published in 
the journal that isn't reasonable and I am not saying that 
everything in the journal is biased. I am saying that when you 
take the body of studies as a whole, there tends to be a bias 
toward the industry point of view. But it is not an industry 
publication.
    Mr. Shimkus. Great. I appreciate it. I was just trying to 
clarify. And I am not going to go long into this. On the next 
panel we have George Gray, who is the EPA director now. Dr. 
Sass, you have laid some pretty serious charges against him, a 
former member of the faculty of Harvard Center for Risk 
Analysis. Instead of just going into the excitable debate, can 
you provide for us e-mail, documents, memos, or anything that 
substantiates some of these touch charges you have laid up 
against Dr. Gray?
    Ms. Sass. I don't think I have made any charges that would 
require e-mails to substantiate. I think what I--you would have 
to tell me but I believe what we have said is about the Harvard 
Center for Risk Analysis is that it takes money and it gets 
support from a number of industries. I mean, I can give you 
documentation for that.
    Mr. Shimkus. You specifically cite the IRIS review of perc 
in the example showing Dr. Gray's interference with the IRIS 
process.
    Ms. Sass. That was reported by a reporter in the trade 
press and I can provide that for you.
    Mr. Shimkus. That is what we are asking. Do you have 
anything other than the trade press?
    Ms. Sass. You have to go case by case and I will tell you 
what I have as evidence and provide it for you.
    Mr. Shimkus. OK. And I will end there. Thank you, Dr. Sass.
    Mr. Stupak. Well, let me thank this panel for their 
attendance here today. I am going to dismiss you. We have votes 
on the floor. Dr. Sass, Mr. Shimkus, all members have a right 
to follow-up questions in writing, and I would urge the ranking 
member to do that if he so wishes to get more detailed 
information and we may do the same thing, Ms. Kneiss. So I 
thank you all for being here. Thank you for your testimony. We 
are going to be in recess for the next half-hour. We have four 
votes on the floor, so we are in recess.
    [Recess.]
    Mr. Stupak. The hearing will come back to order. Sorry 
about the delay. We had an extra vote you guys threw in there 
we didn't know about, so we had a couple extra ones there. Let 
us get our last panel here and hear from them. On our third 
panel, we have the Hon. Marcus Peacock, who is Deputy 
Administrator of the U.S. EPA, and Dr. George Gray, who is the 
Assistant Administrator for the Office of Research and 
Development at the U.S. Environmental Protection Agency. 
Gentlemen, as you know, it is the policy of this subcommittee 
to take all testimony under oath. Please be advised that you 
have the right under the rules of the House to be advised by 
counsel during your testimony. Do you wish to be represented by 
counsel, Mr. Peacock, Mr. Gray?
    Mr. Peacock. No.
    Mr. Gray. No.
    Mr. Stupak. OK. Then I am going to ask you to please rise 
and raise your right hand to take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect our witnesses replied in 
the affirmative. They are under oath. We will start with 
opening statements for 5 minutes. Your full statement will be 
part of the record. Mr. Peacock, should we start with you, sir?
    Mr. Peacock. I don't have an opening statement, Chairman. I 
am here to answer any questions you may have.
    Mr. Stupak. Dr. Gray?

 STATEMENT OF GEORGE M. GRAY, PH.D., ASSISTANT ADMINISTRATOR, 
    OFFICE OF RESEARCH AND DEVELOPMENT, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Gray. Well, thank you. Good afternoon, Chairman Stupak, 
members of the committee. I am George Gray, the Assistant 
Administrator for the Office of Research and Development at the 
Environmental Protection Agency. Thank you for the opportunity 
to appear before the subcommittee to discuss two important 
things: first, our ongoing efforts to maintain the highest 
levels of scientific integrity and research assessment and 
analyses at the U.S. EPA and our recent improvements to the 
Integrated Risk Information System, or IRIS.
    First, research that is conducted by our scientists and 
grantees provides the scientific and technical information that 
we need to protect human health and the environment. During the 
past several years, EPA has taken a number of steps to maintain 
a program of sound scientific research to inform agency 
decisions without allowing regulatory objectives to guide or 
distort scientific findings or analyses. These steps include 
open, transparent, and peer-reviewed research planning and 
competitively awarded extramural research grants. It includes 
independent peer review of our science studies, publications, 
and assessments and rigorous independent evaluations of EPA's 
research laboratories and centers.
    Science informs and provides a foundation for EPA's 
regulatory decisions. At the same time, it is very important to 
recognize that many scientific questions or assessments 
generally involve both science and science policy 
considerations. Similar to other federal agencies that are 
required to produce scientific assessments and also make 
regulatory decisions, EPA views the relationship between 
science, science policy, and decisionmaking as a continuum. To 
start, science is conducted by individuals or teams working in 
our laboratories, out in the field, or in academic institutions 
across the country. Their work is reviewed by subject matter 
experts in accordance with EPA's highly regarded peer review 
process and our information quality guidelines. Our scientists 
are encouraged to publish and otherwise communicate their 
findings. Our scientists and grantees published over 1,000 EPA 
scientific studies last year.
    But by their very nature, scientific studies involve 
varying degrees of uncertainty so there is rarely a single best 
study or a single best answer that we can use in 
decisionmaking. Therefore, we rely on science policy and we 
need to synthesize and assess and make choices when we have a 
wide range of scientific opinions and data points. The science 
policy process may involve: filling in knowledge gaps with 
default assumptions; using weight of evidence approaches to 
make scientific inferences; or making specific choices. Science 
policy work draws on expert insight from multiple scientific 
disciplines and is further strengthened by agency, interagency, 
and public review.
    In the mid-1980s, EPA program offices sometimes published 
very different toxicity values for the same chemical in spite 
of having access to the same scientific data. The original data 
was the product of science whereas the Agency toxicity values 
were a product of science policy as they included inferences, 
assumptions, and choices. EPA developed IRIS, the Integrated 
Risk Information System, exactly to help standardize the 
science policy process that is inherent in risk assessment. 
IRIS was originally intended to be an internal EPA system that 
provided EPA risk assessors and managers with an agency 
position on the potential human health risks of toxic 
substances. But to meet the growing public demand, the IRIS 
process has evolved over time. Examples of components that have 
changed include the setting of the annual IRIS agenda, levels 
of external peer review, and opportunities for public and 
interagency review.
    In 2005, EPA initiated a formal process to document the 
steps in the IRIS process including formalizing recent 
improvements. On April 10, 2008, EPA announced the revised IRIS 
process, the first time that EPA has documented the entire 
process and made it available to the public. Prior to the 
release, the IRIS process had often been viewed as a black box, 
both within and outside of the Agency. It was unclear what 
steps compromised the process and what the timing was for each 
step or where opportunities existed for internal and external 
involvement. Our improvements in the IRIS process helped define 
the appropriate roles for public, agency and interagency 
comments and they also helped promote greater communication and 
sharing of information between all interested parties and EPA. 
This revised IRIS process is designed to provide greater 
transparency, objectivity, rigor, and predictability in IRIS 
assessments.
    So in conclusion, EPA has a proud history of producing 
science that has informed decisions to help protect human 
health and the environment. We are committed to using the best 
available science and constantly evaluating our science policy 
choices to achieve our strategic goals and fulfill our mission. 
From the lab bench to the administrator's desk, we follow a 
science-to-decisionmaking continuum that is in common with 
other federal agencies that rely on both science and science 
policy considerations in their decision making.
    So thank you, Chairman Stupak and members of this committee 
for this opportunity to describe EPA's critical scientific 
work, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Gray follows:]

    [GRAPHIC] [TIFF OMITTED] T2923.188
    
    [GRAPHIC] [TIFF OMITTED] T2923.189
    
    [GRAPHIC] [TIFF OMITTED] T2923.190
    
    [GRAPHIC] [TIFF OMITTED] T2923.191
    
    [GRAPHIC] [TIFF OMITTED] T2923.192
    
    [GRAPHIC] [TIFF OMITTED] T2923.193
    
    [GRAPHIC] [TIFF OMITTED] T2923.194
    
    [GRAPHIC] [TIFF OMITTED] T2923.195
    
    [GRAPHIC] [TIFF OMITTED] T2923.196
    
    [GRAPHIC] [TIFF OMITTED] T2923.197
    
    [GRAPHIC] [TIFF OMITTED] T2923.198
    
    [GRAPHIC] [TIFF OMITTED] T2923.199
    
    [GRAPHIC] [TIFF OMITTED] T2923.200
    
    [GRAPHIC] [TIFF OMITTED] T2923.201
    
    [GRAPHIC] [TIFF OMITTED] T2923.202
    
    Mr. Stupak. Thank you for your testimony. Let me ask you 
this. Page, it looks like 5, on your testimony, you say once an 
EPA scientific product meets scientific standards, you go on, 
you say note these independent--I am trying to find the part 
here where you said about they get to communicate. You said 
something about you hope that they communicate their findings, 
right?
    Mr. Gray. Yes.
    Mr. Stupak. Once an EPA scientific product meets 
scientific--scientists are encouraged to publish or otherwise 
communicate their findings. So why would you remove Dr. Rice 
then if she is communicating her findings to the Maine 
Legislature?
    Mr. Gray. Well, I was here for a large part of the last 
panel and it is clear to me that there is a lot of confusion 
about the situation with Dr. Rice. What I would like to do----
    Mr. Stupak. Well, you removed her, right?
    Mr. Gray. No, she was not removed. The peer review had 
already taken place. What I would like to do is to----
    Mr. Stupak. The peer review had already taken place. OK. So 
why did you redact her testimony and take it offline?
    Mr. Gray. That is why I would like to call your attention 
to a letter that was sent by the Agency, signed by Chris 
Bliley, who is the director of our Office of Congressional and 
Intergovernmental Relations, to the chairman of the full 
committee in response to several of his questions, and it lays 
out the situation with Dr. Rice. The first thing that I want to 
say is that we have a great deal of respect for Dr. Rice and 
for the work that she does and her scientific expertise. It is 
why she was chosen as or was a potential member of one of our 
peer reviews. But we have very specific rules that we follow in 
our peer review. As----
    Mr. Stupak. Now wait. Do you have rules or do you have 
guidelines? What are we talking about here? Or is this the 
pirate code?
    Mr. Gray. This is back to our discussion of the arm's-
length relationship that we have with contractors who do our 
peer reviews. Those contractors do have a series of questions 
that are asked of each of the members of the peer review panel, 
partially to establish things like conflict of interest, to 
establish expertise, and things like that.
    Mr. Stupak. Right. So the independent contractor didn't 
find any conflict of interest of Dr. Rice because they put her 
on the panel, right?
    Mr. Gray. The potential peer reviewers are asked to answer 
a series of questions and then just before they get together 
again as a peer review panel, they are asked the questions 
again.
    Mr. Stupak. OK. Was that done in this case?
    Mr. Gray. This is about----
    Mr. Stupak. Was that done in this case?
    Mr. Gray. Yes, it was.
    Mr. Stupak. OK.
    Mr. Gray. And disclosure is a very important part here. We 
look for expertise, and if there are potential conflicts, we 
want them to be disclosed. The Agency does not make a 
determination about potential conflicts, the contractor does, 
but they need good information to do that.
    Mr. Stupak. So the contractor made the decision to seat Dr. 
Rice?
    Mr. Gray. In this particular case----
    Mr. Stupak. I don't want you to filibuster me. I am trying 
to ask a question.
    Mr. Gray. OK. In this particular case, let us come to the 
crux of this issue.
    Mr. Stupak. Let us get right to it.
    Mr. Gray. Dr. Rice was asked just before the peer review 
panel got together, ``have you made any public statements or 
taken positions on this or other subjects closely related to 
the chemical or topic under review?'' She was asked this 
question on February 16 and said no.
    Mr. Stupak. OK.
    Mr. Gray. And February 15 was one of her testimonies before 
the Maine Legislature, so we were in a situation in which our 
contractor did not have the full disclosure to be able to make 
their judgments----
    Mr. Stupak. And did you realize that what she testified on 
the day before was not about deca?
    Mr. Gray. ``Have you made any public statements or taken 
positions on or closely related to the subject chemical or 
topic underway?''
    Mr. Stupak. Right. And the day before, what did she testify 
to or talk to the working group in Maine on?
    Mr. Gray. She talked about exactly the chemical that was 
the topic under review.
    Mr. Stupak. You are sure of that?
    Mr. Gray. Yes.
    Mr. Stupak. OK.
    Mr. Gray. Our judgment in this case, and this was a 
judgment that was made by the staff-level folks who run our 
National Center for Environment Assessment. They are the ones 
who made the judgment that----
    Mr. Stupak. So what did she testify to on February 15 about 
deca before the Maine working group?
    Mr. Gray. The subject of her testimony is not what is 
important here. What is important is the fact that it wasn't 
disclosed to us so that we could not make an appropriate 
decision----
    Mr. Stupak. Wait a minute. Did she testify about deca on 
the 15th? If so, what is it she said that would violate that 
standard?
    Mr. Gray. According to our letter to the chairman, Dr. Rice 
had testified on February 15 before the Maine Legislature in 
support of a state ban of deca bromodiphenyl ether, or PBDE.
    Mr. Stupak. OK. And I think Dr. Rice testified at the last 
panel that is not what she testified to. They talked about a 
safer substitute. She never reached----
    Mr. Gray. You have to have a substitute for something.
    Mr. Stupak. Pardon? If her testimony is talking to a 
working group of the Maine Legislature and they are asking 
about deca and they are talking about are there safer 
substitutes, how is that a conflict?
    Mr. Gray. This is not about a conflict. This is about non-
disclosure of having made public statements or taken positions 
on this or other closely related subjects, and in this case, 
when this came to light, the decision was made by the director 
of our National Center for Environmental Assessment----
    Mr. Stupak. Well, Dr. Rice is still here. Dr. Rice, do you 
mind coming back up and I will ask you testify on this? Because 
I think there is a lot of confusion. I want to get this cleared 
up.
    Ms. Rice. I kind of wish I had left.
    Mr. Stupak. First of all, I have to remind you, you are 
still under oath, Dr. Rice, still under oath.
    Ms. Rice. Yes.
    Mr. Stupak. So on February 15, did you testify before the 
Maine Legislature about deca?
    Ms. Rice. I testified to one of the committees.
    Mr. Stupak. Pardon?
    Ms. Rice. I testified to one of the committees of the Maine 
Legislature.
    Mr. Stupak. OK. Testified on what?
    Ms. Rice. On the Maine bill, which had a presumptive ban 
for deca BDE on the provision that safer alternatives were 
available.
    Mr. Stupak. And was it about safer alternatives or was it 
about deca and if it was bad or good or should be banned?
    Ms. Rice. It was really about both in that my concern was 
whether I could really say that the safer alternatives were 
better, whether the potential alternatives were safer than 
deca. So I really had to in some ways compare and contrast, and 
what I indicated to the committee was that we didn't know 
enough about the toxicity of the alternatives. We had limited 
information on the toxicity of deca, which was the subject of 
the peer review, but we did know a lot about the persistence 
and biocumulative properties of deca.
    Mr. Stupak. So when you answered the question the next day, 
did you feel it was wrong, that you failed to disclose?
    Ms. Rice. Well, in retrospect, I probably should have said 
that I had testified to the Maine Legislature, but in my mind, 
the two exercises, the two topics were completely separate 
because derivation of a reference dose is a very limited 
exercise and it talks only about the hazards, it talks only 
about the toxicity and not about the other properties, and 
really I was talking about the other properties, so I 
considered that I hadn't said--I certainly never said anything 
about my opinion about what the reference dose of deca should 
be or--and we keep talking about deca but in fact there were 
four chemicals and I never talked about the other three 
chemicals at all, and so in my mind at that time, the two 
things didn't have anything to do with each other. In 
retrospect, I would have put it on the form.
    Mr. Stupak. Before they pulled down your statement on the 
Web site, did they inform you why they were taking down your 
testimony and your findings?
    Ms. Rice. Well, I got a telephone call from Dr. Gray and 
didn't take notes, so it is hard to remember a year-and-a-half 
later exactly what was discussed. But he told me that they had 
gotten this letter from the ACC and he asked me questions about 
the form and--well, not the form specifically but the timeline, 
when I had testified and what had happened when, and then he 
indicated to me that he was actually thinking about removing me 
from the panel, and I have to say that I was so surprised by 
that that a lot of the rest of the conversation just went out 
the window.
    Mr. Stupak. Dr. Gray, page 5, you go and you say, ``Because 
the scientific method encourages critical thinking and 
professional disagreement, it does not commonly lend itself to 
a bright line that decision makers can use as a reliable 
reference point.'' It seems to me you are using a rather bright 
line here to exclude Dr. Rice.
    Mr. Gray. No, sir, I am not. The decision was made on Dr. 
Rice, it was made by our National Center for Environmental 
Assessment, and I did support it, was that because the 
disclosure rules had not been followed, it was inappropriate 
for her comments to be part of that record simply because our 
contractor did not have the information they needed to make an 
appropriate judgment. If she would have disclosed this, I am 
guessing that she probably--the contractor would not have 
changed the situation, would not have had anything to say about 
her position on that board.
    Mr. Stupak. So even though the other four people on this 
peer group agreed with Dr. Rice or they all came basically to 
the same conclusion, that is not the issue here in your mind, 
it was just that she didn't disclose this meeting with the 
Maine Legislature?
    Mr. Gray. I am glad that you have really exactly identified 
the issue. This is not a situation about----
    Mr. Stupak. Yes, I did, and I can't believe you would 
disqualify her on that.
    Mr. Gray. This is about process. If we have a process that 
cannot be trusted, when we tell people, we ask all of these 
conflict of interest questions and we don't have--we can't tell 
them that we have confidence that those are being answered----
    Mr. Stupak. A process that can't be trusted with this IRIS 
program where you have OMB and things are done in secret, there 
is no transparency, that is a process that cannot be trusted.
    Mr. Gray. No, that process, remember, comes back to the 
peer review that we both support very much. There is no way for 
other federal agencies or anyone to play scientific shenanigans 
with the IRIS process when it has to go through a peer review 
process by independent expert peer reviewers at the end.
    Mr. Stupak. Do you want to put up the last one?
    [Chart shown.]
    Mr. Stupak. So where is the--I am looking at the IRIS 
process, the latest one, post April 10. I am on 12A. OMB 
interagency review and approval. I don't see anywhere in there 
where there is a public review of that, goes right to the EPA 
and final rule is made, so where is the transparency, where is 
the peer review of the OMB interagency review and approval in 
12A of your IRIS process?
    Mr. Gray. In this case, this is simply the end of the 
process. It has been through peer review, and this is the 
final----
    Mr. Stupak. Right, and that is done in secret. OMB stuff 
isn't disclosed. I think the record has very clearly been 
established.
    Mr. Gray. No, it is very much like the way we do our 
internal agency reviews where we don't share the comments that 
we get from other parts of EPA either, and here you will notice 
the very last line of section 12 is of course that the final 
decision on IRIS rests with EPA.
    Mr. Stupak. It is already done by then.
    Mr. Gray. We make the final decisions.
    Mr. Stupak. Based on what you heard from the 
Administration, which is OMB, which deliberations are in 
secret, we have established, right?
    Mr. Gray. I am sorry.
    Mr. Stupak. Your final decision is based upon 
recommendations from OMB, which is the Administration, and that 
is a secretive deliberation.
    Mr. Gray. It is EPA's decision. That is the important 
point.
    Mr. Stupak. My time is up. Mr. Shimkus for questions. We 
will come back to this panel.
    Mr. Shimkus. Thank you, Mr. Chairman. Don't come back up to 
the table, Dr. Rice. Again, I think, I know I have been caught 
in a bureaucratic, legalistic period of time and I just 
apologize for this, and unfortunately, people end up getting 
caught up in messes like this because of our rules and 
regulations and the like. You know, the hearing is trying to 
prove political attacks on the scientific community within the 
EPA and I understand the intent of what we are trying to do. I 
don't think there is going to be success. There is frustration 
and I share the frustration of the handling of your case, and 
the reality is, I had an ethics issue, and I got called in for 
3 hours with attorneys going over what I said, what I didn't 
say and all this other stuff, and you just can't win. They 
start splitting hairs so much that people get hurt. So again, I 
just do it to apologize and that is sometimes what happens here 
in a legalistic environment. That is why I am not a lawyer and 
I am never going to be one.
    The issue is more clarity. Let me talk about how do we--
here is another example from politics is, there will be times 
when a reporter will ask us, can we get you to speak not for 
attribution. That means can you speak clearly, and we are not 
going to attribute that to you so we can get the truth. We have 
reporters back there. They know. They like us to do that 
sometimes. So my sense is, sometimes in this process, you want 
to have scientists in a room where they can speak not for 
attribution, so they can fully say what they want to say in 
this analysis and then put it together and share that. Dr. 
Gray, is that along the same lines?
    Mr. Gray. That is a very, very good description of the 
situation that we go through, not just within the Agency where 
we have those same kinds of discussions and they are not always 
just holding hands and agreeing but also in the interagency 
process, and we believe that that ultimately makes our product 
stronger. We are getting scientific input, scientific expertise 
from a variety of different experts that we think makes our 
product better, and then at the end, the important thing again 
is that that product has to go through an independent peer 
review and pass muster with the scientific community.
    Mr. Shimkus. And that is how really how--because the 
follow-up question is, how do you balance, and so you would say 
you balance it by the independent peer review?
    Mr. Gray. And we get independent peer reviews and not 
infrequently that will come back and tell us we don't think you 
did this right, go back and do it again, so that even with the 
best process that we can come up with, there is still often 
scientific disagreement and it is what makes this process 
strong. We can go back, do it again, and learn from the 
scientific input.
    Mr. Shimkus. Now, based upon the other panels and stuff, 
when we are talking about peer reviews, either internal peer 
reviews or other agencies' reviews and if there are other 
agencies, are you able to see--there is always a great 
receptivity to transparency. Politicians use it all the time, 
bring the sunlight on, it sanitizes the system. Of course, we 
know that we don't always use that, an example again with the 
media. You want to have confidential discourse so you can fully 
lay out the case. Talk about the peer review, internal and 
external.
    Mr. Gray. OK. Well, we think that the process, this new 
IRIS process really does allow greater opportunity for broader 
participation by all stakeholders, not just at other federal 
agencies. We have more opportunities for the public to be 
involved, more opportunities for the rest of EPA to be involved 
when we are developing IRIS profiles. We go through that 
process with articulated time frames, which has never been in 
the IRIS process before that says how long steps are going to 
take and then we go into these various forms of review. We have 
review within the Agency. This is followed by interagency 
review followed by public review and peer review. All of those 
are ways in which we strengthen our process. If there is some 
specific things about the peer review process that I can 
answer----
    Mr. Peacock. So for clarity, the internal review and the 
interagency review is confidential. You can call it secret or 
black box but the fact is, it is confidential just like a peer 
review at a scientific journal is confidential so that you can 
have a free flow of ideas and exchange within the scientific 
community, make sure the product at the end is as strong as 
possible. It is not an unusual idea.
    Mr. Shimkus. Right, but then of course the other flip side 
would be, how do we ensure that the public has confidence in 
the product?
    Mr. Peacock. And my answer there then comes back to that 
independent peer review. When EPA is done with its process, we 
have talked to our agency, other agencies, we have comments 
from the public. We give that to independent peer reviewers who 
are again arm's length, not chosen by us, and ask them to 
review the work that we have done. If there is funny business 
that is being tried, if there are interpretations that are not 
scientifically tenable, if there are decisions that are being 
made that don't have scientific support, we will hear that back 
and the public can be confident in fact because of this 
independent scientific peer review.
    Mr. Shimkus. Let me just add two comments. One, the time 
frame thing sounds good, but the record on our ability to move 
does not support the fact that this is an efficient system that 
gives a timely response, and you are going to find me defending 
that. Do you want to comment on that?
    Mr. Peacock. Yes, I would like to comment on that. One of 
the things I focused on as the chief operating officer is 
making sure people can see how EPA is performing. We are the 
first agency to have quarterly performance measures we make 
available to the public. We are going to put on this report how 
quickly we are now doing IRIS reviews compared to how quickly 
we have done them in the past, so everybody, every 3 months is 
going to be able to see whether or not we are going to deliver 
on what we have said we are going to deliver on, which is 
faster IRIS reviews and keep the quality up.
    Mr. Shimkus. So you are going to tell me that this system 
is going to be quicker than this system?
    Mr. Gray. Well, sir, I think--well, if you look right now 
at the average of the IRIS assessments currently underway is 
5\1/2\ years, and we have some that have been going on for 10 
years, 15 years, because we have never before had a process 
written down with timelines that hold our agency accountable, 
that hold other agencies accountable, that hold the peer review 
process accountable. That is what we have written down there 
and that is what the deputy administrator has asked us to find 
a way to report out to the public to demonstrate how we are 
doing meeting our goals, if there are problems, where they are, 
are they coming from the interagency process or are they coming 
from the public process, are they coming from our own work. We 
are trying to open this up.
    Mr. Shimkus. We would love to see that. We would love to 
see these reports so that we can then say, hey, the system is 
really working.
    Mr. Gray. Or if not, why not.
    Mr. Shimkus. Yes, which right now we are not assured, but 
hopefully we will be. The backlog, will it be prioritized?
    Mr. Gray. We are working through a number of ways in which 
we identify the best--how we set our agenda for each year and 
out the people and the resources that we have in the IRIS 
program to work. We are consulting more broadly than we have 
before with the public, with other federal agencies, and with 
others to find out what are the highest priority compounds and 
we will move those forward. We have put significant increases 
in resources both people and money into the IRIS program over 
the last 4 or 5 years and we are trying to make it work.
    Mr. Shimkus. I am not going to be silly, but is that open 
for public comment?
    Mr. Gray. Yes, it is. Step one, we publish an IRIS agenda 
in the Federal Register every year and you are very welcome to 
tell us what you think are the highest priority chemicals for 
us to work on and that goes into part of our process.
    Mr. Shimkus. If that is the case, then that is great 
because hopefully we get the worst ones first, I would assume.
    Mr. Chairman, that is all the questions I have. Thank you.
    Mr. Stupak. Well, thanks. I have a few more questions.
    Kyle, put up that flow chart again, the post April 10.
    [Chart shown.]
    Mr. Stupak. Dr. Gray, you said that, I think I quoted you 
right, you have independent scientific peer review in this 
process. The only place I can find that is number 9 way up 
there in the top, and then right there, 10A, independent. OK. 
But then OMB comes back in at 12A. So the independent peer 
review and comment, when the Agency, EPA, makes its final 
decision after it gets its input from OMB, there is no review 
of that decision. You do it and then you go back into secretive 
or your closed interagency review.
    Mr. Gray. Well, you will notice that in fact that splits 
there. There is something we do to maintain the value of our 
peer review process.
    Mr. Stupak. Don't tell me you have another box you want to 
put in there.
    Mr. Gray. It is a new step that we have put in there where 
we send our response to their comments and a revised document 
back to the peer reviewers and we ask them to comment, how have 
we done----
    Mr. Stupak. So at 12A, you send it back to 10A?
    Mr. Gray. No, you can see that it splits. In parallel, we 
are asking our peer reviewers to say how we did with your 
advice because we have had a lot of concern that though we do 
this internal peer review, we don't take their advice. This way 
these advisors do not have an opportunity to----
    Mr. Stupak. OK, it splits there, 12A and 12C, that is what 
you are talking about the split, right? Are you trying to tell 
me you bypass OMB? If you don't go 12B, you go 12C, right?
    Mr. Gray. I am saying that our revised final document also 
goes out for scientific review as well to ensure that the way 
in which we have addressed----
    Mr. Stupak. Yes, but the order is already done.
    Mr. Gray. What is that?
    Mr. Stupak. The order is done. Your final EPA clearance, 
you have already issued the order. Sure, the science community 
can comment on it then, but it is a little bit too late, the 
horse is out of the barn by the time you get a chance to review 
it one more time. Go ahead.
    Mr. Gray. The idea here is that when we have taken all of 
these comments into advisement, we have revised our document. 
We have written another document that says here is the comment 
we got and here is why we either took or didn't. We send that 
as part of the final document that is going back to the 
interagency process. We also send that out to the peer 
reviewers, and we are asking them, how did we do on our 
science.
    Mr. Stupak. So that is 12C, right? That is 12C is what you 
are talking about?
    Mr. Gray. No, that is when it goes to the EPA group to look 
at as well. One of the things that----
    Mr. Stupak. Give me the number. Where does this occur in 
your flow chart here? After the last time the OMB gets their 
hands on it, when does it go back for this independent 
scientific peer review? Tell me that on this flow chart.
    Mr. Gray. Well, it is another peer review. It is another 
opportunity for the peer reviewers to comment on how we have 
done with their scientific expertise.
    Mr. Stupak. Where does that occur on this goofy flow chart?
    Mr. Gray. That occurs--well, these flow charts are 
something that I can't endorse. I did not put these together so 
I am not sure how those work.
    Mr. Stupak. Neither do we. That is why we are asking the 
questions. I don't think anyone understands how this thing 
works. This came from you. This came from the EPA.
    Mr. Gray. No, but that--well, the document that was part of 
the memo that came out announcing this is the place that to me 
gives us the best review of the process, and it is in step 11.
    Mr. Stupak. Step 11. OK, 11, there we go, but see 12A now, 
you have OMB back in there, and if you want to split it like 
you said, go to 12E, you get OMB in there again. OMB gets about 
four bites of the apple for secretive deliberations that we 
don't get to know about. Let me ask you this though. You 
mentioned timelines. If I start request for chemical 
nominations for IRIS, until I get to 13D, post final assessment 
on IRIS, what is my timeline? How is it going to take me?
    Mr. Gray. Depending on, because all of these are ranges, 
somewhere between 3 and 4\1/2\ years.
    Mr. Stupak. Three and 4\1/2\ years?
    Mr. Gray. Yes. The current average is 5\1/2\.
    Mr. Stupak. OK. GAO says it is 6 to 8, so your average 
would be 7.
    Mr. Gray. They might want to check their math.
    Mr. Stupak. Or is that the new revised one since post April 
10?
    Mr. Gray. There is nothing revised since April 10.
    Mr. Stupak. Yes, your revised process, IRIS process.
    Mr. Gray. No, that was the process that was released on 
April 10.
    Mr. Stupak. All right. So dioxin, we have been waiting 
since 1991. When can we expect that one to be done?
    Mr. Gray. Dioxin is a terrific example of both why we need 
a better process.
    Mr. Stupak. Well, we are on our third draft of this 
process.
    Mr. Gray. You know why? Because we went to the National 
Academies of Science with our last draft and they said you have 
not done your science right. That is a problem. You need a 
process to make sure we are doing the science correctly----
    Mr. Stupak. With your new revised process, which has all 
the science so great, when can we see something on dioxin? We 
have been waiting since 1991.
    Mr. Gray. Dioxin is entering into a process and the amount 
of time it will take we are hoping is in that 3 to 4\1/2\-year 
process.
    Mr. Stupak. So another 3 to 4 years?
    Mr. Gray. I am afraid so. We were told by the National 
Academies that we had a lot of work to do.
    Mr. Stupak. Has National Academy approved this flow chart?
    Mr. Gray. Oh, no, no, they are occasionally used as one of 
our peer reviewers on very high-profile chemicals----
    Mr. Stupak. How about TCE?
    Mr. Gray. There is another one. We went to the National 
Academies and they told us that they didn't agree with our 
interpretation of the science.
    Mr. Stupak. Right, and they took 2 years, they came back 
with a report so now----
    Mr. Gray. We are now expecting to have the draft report 
ready by the end of this year.
    Mr. Stupak. Draft report. Then how long are you going to 
sit on it before it is a final report?
    Mr. Gray. Our expectation is to meet the timelines that are 
within the new process.
    Mr. Stupak. So what is the timeline after you get a draft 
report? How much time do you have then to issue a final report?
    Mr. Gray. I haven't done the math from individual parts in 
this process but it will then go through this process----
    Mr. Stupak. So there is not a timeline like 60 days, 90 
days, 180 days, is there?
    Mr. Gray. Yes.
    Mr. Stupak. Well, why can't you tell me the time then?
    Mr. Gray. The document here that was released describing 
the process has timelines for each step. Again, that is 
something that didn't exist in the past and that we have put 
down to keep accountability both for our work and for the other 
parts of the process.
    Mr. Stupak. I agree, and I don't think anyone can 
understand it. Let me ask you this. Has there ever been an 
instance where someone forgot to disclose something on the 
disclosure form but were not removed from the peer panel?
    Mr. Gray. Not to the best of my knowledge.
    Mr. Stupak. How many other instances have you removed 
someone for an oversight on the disclosure form? Did you ever 
do that before?
    Mr. Gray. I don't--not to the best of my knowledge, and 
again, this was a decision that was--this was made by our IRIS 
staff and I supported it, but this was----
    Mr. Peacock. Chairman, that is probably something we can 
research and get back to you on.
    Mr. Stupak. All right. Well, after you redacted Dr. Rice's 
name and comments from the deca peer review panel comments, you 
later posted a version with her redactions, but you also put a 
disclaimer on indicating she was removed due to a potential 
conflict of interest. It is Exhibit #14 right there in the 
binder. Why would you do this disclaimer? Why not just redact 
it? Don't you think you cast aspersions on Dr. Rice by saying 
she had a conflict of interest that wasn't disclosed?
    Mr. Gray. And Mr. Chairman, you are right, and Mr. Shimkus 
was right on this too. This is a situation that was very, very 
difficult for us. As I said, we have great respect within the 
Agency for Dr. Rice and for the work that she has done. She is 
serving a very valuable service to the Agency, but we also have 
a situation in which we have got one of our very specific rules 
and steps that hasn't been followed. And I may not have 
described that in the best way.
    Mr. Stupak. Well, if you have so much respect for Dr. Rice, 
and I believe you do, so she made an oversight and her 
conclusions were supported by the other four people on this 
peer review, they all reached the same conclusion, including 
the industry person who was on there who was pro-industry, why 
did you go through all this then? Why didn't you just say to 
ACC, we are sorry that there was this oversight but you know, 
we have known her for 30-some years, she worked at the EPA, she 
is the toxicologist for the State of Maine, I can see why she 
talked to the legislature, the conclusions are the same. Isn't 
that what is important in this thing, the conclusions that this 
panel came up with?
    Mr. Gray. It is also important to have a process with 
integrity that people can trust, and as I said, this was a 
very, very difficult situation and a very difficult call but we 
believed that having a situation in which we knew some of the 
important rules for disclosure, which are important to us being 
able to have our peer review process hadn't been followed made 
it----
    Mr. Stupak. Were you here when Ms. Kneiss testified on 
behalf of the American Chemical Council?
    Mr. Gray. No, I was not here for her testimony.
    Mr. Stupak. Well, she said the whole process was flawed. 
She said their concern was that whole process was flawed. So 
why wouldn't you just take down the whole peer review and not 
have them on the Web site?
    Mr. Gray. Because we didn't want to start over. We felt 
that this was a way to continue to move our timelines forward, 
to do the work the right way so that it was an appropriate 
response in the middle of this process.
    Mr. Stupak. As you are selecting these peer review panels, 
do you need ACC's permission or approval of the people who are 
going to be the peer reviewers on these panels?
    Mr. Gray. Well, first of all, we don't select the peer 
reviewers.
    Mr. Stupak. I know. You have the----
    Mr. Gray. No, our contractor doing that at arm's length is 
a very important thing to the integrity of the process.
    Mr. Stupak. Do you need the industry's approval before you 
do this? Does that independent contractor who picks the peer 
reviewers, do they need industry's approval?
    Mr. Gray. No, they make these decisions independently.
    Mr. Stupak. Exhibit 6 in the book there is ACC's letter to 
EPA asking for Dr. Rice's removal. Prior to this letter, has 
EPA ever received a letter from industry calling for removal of 
a peer review panelist? Is this the first time you have ever 
seen one of these where industry comes and says remove this 
person?
    Mr. Gray. In my experience, I believe this was the first 
one I had seen.
    Mr. Stupak. OK. Do you believe that the science, there is 
uncertainty related to individual studies and a judgment call 
to be made with regard to the weight of the evidence given to 
that science?
    Mr. Gray. I am not quite sure of the question, but of 
course, there is always uncertainty in science in the way that 
we want to apply it, yes.
    Mr. Stupak. Sure. OK. I have no further questions. Mr. 
Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman, and I will be brief.
    Dr. Gray, do you know if Dr. Rice is on a panel right now?
    Mr. Gray. I don't know.
    Mr. Shimkus. Are you? Sorry.
    Ms. Rice. That is OK. Subsequent to serving on the PBDE 
panel, it really wasn't just a deca panel, I later served on a 
peer review panel for thallium.
    Mr. Shimkus. Great. Thanks. Again, I think this has been 
educational for a lot of us who aren't in the scientific 
community. Dr. Gray, in your long scientific career, you have 
had disagreements with scientists who have worked with you in 
the past, I am assuming. Is that correct?
    Mr. Gray. It is unusual to find unanimity among any group 
of scientists larger than one.
    Mr. Shimkus. So how does a supervisor walk the fine line 
between engaging in scientific debate with staff who disagree 
and who may think that the debate is an attempt to influence 
them?
    Mr. Gray. One of the things that we really encourage and 
one of the strongest core values of EPA and especially the 
Office of Research and Development in our science and 
technology arm is that this open debate and open sharing of 
scientific information is the best way to serve the Agency, to 
serve the public.
    Mr. Shimkus. Is it important for supervisors to challenge 
staff?
    Mr. Gray. I think that it is important for--in many ways, 
it may not be the role of the supervisor although supervisors 
are there to make sure that people are doing the work they are 
supposed to be doing in the appropriate ways and then that work 
has to go through, as our products do at EPA, through some sort 
of peer review to check on their scientific quality.
    Mr. Shimkus. On the flip side, is it important for staff to 
challenge supervisors?
    Mr. Gray. I think what you learn in science school is, it 
is important to ask questions no matter who you are asking them 
of.
    Mr. Shimkus. Yes, and I would agree, and I know sometimes 
we don't like to get in those debates and discussions. I think 
that is all the questions I have, Mr. Chairman. Thanks.
    Mr. Stupak. Just a couple for Mr. Peacock. Mr. Peacock, the 
report there by the Union of Concerned Scientists, you must 
have seen the report, right?
    Mr. Peacock. Yes.
    Mr. Stupak. What did you think of the report? You had 800 
and some scientists, 500 and some said they felt political 
pressure.
    Mr. Peacock. I have three things to say about the report. 
First of all, I was concerned about it. We don't tolerate 
political interference with science at the Agency, just like we 
don't tolerate manipulation of peer review panels. So I took a 
serious look at it. The second thing I would say about it is, 
it didn't take too long for me to find what I thought were a 
number of fatal flaws in the report and I am sure they are not 
complete, and some of them I think have been mentioned today, 
including the response rate. Most of the--over a third of the 
respondents do not do scientific duties as the main part of 
their job so I don't know why we are calling them all 
scientists. There are issues regarding the wording of the 
questions themselves. Undue delays in a Web site or a press 
release being released is automatically considered political 
interference, so I didn't put a lot of faith in the report. It 
still concerned me, so then I thought, well, what other signs 
would I see if there was political interference, and I just 
don't see those signs. I do all-hands meetings as the 
administrator does with almost all the offices in EPA every 
year. This is not an issue that comes up frequently. Rarely, if 
at all, I would say. EPA is one of the top 10 places to work, 
has resulted in that way due to surveys consistently year after 
year, so I don't get the sense--and we have a lot of 
scientists. I don't get the sense that people are actually 
seeing that.
    Mr. Stupak. In these yearly surveys, do you ask about 
political pressure?
    Mr. Peacock. It is a survey done by OPM and they ask a lot 
of questions about how people feel about the workplace, about 
their supervisors, about benefits, and it is not an issue that 
comes up.
    Mr. Stupak. Is it just yes and no on these surveys?
    Mr. Peacock. I don't know. I am only familiar with the 
results where they rank the agencies and we are always in the 
top 10.
    Mr. Stupak. So you don't know anything about the survey, if 
they even ask about pressure from supervisors or----
    Mr. Peacock. They ask about the relationships with 
supervisors, and I don't--they certainly don't go over the 
specificity of political interference on questions of science.
    Mr. Stupak. Let me ask you this. Dr. Gray says in his 
testimony on page 4 about the risk assessment process that, and 
I am quoting now, ``The criteria for transparency were written 
to ensure that the public``--I am talking about IRIS now--
``that the public would understand all the steps, logic, key 
assumptions, limitations, and decisions and the assessment 
process and also comprehend the supporting rationale that led 
to a particular decision or outcome.'' Now, to accomplish these 
lofty goals, don't you agree that the Agency comments provided 
to OMB then should be made public along with OMB's comments?
    Mr. Peacock. No, I don't, and it goes----
    Mr. Stupak. Aren't you contradicting that testimony then?
    Mr. Peacock. Well, I go back to Mr. Shimkus's point. There 
is a balance here, and you see this throughout science of 
people having the ability to have a fair and honest discourse 
about a scientific product which involves policy judgment and 
then also at some point having them come into the light of day 
and have to withstand the crucible of public review, and to me, 
this process strikes a balance.
    Mr. Stupak. So what is more important, OMB or public review 
and comment?
    Mr. Peacock. They are both important. The reason IRIS 
exists is because there is disagreements between agencies on 
what the right level--FDA may want to set one level and EPA 
another. We have to speak with one voice and OMB has the 
responsibility to bring those agencies together and find what 
that one voice is.
    Mr. Stupak. Kyle, go to the first IRIS one, the pre-2004, 
the simple one. OK.
    [Chart shown.]
    Mr. Stupak. OMB had one input in that one, and that was, 
they were involved one time. Under the new process, OMB gets 
involved on three separate times. Kyle, go to the last one 
there, the post-April 10 one.
    [Chart shown.]
    Mr. Stupak. So what special scientific knowledge does OMB 
bring to the process that EPA, its advisors, and peer reviews 
don't have that they go from one time into the process, now 
they are in three times and they have the last say on it. So 
what special knowledge does OMB bring that EPA and its advisors 
and peer reviewers don't have?
    Mr. Peacock. It is OMB's responsibility to bring the 
federal agencies together to come up with one answer, and that 
is the deal with IRIS. You have to have one answer. So 
scientists from whatever agency----
    Mr. Stupak. Was OMB failing to do that prior to 2004, 
bringing it together?
    Mr. Peacock. No, the problem with this process, which I 
think the GAO report certainly highlights and that you have 
highlighted, is, we don't get these--there was never a process 
laid out and we don't get these reviews done very quickly. In 
fact, they are done very late. They are very slow. So for the 
first time, and I give Dr. Gray a lot of credit for this, we 
laid out what the process looked like and said how can we 
improve this process to make sure that it is going to work 
faster.
    Mr. Stupak. So if you are trying to improve the process, 
and my question was, what special expertise does OMB have that 
you don't have?
    Mr. Peacock. You need to have one entity in the government, 
which is going to bring together diverse scientific views. That 
is OMB's responsibility. I don't know who else would do it.
    Mr. Stupak. So during this process, they have to do it 
three times?
    Mr. Peacock. Well, I have to tell you, this reminds me of a 
project my daughter did. She was supposed to do a diagram of 
how you make breakfast in the morning and she did one of me 
making waffles, and it looked something like that, and I got to 
tell you, I make pretty good waffles and it seems pretty simple 
to me and she does eat breakfast, so you can make anything look 
pretty complicated depending on how much specificity you go to. 
I am not familiar with these diagrams.
    Mr. Stupak. This is your chart. We didn't make it up. We 
can't understand it.
    Mr. Peacock. I am familiar with the process that I signed 
out in the memorandum which lays out the steps which Dr. Gray 
was referring to. This to me is a logical process and each step 
of the process has a certain number of days assigned to it.
    Mr. Stupak. What is this then?
    Mr. Peacock. I have no idea. The first time I have seen 
that chart is today in this hearing room.
    Mr. Stupak. Your staff briefed us with this chart. They 
gave us these charts and tried to get us to understand your 
process.
    Mr. Peacock. Well, I would just suggest the subcommittee 
stay with what I sent out in my memorandum, which I think is 
pretty clear.
    Mr. Stupak. Who do we believe in the EPA then, you or the 
people who----
    Mr. Peacock. I am not saying that chart is inaccurate. I am 
saying I am not familiar with it.
    Mr. Stupak. So do you think OMB should be involved three 
times in the IRIS process?
    Mr. Peacock. I don't see how you keep OMB out of any 
process where you have to bring interagency comments in.
    Mr. Stupak. Right, but three times? I can see them getting 
everyone together like they did in 2004, before 2004.
    Mr. Peacock. When we do a rulemaking, for instance, they 
are involved twice. So once again----
    Mr. Stupak. And do you think their deliberations should be 
open to the public?
    Mr. Peacock. No, I don't think. I think you have two 
effects if you do that. One is to chill the discussion that you 
need in order to get good science and good policymaking, and 
the second is, you confuse the public sometimes.
    Mr. Stupak. And also if no one is watching you, you can do 
whatever you want with the proposed science.
    Mr. Peacock. Well, that is a cynical view and there are 
certainly examples where that has happened. I am not convinced 
that it is happening right now. I don't see the evidence for 
it.
    Mr. Stupak. I have no further questions. Mr. Shimkus?
    Mr. Shimkus. I don't have any questions either, Mr. 
Chairman.
    Mr. Stupak. Well, thank you. Thank you for coming, and this 
panel is dismissed.
    That concludes all questioning. I want to thank all the 
witnesses for coming today and for their testimony. I ask 
unanimous consent that the hearing record will remain open for 
30 days for additional questions for the record. Without 
objection, the record will remain open. I ask unanimous consent 
that the contents of our document binder be entered into the 
record. Without objection, the documents will be entered the 
record.
    That concludes our hearing, and without objection, this 
meeting of the subcommittee is adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Gene Green

    Thank you Mr. Chairman for holding this hearing on the 
integrity of EPA science, an important issue of mutual interest 
to our two Subcommittees.
    The Subcommittee on Oversight and Investigations has done a 
valuable and important job this Congress is identifying and 
investigating issues that require legislative follow-up by our 
legislative Subcommittees.
    As the new Chairman, I would like to assure everyone that 
the Subcommittee on the Environment and Hazardous Materials is 
following these proceedings and investigations closely.
    Chairman Stupak is a persistent investigator and legislator 
and I know this Subcommittee will follow the trail wherever it 
leads.
    If these investigations determine that legislative follow-
up is needed to ensure the integrity of EPA science for the 
public, then the Environment and Hazardous Materials 
Subcommittee will stand ready to develop whatever legislative 
changes may be necessary.
    Risk assessment is a critical component in the protection 
of public health and the environment. Without adequate risk 
assessment, legislators and regulators cannot make informed and 
wise decisions about risk management.
    The testimony of John Stephenson from the Government 
Accountability Office is not encouraging on this point.
    EPA has a responsibility to manage the Integrated Risk 
Information System (IRIS) to inform the public, industry, and 
policy-makers with the strongest and best available science on 
a variety of potentially hazardous materials.
    I am particularly concerned that EPA has not been able to 
complete an IRIS assessment for dioxin, a compound that we know 
is very dangerous and is far to prevalent in and around my 
district along the Houston Ship Channel.
    Just outside our district we have the San Jacinto Waste 
Pits Superfund site, which consists of submerged waste pits 
from an old paper mill that were recently discovered to be 
leaching high levels of dioxin out into the San Jacinto River, 
and from there possibly to Galveston Bay.
    Fish advisories have been extended to larger and larger 
areas, creating a threat both to people who fish for food and 
for the large sport fishing industry in the area.
    Dioxin's status as a toxic compound should not be 
controversial, so the lack of a complete its risk assessment is 
very discouraging. Apparently only four risk assessments have 
been completed this year, with a backlog of 70 more waiting 
behind them.
    Twelve of these backlogged risk assessments have been in 
process for more than 9 years. EPA is taking as long to 
complete a risk assessment as Congress takes to rewrite the 
Clean Air Act.
    While EPA appears to make little progress on the backlog of 
70 assessments, GAO's testimony indicates that nearly half of 
the 540 existing assessments may be out of date.
    Making matters worse, hundreds of requested assessments on 
additional chemicals have not yet made their way into the IRIS 
database.
    With the recent public attention to chemicals such as Thah-
Lates (pthalates), BPA, and flame retardants, it seems that our 
chemical regulatory system is lurching from one public flash-
point to another, while systematic risk assessment and risk 
management are stuck in neutral.
    If the wheels are just spinning over at EPA, Congress will 
be forced move on its own in response to a public outcry for 
protection from potentially hazardous chemicals.
    We need to restore public confidence in EPA's risk 
assessment and chemical regulatory system, and the first step 
must be to ensure the integrity of EPA's scientific information 
and practices.
    Mr. Chairman, thank you for holding this hearing. The 
Subcommittee on Environment and Hazardous Materials looks 
forward to working with this Subcommittee on any and all issues 
that you identify involving problems with EPA science.
                              ----------                              


              Prepared statement of Hon. Marsha Blackburn

    Mr. Chairman, thank you for holding this hearing and I want 
to thank the witnesses for testifying before this committee on 
scientific integrity at the EPA.
    Some members in this committee and witnesses on these 
panels believe the current administration has significantly 
interfered with science review and policy in the EPA over the 
past 8 years.
    Yet there is also evidence of staff and scientists within 
EPA either interfering or not complying with the peer review 
process
    These actions severely undermine the credibility of EPA to 
objectively regulate environmental pollutants.
    One recent example is EPA's reliance on NOAA's ``Unified 
Synthesis Product'' to support its proposed greenhouse gas 
regulations.
    This document was made to look like real science. It was 
touted as a highly influential scientific assessment.
    But in fact there was no actual research, and the 
scientific method was thrown to the wayside.
    A proper peer review would have excluded this document from 
consideration.
    Another example is the recent comments made at the December 
2007 meeting of the Board of Scientific Counselors 
Computational Toxicology Subcommittee.
    These comments revealed how EPA investigators are cheating 
on their results for suitable data and the lack of any 
evidentiary support for EPA's current use of linear modeling 
for low dose toxic claims.
    Has a proper peer review been conducted on these issues? It 
appears not.
    Mr. Chairman, scientific integrity is a commitment to 
truthfulness, personal accountability, and adherence to 
standards of professional conduct.
    But conflicts of interest can threaten scientific integrity 
and improperly influence decision makers who must rely on the 
assessments for public policy.
    And the conflicts need not be financial. They may stem from 
personal views or desire for more power in a position.
    Or, in some cases, the conflicts can come from dependence 
upon a source that funds the research--industry, government, 
and even NGOs.
    I urge my colleagues to look at the issue on a broad basis 
and not merely focus on one side of the equation.
    I yield the balance of my time.
                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2923.203

[GRAPHIC] [TIFF OMITTED] T2923.204

[GRAPHIC] [TIFF OMITTED] T2923.205

[GRAPHIC] [TIFF OMITTED] T2923.206

[GRAPHIC] [TIFF OMITTED] T2923.207

[GRAPHIC] [TIFF OMITTED] T2923.208

[GRAPHIC] [TIFF OMITTED] T2923.209

[GRAPHIC] [TIFF OMITTED] T2923.210

[GRAPHIC] [TIFF OMITTED] T2923.211

[GRAPHIC] [TIFF OMITTED] T2923.212

[GRAPHIC] [TIFF OMITTED] T2923.213

[GRAPHIC] [TIFF OMITTED] T2923.214

[GRAPHIC] [TIFF OMITTED] T2923.215

[GRAPHIC] [TIFF OMITTED] T2923.216

[GRAPHIC] [TIFF OMITTED] T2923.217

[GRAPHIC] [TIFF OMITTED] T2923.218

[GRAPHIC] [TIFF OMITTED] T2923.219

[GRAPHIC] [TIFF OMITTED] T2923.220

[GRAPHIC] [TIFF OMITTED] T2923.221

[GRAPHIC] [TIFF OMITTED] T2923.222

[GRAPHIC] [TIFF OMITTED] T2923.223

[GRAPHIC] [TIFF OMITTED] T2923.224

[GRAPHIC] [TIFF OMITTED] T2923.225

[GRAPHIC] [TIFF OMITTED] T2923.226

[GRAPHIC] [TIFF OMITTED] T2923.227

[GRAPHIC] [TIFF OMITTED] T2923.228

[GRAPHIC] [TIFF OMITTED] T2923.229

[GRAPHIC] [TIFF OMITTED] T2923.230

[GRAPHIC] [TIFF OMITTED] T2923.231

[GRAPHIC] [TIFF OMITTED] T2923.232

[GRAPHIC] [TIFF OMITTED] T2923.233

[GRAPHIC] [TIFF OMITTED] T2923.234

[GRAPHIC] [TIFF OMITTED] T2923.235

[GRAPHIC] [TIFF OMITTED] T2923.236

[GRAPHIC] [TIFF OMITTED] T2923.237

[GRAPHIC] [TIFF OMITTED] T2923.238

[GRAPHIC] [TIFF OMITTED] T2923.239

[GRAPHIC] [TIFF OMITTED] T2923.240

[GRAPHIC] [TIFF OMITTED] T2923.241

[GRAPHIC] [TIFF OMITTED] T2923.242

[GRAPHIC] [TIFF OMITTED] T2923.243

[GRAPHIC] [TIFF OMITTED] T2923.244

[GRAPHIC] [TIFF OMITTED] T2923.245

[GRAPHIC] [TIFF OMITTED] T2923.246

[GRAPHIC] [TIFF OMITTED] T2923.247

[GRAPHIC] [TIFF OMITTED] T2923.248

[GRAPHIC] [TIFF OMITTED] T2923.249

[GRAPHIC] [TIFF OMITTED] T2923.250

[GRAPHIC] [TIFF OMITTED] T2923.251

[GRAPHIC] [TIFF OMITTED] T2923.252

[GRAPHIC] [TIFF OMITTED] T2923.253

[GRAPHIC] [TIFF OMITTED] T2923.254

[GRAPHIC] [TIFF OMITTED] T2923.255

[GRAPHIC] [TIFF OMITTED] T2923.256

[GRAPHIC] [TIFF OMITTED] T2923.257

[GRAPHIC] [TIFF OMITTED] T2923.258

[GRAPHIC] [TIFF OMITTED] T2923.259

[GRAPHIC] [TIFF OMITTED] T2923.260

[GRAPHIC] [TIFF OMITTED] T2923.261

[GRAPHIC] [TIFF OMITTED] T2923.262

[GRAPHIC] [TIFF OMITTED] T2923.263

[GRAPHIC] [TIFF OMITTED] T2923.264

[GRAPHIC] [TIFF OMITTED] T2923.265

[GRAPHIC] [TIFF OMITTED] T2923.266

[GRAPHIC] [TIFF OMITTED] T2923.267

[GRAPHIC] [TIFF OMITTED] T2923.268

[GRAPHIC] [TIFF OMITTED] T2923.269

[GRAPHIC] [TIFF OMITTED] T2923.270

[GRAPHIC] [TIFF OMITTED] T2923.271

[GRAPHIC] [TIFF OMITTED] T2923.272

[GRAPHIC] [TIFF OMITTED] T2923.273

[GRAPHIC] [TIFF OMITTED] T2923.274

[GRAPHIC] [TIFF OMITTED] T2923.275

[GRAPHIC] [TIFF OMITTED] T2923.276

[GRAPHIC] [TIFF OMITTED] T2923.277

[GRAPHIC] [TIFF OMITTED] T2923.278

[GRAPHIC] [TIFF OMITTED] T2923.279

[GRAPHIC] [TIFF OMITTED] T2923.280

[GRAPHIC] [TIFF OMITTED] T2923.281

[GRAPHIC] [TIFF OMITTED] T2923.282

[GRAPHIC] [TIFF OMITTED] T2923.283

[GRAPHIC] [TIFF OMITTED] T2923.284

[GRAPHIC] [TIFF OMITTED] T2923.285

[GRAPHIC] [TIFF OMITTED] T2923.286

[GRAPHIC] [TIFF OMITTED] T2923.287

[GRAPHIC] [TIFF OMITTED] T2923.288

[GRAPHIC] [TIFF OMITTED] T2923.289

[GRAPHIC] [TIFF OMITTED] T2923.290

[GRAPHIC] [TIFF OMITTED] T2923.291

[GRAPHIC] [TIFF OMITTED] T2923.292

[GRAPHIC] [TIFF OMITTED] T2923.293

[GRAPHIC] [TIFF OMITTED] T2923.294

[GRAPHIC] [TIFF OMITTED] T2923.295

[GRAPHIC] [TIFF OMITTED] T2923.296

[GRAPHIC] [TIFF OMITTED] T2923.297

[GRAPHIC] [TIFF OMITTED] T2923.298

[GRAPHIC] [TIFF OMITTED] T2923.299

[GRAPHIC] [TIFF OMITTED] T2923.300

[GRAPHIC] [TIFF OMITTED] T2923.301

[GRAPHIC] [TIFF OMITTED] T2923.302

[GRAPHIC] [TIFF OMITTED] T2923.303

[GRAPHIC] [TIFF OMITTED] T2923.304

[GRAPHIC] [TIFF OMITTED] T2923.305

[GRAPHIC] [TIFF OMITTED] T2923.306

[GRAPHIC] [TIFF OMITTED] T2923.307

[GRAPHIC] [TIFF OMITTED] T2923.308

[GRAPHIC] [TIFF OMITTED] T2923.309

[GRAPHIC] [TIFF OMITTED] T2923.310

[GRAPHIC] [TIFF OMITTED] T2923.311

[GRAPHIC] [TIFF OMITTED] T2923.312

[GRAPHIC] [TIFF OMITTED] T2923.313

[GRAPHIC] [TIFF OMITTED] T2923.314

[GRAPHIC] [TIFF OMITTED] T2923.315

[GRAPHIC] [TIFF OMITTED] T2923.316

[GRAPHIC] [TIFF OMITTED] T2923.317

[GRAPHIC] [TIFF OMITTED] T2923.318

[GRAPHIC] [TIFF OMITTED] T2923.319

[GRAPHIC] [TIFF OMITTED] T2923.320

[GRAPHIC] [TIFF OMITTED] T2923.321

[GRAPHIC] [TIFF OMITTED] T2923.322

[GRAPHIC] [TIFF OMITTED] T2923.323

[GRAPHIC] [TIFF OMITTED] T2923.324

[GRAPHIC] [TIFF OMITTED] T2923.325

[GRAPHIC] [TIFF OMITTED] T2923.326

[GRAPHIC] [TIFF OMITTED] T2923.327

[GRAPHIC] [TIFF OMITTED] T2923.328

[GRAPHIC] [TIFF OMITTED] T2923.329

[GRAPHIC] [TIFF OMITTED] T2923.330

[GRAPHIC] [TIFF OMITTED] T2923.331

[GRAPHIC] [TIFF OMITTED] T2923.332

[GRAPHIC] [TIFF OMITTED] T2923.333

[GRAPHIC] [TIFF OMITTED] T2923.334

[GRAPHIC] [TIFF OMITTED] T2923.335

[GRAPHIC] [TIFF OMITTED] T2923.336

[GRAPHIC] [TIFF OMITTED] T2923.337

[GRAPHIC] [TIFF OMITTED] T2923.338

[GRAPHIC] [TIFF OMITTED] T2923.339

[GRAPHIC] [TIFF OMITTED] T2923.340

[GRAPHIC] [TIFF OMITTED] T2923.341

[GRAPHIC] [TIFF OMITTED] T2923.342

[GRAPHIC] [TIFF OMITTED] T2923.343

[GRAPHIC] [TIFF OMITTED] T2923.344

[GRAPHIC] [TIFF OMITTED] T2923.345

[GRAPHIC] [TIFF OMITTED] T2923.346

[GRAPHIC] [TIFF OMITTED] T2923.347

[GRAPHIC] [TIFF OMITTED] T2923.348

[GRAPHIC] [TIFF OMITTED] T2923.349

[GRAPHIC] [TIFF OMITTED] T2923.350

[GRAPHIC] [TIFF OMITTED] T2923.351

[GRAPHIC] [TIFF OMITTED] T2923.352

[GRAPHIC] [TIFF OMITTED] T2923.353

[GRAPHIC] [TIFF OMITTED] T2923.354

[GRAPHIC] [TIFF OMITTED] T2923.355

[GRAPHIC] [TIFF OMITTED] T2923.356

[GRAPHIC] [TIFF OMITTED] T2923.357

[GRAPHIC] [TIFF OMITTED] T2923.358

[GRAPHIC] [TIFF OMITTED] T2923.359

[GRAPHIC] [TIFF OMITTED] T2923.360

[GRAPHIC] [TIFF OMITTED] T2923.361

[GRAPHIC] [TIFF OMITTED] T2923.362

[GRAPHIC] [TIFF OMITTED] T2923.363

[GRAPHIC] [TIFF OMITTED] T2923.364

[GRAPHIC] [TIFF OMITTED] T2923.365

[GRAPHIC] [TIFF OMITTED] T2923.366

[GRAPHIC] [TIFF OMITTED] T2923.367

[GRAPHIC] [TIFF OMITTED] T2923.368

[GRAPHIC] [TIFF OMITTED] T2923.369

[GRAPHIC] [TIFF OMITTED] T2923.370

[GRAPHIC] [TIFF OMITTED] T2923.371

[GRAPHIC] [TIFF OMITTED] T2923.372

[GRAPHIC] [TIFF OMITTED] T2923.373

[GRAPHIC] [TIFF OMITTED] T2923.374

[GRAPHIC] [TIFF OMITTED] T2923.375

[GRAPHIC] [TIFF OMITTED] T2923.376

[GRAPHIC] [TIFF OMITTED] T2923.377

[GRAPHIC] [TIFF OMITTED] T2923.378

[GRAPHIC] [TIFF OMITTED] T2923.379

[GRAPHIC] [TIFF OMITTED] T2923.380

[GRAPHIC] [TIFF OMITTED] T2923.381

[GRAPHIC] [TIFF OMITTED] T2923.382

[GRAPHIC] [TIFF OMITTED] T2923.383

[GRAPHIC] [TIFF OMITTED] T2923.384

[GRAPHIC] [TIFF OMITTED] T2923.385

[GRAPHIC] [TIFF OMITTED] T2923.386

[GRAPHIC] [TIFF OMITTED] T2923.387

[GRAPHIC] [TIFF OMITTED] T2923.388

[GRAPHIC] [TIFF OMITTED] T2923.389

[GRAPHIC] [TIFF OMITTED] T2923.390

[GRAPHIC] [TIFF OMITTED] T2923.391

[GRAPHIC] [TIFF OMITTED] T2923.392

[GRAPHIC] [TIFF OMITTED] T2923.393

[GRAPHIC] [TIFF OMITTED] T2923.394

[GRAPHIC] [TIFF OMITTED] T2923.395

[GRAPHIC] [TIFF OMITTED] T2923.396

[GRAPHIC] [TIFF OMITTED] T2923.397

[GRAPHIC] [TIFF OMITTED] T2923.398

[GRAPHIC] [TIFF OMITTED] T2923.399

[GRAPHIC] [TIFF OMITTED] T2923.400

[GRAPHIC] [TIFF OMITTED] T2923.401

[GRAPHIC] [TIFF OMITTED] T2923.402

[GRAPHIC] [TIFF OMITTED] T2923.403

[GRAPHIC] [TIFF OMITTED] T2923.404

[GRAPHIC] [TIFF OMITTED] T2923.405

[GRAPHIC] [TIFF OMITTED] T2923.406

[GRAPHIC] [TIFF OMITTED] T2923.407

[GRAPHIC] [TIFF OMITTED] T2923.408

[GRAPHIC] [TIFF OMITTED] T2923.409

[GRAPHIC] [TIFF OMITTED] T2923.410

[GRAPHIC] [TIFF OMITTED] T2923.411

[GRAPHIC] [TIFF OMITTED] T2923.412

[GRAPHIC] [TIFF OMITTED] T2923.413

[GRAPHIC] [TIFF OMITTED] T2923.414

[GRAPHIC] [TIFF OMITTED] T2923.415

[GRAPHIC] [TIFF OMITTED] T2923.416

[GRAPHIC] [TIFF OMITTED] T2923.417

[GRAPHIC] [TIFF OMITTED] T2923.418

[GRAPHIC] [TIFF OMITTED] T2923.419

[GRAPHIC] [TIFF OMITTED] T2923.420

[GRAPHIC] [TIFF OMITTED] T2923.421

[GRAPHIC] [TIFF OMITTED] T2923.422

[GRAPHIC] [TIFF OMITTED] T2923.423

[GRAPHIC] [TIFF OMITTED] T2923.424

[GRAPHIC] [TIFF OMITTED] T2923.425

[GRAPHIC] [TIFF OMITTED] T2923.426

[GRAPHIC] [TIFF OMITTED] T2923.427

[GRAPHIC] [TIFF OMITTED] T2923.428

[GRAPHIC] [TIFF OMITTED] T2923.429

[GRAPHIC] [TIFF OMITTED] T2923.430

[GRAPHIC] [TIFF OMITTED] T2923.431

[GRAPHIC] [TIFF OMITTED] T2923.432

[GRAPHIC] [TIFF OMITTED] T2923.433

[GRAPHIC] [TIFF OMITTED] T2923.434

[GRAPHIC] [TIFF OMITTED] T2923.435

[GRAPHIC] [TIFF OMITTED] T2923.436

[GRAPHIC] [TIFF OMITTED] T2923.437

[GRAPHIC] [TIFF OMITTED] T2923.438

[GRAPHIC] [TIFF OMITTED] T2923.439

[GRAPHIC] [TIFF OMITTED] T2923.440

[GRAPHIC] [TIFF OMITTED] T2923.441

[GRAPHIC] [TIFF OMITTED] T2923.442

[GRAPHIC] [TIFF OMITTED] T2923.443

[GRAPHIC] [TIFF OMITTED] T2923.444

[GRAPHIC] [TIFF OMITTED] T2923.445

[GRAPHIC] [TIFF OMITTED] T2923.446

[GRAPHIC] [TIFF OMITTED] T2923.447

[GRAPHIC] [TIFF OMITTED] T2923.448

[GRAPHIC] [TIFF OMITTED] T2923.449

[GRAPHIC] [TIFF OMITTED] T2923.450

[GRAPHIC] [TIFF OMITTED] T2923.451

[GRAPHIC] [TIFF OMITTED] T2923.452

[GRAPHIC] [TIFF OMITTED] T2923.453

[GRAPHIC] [TIFF OMITTED] T2923.454

[GRAPHIC] [TIFF OMITTED] T2923.455

[GRAPHIC] [TIFF OMITTED] T2923.456

[GRAPHIC] [TIFF OMITTED] T2923.457

[GRAPHIC] [TIFF OMITTED] T2923.458

[GRAPHIC] [TIFF OMITTED] T2923.459

[GRAPHIC] [TIFF OMITTED] T2923.460

[GRAPHIC] [TIFF OMITTED] T2923.461

[GRAPHIC] [TIFF OMITTED] T2923.462

[GRAPHIC] [TIFF OMITTED] T2923.463

[GRAPHIC] [TIFF OMITTED] T2923.464

[GRAPHIC] [TIFF OMITTED] T2923.465

[GRAPHIC] [TIFF OMITTED] T2923.466

[GRAPHIC] [TIFF OMITTED] T2923.467

[GRAPHIC] [TIFF OMITTED] T2923.468

[GRAPHIC] [TIFF OMITTED] T2923.469

[GRAPHIC] [TIFF OMITTED] T2923.470

[GRAPHIC] [TIFF OMITTED] T2923.471

[GRAPHIC] [TIFF OMITTED] T2923.472

[GRAPHIC] [TIFF OMITTED] T2923.473

[GRAPHIC] [TIFF OMITTED] T2923.474

[GRAPHIC] [TIFF OMITTED] T2923.475

[GRAPHIC] [TIFF OMITTED] T2923.476

[GRAPHIC] [TIFF OMITTED] T2923.477

[GRAPHIC] [TIFF OMITTED] T2923.478

[GRAPHIC] [TIFF OMITTED] T2923.479

[GRAPHIC] [TIFF OMITTED] T2923.480

[GRAPHIC] [TIFF OMITTED] T2923.481

[GRAPHIC] [TIFF OMITTED] T2923.482

[GRAPHIC] [TIFF OMITTED] T2923.483

[GRAPHIC] [TIFF OMITTED] T2923.484

[GRAPHIC] [TIFF OMITTED] T2923.485

[GRAPHIC] [TIFF OMITTED] T2923.486

[GRAPHIC] [TIFF OMITTED] T2923.487

[GRAPHIC] [TIFF OMITTED] T2923.488

[GRAPHIC] [TIFF OMITTED] T2923.489

[GRAPHIC] [TIFF OMITTED] T2923.490

[GRAPHIC] [TIFF OMITTED] T2923.491

[GRAPHIC] [TIFF OMITTED] T2923.492

[GRAPHIC] [TIFF OMITTED] T2923.493

[GRAPHIC] [TIFF OMITTED] T2923.494

[GRAPHIC] [TIFF OMITTED] T2923.495

[GRAPHIC] [TIFF OMITTED] T2923.496

[GRAPHIC] [TIFF OMITTED] T2923.497

[GRAPHIC] [TIFF OMITTED] T2923.498

[GRAPHIC] [TIFF OMITTED] T2923.499

[GRAPHIC] [TIFF OMITTED] T2923.500

[GRAPHIC] [TIFF OMITTED] T2923.501

[GRAPHIC] [TIFF OMITTED] T2923.502

[GRAPHIC] [TIFF OMITTED] T2923.503

[GRAPHIC] [TIFF OMITTED] T2923.504

[GRAPHIC] [TIFF OMITTED] T2923.505

[GRAPHIC] [TIFF OMITTED] T2923.506

[GRAPHIC] [TIFF OMITTED] T2923.507

[GRAPHIC] [TIFF OMITTED] T2923.508

[GRAPHIC] [TIFF OMITTED] T2923.509

[GRAPHIC] [TIFF OMITTED] T2923.510

[GRAPHIC] [TIFF OMITTED] T2923.511

[GRAPHIC] [TIFF OMITTED] T2923.512

[GRAPHIC] [TIFF OMITTED] T2923.513

[GRAPHIC] [TIFF OMITTED] T2923.514

[GRAPHIC] [TIFF OMITTED] T2923.515

[GRAPHIC] [TIFF OMITTED] T2923.516

[GRAPHIC] [TIFF OMITTED] T2923.517

[GRAPHIC] [TIFF OMITTED] T2923.518

[GRAPHIC] [TIFF OMITTED] T2923.519

[GRAPHIC] [TIFF OMITTED] T2923.520

[GRAPHIC] [TIFF OMITTED] T2923.521

[GRAPHIC] [TIFF OMITTED] T2923.522

[GRAPHIC] [TIFF OMITTED] T2923.523

[GRAPHIC] [TIFF OMITTED] T2923.524

[GRAPHIC] [TIFF OMITTED] T2923.525

[GRAPHIC] [TIFF OMITTED] T2923.526

[GRAPHIC] [TIFF OMITTED] T2923.527

[GRAPHIC] [TIFF OMITTED] T2923.528

[GRAPHIC] [TIFF OMITTED] T2923.529

[GRAPHIC] [TIFF OMITTED] T2923.530

[GRAPHIC] [TIFF OMITTED] T2923.531

[GRAPHIC] [TIFF OMITTED] T2923.532

[GRAPHIC] [TIFF OMITTED] T2923.533

[GRAPHIC] [TIFF OMITTED] T2923.534

[GRAPHIC] [TIFF OMITTED] T2923.535

[GRAPHIC] [TIFF OMITTED] T2923.536

[GRAPHIC] [TIFF OMITTED] T2923.537

[GRAPHIC] [TIFF OMITTED] T2923.538

[GRAPHIC] [TIFF OMITTED] T2923.539

[GRAPHIC] [TIFF OMITTED] T2923.540

[GRAPHIC] [TIFF OMITTED] T2923.541

[GRAPHIC] [TIFF OMITTED] T2923.542

[GRAPHIC] [TIFF OMITTED] T2923.543

[GRAPHIC] [TIFF OMITTED] T2923.544

[GRAPHIC] [TIFF OMITTED] T2923.545

[GRAPHIC] [TIFF OMITTED] T2923.546

[GRAPHIC] [TIFF OMITTED] T2923.547

[GRAPHIC] [TIFF OMITTED] T2923.548

[GRAPHIC] [TIFF OMITTED] T2923.549

[GRAPHIC] [TIFF OMITTED] T2923.550

[GRAPHIC] [TIFF OMITTED] T2923.551

[GRAPHIC] [TIFF OMITTED] T2923.552

[GRAPHIC] [TIFF OMITTED] T2923.553

[GRAPHIC] [TIFF OMITTED] T2923.554

[GRAPHIC] [TIFF OMITTED] T2923.555

[GRAPHIC] [TIFF OMITTED] T2923.556

[GRAPHIC] [TIFF OMITTED] T2923.557

[GRAPHIC] [TIFF OMITTED] T2923.558

[GRAPHIC] [TIFF OMITTED] T2923.559

[GRAPHIC] [TIFF OMITTED] T2923.560

[GRAPHIC] [TIFF OMITTED] T2923.561

[GRAPHIC] [TIFF OMITTED] T2923.562

[GRAPHIC] [TIFF OMITTED] T2923.563

[GRAPHIC] [TIFF OMITTED] T2923.564

[GRAPHIC] [TIFF OMITTED] T2923.565

[GRAPHIC] [TIFF OMITTED] T2923.566

[GRAPHIC] [TIFF OMITTED] T2923.567

[GRAPHIC] [TIFF OMITTED] T2923.568

[GRAPHIC] [TIFF OMITTED] T2923.569

[GRAPHIC] [TIFF OMITTED] T2923.570

[GRAPHIC] [TIFF OMITTED] T2923.571

[GRAPHIC] [TIFF OMITTED] T2923.572

[GRAPHIC] [TIFF OMITTED] T2923.573

[GRAPHIC] [TIFF OMITTED] T2923.574

[GRAPHIC] [TIFF OMITTED] T2923.575

[GRAPHIC] [TIFF OMITTED] T2923.576

[GRAPHIC] [TIFF OMITTED] T2923.577

[GRAPHIC] [TIFF OMITTED] T2923.578

[GRAPHIC] [TIFF OMITTED] T2923.579

[GRAPHIC] [TIFF OMITTED] T2923.580

[GRAPHIC] [TIFF OMITTED] T2923.581

[GRAPHIC] [TIFF OMITTED] T2923.582

[GRAPHIC] [TIFF OMITTED] T2923.583

[GRAPHIC] [TIFF OMITTED] T2923.584

[GRAPHIC] [TIFF OMITTED] T2923.585

[GRAPHIC] [TIFF OMITTED] T2923.586

[GRAPHIC] [TIFF OMITTED] T2923.587

[GRAPHIC] [TIFF OMITTED] T2923.588

[GRAPHIC] [TIFF OMITTED] T2923.589

[GRAPHIC] [TIFF OMITTED] T2923.590

[GRAPHIC] [TIFF OMITTED] T2923.591

[GRAPHIC] [TIFF OMITTED] T2923.592

[GRAPHIC] [TIFF OMITTED] T2923.593

[GRAPHIC] [TIFF OMITTED] T2923.594

[GRAPHIC] [TIFF OMITTED] T2923.595

[GRAPHIC] [TIFF OMITTED] T2923.596

[GRAPHIC] [TIFF OMITTED] T2923.597

[GRAPHIC] [TIFF OMITTED] T2923.598

[GRAPHIC] [TIFF OMITTED] T2923.599

[GRAPHIC] [TIFF OMITTED] T2923.600

[GRAPHIC] [TIFF OMITTED] T2923.601

[GRAPHIC] [TIFF OMITTED] T2923.602

[GRAPHIC] [TIFF OMITTED] T2923.603

[GRAPHIC] [TIFF OMITTED] T2923.604

[GRAPHIC] [TIFF OMITTED] T2923.605

[GRAPHIC] [TIFF OMITTED] T2923.606

[GRAPHIC] [TIFF OMITTED] T2923.607

[GRAPHIC] [TIFF OMITTED] T2923.608

[GRAPHIC] [TIFF OMITTED] T2923.609

[GRAPHIC] [TIFF OMITTED] T2923.610

[GRAPHIC] [TIFF OMITTED] T2923.611

[GRAPHIC] [TIFF OMITTED] T2923.612

[GRAPHIC] [TIFF OMITTED] T2923.613

[GRAPHIC] [TIFF OMITTED] T2923.614

[GRAPHIC] [TIFF OMITTED] T2923.615

[GRAPHIC] [TIFF OMITTED] T2923.616

[GRAPHIC] [TIFF OMITTED] T2923.617

[GRAPHIC] [TIFF OMITTED] T2923.618

[GRAPHIC] [TIFF OMITTED] T2923.619

[GRAPHIC] [TIFF OMITTED] T2923.620

[GRAPHIC] [TIFF OMITTED] T2923.621

[GRAPHIC] [TIFF OMITTED] T2923.622

[GRAPHIC] [TIFF OMITTED] T2923.623

[GRAPHIC] [TIFF OMITTED] T2923.624

[GRAPHIC] [TIFF OMITTED] T2923.625

[GRAPHIC] [TIFF OMITTED] T2923.626

[GRAPHIC] [TIFF OMITTED] T2923.627

[GRAPHIC] [TIFF OMITTED] T2923.628

[GRAPHIC] [TIFF OMITTED] T2923.629

[GRAPHIC] [TIFF OMITTED] T2923.630

[GRAPHIC] [TIFF OMITTED] T2923.631

[GRAPHIC] [TIFF OMITTED] T2923.632

[GRAPHIC] [TIFF OMITTED] T2923.633

[GRAPHIC] [TIFF OMITTED] T2923.634

[GRAPHIC] [TIFF OMITTED] T2923.635

[GRAPHIC] [TIFF OMITTED] T2923.636

[GRAPHIC] [TIFF OMITTED] T2923.637

[GRAPHIC] [TIFF OMITTED] T2923.638

[GRAPHIC] [TIFF OMITTED] T2923.639

[GRAPHIC] [TIFF OMITTED] T2923.640

[GRAPHIC] [TIFF OMITTED] T2923.641

[GRAPHIC] [TIFF OMITTED] T2923.642

[GRAPHIC] [TIFF OMITTED] T2923.643

[GRAPHIC] [TIFF OMITTED] T2923.644

[GRAPHIC] [TIFF OMITTED] T2923.645

[GRAPHIC] [TIFF OMITTED] T2923.646

[GRAPHIC] [TIFF OMITTED] T2923.647

[GRAPHIC] [TIFF OMITTED] T2923.648

[GRAPHIC] [TIFF OMITTED] T2923.649

[GRAPHIC] [TIFF OMITTED] T2923.650

[GRAPHIC] [TIFF OMITTED] T2923.651

[GRAPHIC] [TIFF OMITTED] T2923.652

[GRAPHIC] [TIFF OMITTED] T2923.653

[GRAPHIC] [TIFF OMITTED] T2923.654

[GRAPHIC] [TIFF OMITTED] T2923.655

[GRAPHIC] [TIFF OMITTED] T2923.656

[GRAPHIC] [TIFF OMITTED] T2923.657

[GRAPHIC] [TIFF OMITTED] T2923.658

[GRAPHIC] [TIFF OMITTED] T2923.659

[GRAPHIC] [TIFF OMITTED] T2923.660

[GRAPHIC] [TIFF OMITTED] T2923.661

[GRAPHIC] [TIFF OMITTED] T2923.662

[GRAPHIC] [TIFF OMITTED] T2923.663

[GRAPHIC] [TIFF OMITTED] T2923.664

[GRAPHIC] [TIFF OMITTED] T2923.665

[GRAPHIC] [TIFF OMITTED] T2923.666

[GRAPHIC] [TIFF OMITTED] T2923.667

[GRAPHIC] [TIFF OMITTED] T2923.668

[GRAPHIC] [TIFF OMITTED] T2923.669

[GRAPHIC] [TIFF OMITTED] T2923.670

[GRAPHIC] [TIFF OMITTED] T2923.671

[GRAPHIC] [TIFF OMITTED] T2923.672

[GRAPHIC] [TIFF OMITTED] T2923.673

[GRAPHIC] [TIFF OMITTED] T2923.674

[GRAPHIC] [TIFF OMITTED] T2923.675

[GRAPHIC] [TIFF OMITTED] T2923.676

[GRAPHIC] [TIFF OMITTED] T2923.677

[GRAPHIC] [TIFF OMITTED] T2923.678

[GRAPHIC] [TIFF OMITTED] T2923.679

[GRAPHIC] [TIFF OMITTED] T2923.680

[GRAPHIC] [TIFF OMITTED] T2923.681

[GRAPHIC] [TIFF OMITTED] T2923.682

[GRAPHIC] [TIFF OMITTED] T2923.683

[GRAPHIC] [TIFF OMITTED] T2923.684

[GRAPHIC] [TIFF OMITTED] T2923.685

[GRAPHIC] [TIFF OMITTED] T2923.686

[GRAPHIC] [TIFF OMITTED] T2923.687

[GRAPHIC] [TIFF OMITTED] T2923.688

[GRAPHIC] [TIFF OMITTED] T2923.689

[GRAPHIC] [TIFF OMITTED] T2923.690

[GRAPHIC] [TIFF OMITTED] T2923.691

[GRAPHIC] [TIFF OMITTED] T2923.692

[GRAPHIC] [TIFF OMITTED] T2923.693

[GRAPHIC] [TIFF OMITTED] T2923.694

[GRAPHIC] [TIFF OMITTED] T2923.695

[GRAPHIC] [TIFF OMITTED] T2923.696

[GRAPHIC] [TIFF OMITTED] T2923.697

[GRAPHIC] [TIFF OMITTED] T2923.698

[GRAPHIC] [TIFF OMITTED] T2923.699

[GRAPHIC] [TIFF OMITTED] T2923.700

[GRAPHIC] [TIFF OMITTED] T2923.701

[GRAPHIC] [TIFF OMITTED] T2923.702

[GRAPHIC] [TIFF OMITTED] T2923.703

[GRAPHIC] [TIFF OMITTED] T2923.704

[GRAPHIC] [TIFF OMITTED] T2923.705

[GRAPHIC] [TIFF OMITTED] T2923.706

[GRAPHIC] [TIFF OMITTED] T2923.707

[GRAPHIC] [TIFF OMITTED] T2923.708

[GRAPHIC] [TIFF OMITTED] T2923.709

[GRAPHIC] [TIFF OMITTED] T2923.710

[GRAPHIC] [TIFF OMITTED] T2923.711

[GRAPHIC] [TIFF OMITTED] T2923.712

[GRAPHIC] [TIFF OMITTED] T2923.713

[GRAPHIC] [TIFF OMITTED] T2923.714

[GRAPHIC] [TIFF OMITTED] T2923.715

[GRAPHIC] [TIFF OMITTED] T2923.716

[GRAPHIC] [TIFF OMITTED] T2923.717

[GRAPHIC] [TIFF OMITTED] T2923.718

[GRAPHIC] [TIFF OMITTED] T2923.719

[GRAPHIC] [TIFF OMITTED] T2923.720

[GRAPHIC] [TIFF OMITTED] T2923.721

[GRAPHIC] [TIFF OMITTED] T2923.722

[GRAPHIC] [TIFF OMITTED] T2923.723

[GRAPHIC] [TIFF OMITTED] T2923.724

[GRAPHIC] [TIFF OMITTED] T2923.725

[GRAPHIC] [TIFF OMITTED] T2923.726

[GRAPHIC] [TIFF OMITTED] T2923.727

[GRAPHIC] [TIFF OMITTED] T2923.728

[GRAPHIC] [TIFF OMITTED] T2923.729

[GRAPHIC] [TIFF OMITTED] T2923.730

[GRAPHIC] [TIFF OMITTED] T2923.731

[GRAPHIC] [TIFF OMITTED] T2923.732

[GRAPHIC] [TIFF OMITTED] T2923.733

[GRAPHIC] [TIFF OMITTED] T2923.734

[GRAPHIC] [TIFF OMITTED] T2923.735

[GRAPHIC] [TIFF OMITTED] T2923.736

[GRAPHIC] [TIFF OMITTED] T2923.737

[GRAPHIC] [TIFF OMITTED] T2923.738

[GRAPHIC] [TIFF OMITTED] T2923.739

[GRAPHIC] [TIFF OMITTED] T2923.740

[GRAPHIC] [TIFF OMITTED] T2923.741

[GRAPHIC] [TIFF OMITTED] T2923.742

[GRAPHIC] [TIFF OMITTED] T2923.743

[GRAPHIC] [TIFF OMITTED] T2923.744

[GRAPHIC] [TIFF OMITTED] T2923.745

[GRAPHIC] [TIFF OMITTED] T2923.746

[GRAPHIC] [TIFF OMITTED] T2923.747

[GRAPHIC] [TIFF OMITTED] T2923.748

[GRAPHIC] [TIFF OMITTED] T2923.749

[GRAPHIC] [TIFF OMITTED] T2923.750

[GRAPHIC] [TIFF OMITTED] T2923.751

[GRAPHIC] [TIFF OMITTED] T2923.752

[GRAPHIC] [TIFF OMITTED] T2923.753

[GRAPHIC] [TIFF OMITTED] T2923.754

[GRAPHIC] [TIFF OMITTED] T2923.755

[GRAPHIC] [TIFF OMITTED] T2923.756

[GRAPHIC] [TIFF OMITTED] T2923.757

[GRAPHIC] [TIFF OMITTED] T2923.758

[GRAPHIC] [TIFF OMITTED] T2923.759

[GRAPHIC] [TIFF OMITTED] T2923.760

[GRAPHIC] [TIFF OMITTED] T2923.761

[GRAPHIC] [TIFF OMITTED] T2923.762

[GRAPHIC] [TIFF OMITTED] T2923.763

[GRAPHIC] [TIFF OMITTED] T2923.764

[GRAPHIC] [TIFF OMITTED] T2923.765

[GRAPHIC] [TIFF OMITTED] T2923.766

[GRAPHIC] [TIFF OMITTED] T2923.767

[GRAPHIC] [TIFF OMITTED] T2923.768

[GRAPHIC] [TIFF OMITTED] T2923.769

[GRAPHIC] [TIFF OMITTED] T2923.770

[GRAPHIC] [TIFF OMITTED] T2923.771

[GRAPHIC] [TIFF OMITTED] T2923.772

[GRAPHIC] [TIFF OMITTED] T2923.773

[GRAPHIC] [TIFF OMITTED] T2923.774

[GRAPHIC] [TIFF OMITTED] T2923.775

[GRAPHIC] [TIFF OMITTED] T2923.776

[GRAPHIC] [TIFF OMITTED] T2923.777

[GRAPHIC] [TIFF OMITTED] T2923.778

[GRAPHIC] [TIFF OMITTED] T2923.779

[GRAPHIC] [TIFF OMITTED] T2923.780

[GRAPHIC] [TIFF OMITTED] T2923.781

[GRAPHIC] [TIFF OMITTED] T2923.782

[GRAPHIC] [TIFF OMITTED] T2923.783

[GRAPHIC] [TIFF OMITTED] T2923.784

[GRAPHIC] [TIFF OMITTED] T2923.785

[GRAPHIC] [TIFF OMITTED] T2923.786

[GRAPHIC] [TIFF OMITTED] T2923.787

[GRAPHIC] [TIFF OMITTED] T2923.788

[GRAPHIC] [TIFF OMITTED] T2923.789

[GRAPHIC] [TIFF OMITTED] T2923.790

[GRAPHIC] [TIFF OMITTED] T2923.791

[GRAPHIC] [TIFF OMITTED] T2923.792

[GRAPHIC] [TIFF OMITTED] T2923.793

[GRAPHIC] [TIFF OMITTED] T2923.794

[GRAPHIC] [TIFF OMITTED] T2923.795

[GRAPHIC] [TIFF OMITTED] T2923.796

[GRAPHIC] [TIFF OMITTED] T2923.797

[GRAPHIC] [TIFF OMITTED] T2923.798

[GRAPHIC] [TIFF OMITTED] T2923.799

[GRAPHIC] [TIFF OMITTED] T2923.800

[GRAPHIC] [TIFF OMITTED] T2923.801

[GRAPHIC] [TIFF OMITTED] T2923.802

[GRAPHIC] [TIFF OMITTED] T2923.803

[GRAPHIC] [TIFF OMITTED] T2923.804

[GRAPHIC] [TIFF OMITTED] T2923.805

[GRAPHIC] [TIFF OMITTED] T2923.806

[GRAPHIC] [TIFF OMITTED] T2923.807

[GRAPHIC] [TIFF OMITTED] T2923.808

[GRAPHIC] [TIFF OMITTED] T2923.809

[GRAPHIC] [TIFF OMITTED] T2923.810

[GRAPHIC] [TIFF OMITTED] T2923.811

[GRAPHIC] [TIFF OMITTED] T2923.812

[GRAPHIC] [TIFF OMITTED] T2923.813

[GRAPHIC] [TIFF OMITTED] T2923.814

[GRAPHIC] [TIFF OMITTED] T2923.815

[GRAPHIC] [TIFF OMITTED] T2923.816

[GRAPHIC] [TIFF OMITTED] T2923.817

[GRAPHIC] [TIFF OMITTED] T2923.818

[GRAPHIC] [TIFF OMITTED] T2923.819

[GRAPHIC] [TIFF OMITTED] T2923.820

[GRAPHIC] [TIFF OMITTED] T2923.821

[GRAPHIC] [TIFF OMITTED] T2923.822

[GRAPHIC] [TIFF OMITTED] T2923.823

[GRAPHIC] [TIFF OMITTED] T2923.824

[GRAPHIC] [TIFF OMITTED] T2923.825

[GRAPHIC] [TIFF OMITTED] T2923.826

[GRAPHIC] [TIFF OMITTED] T2923.827

[GRAPHIC] [TIFF OMITTED] T2923.828

[GRAPHIC] [TIFF OMITTED] T2923.829

[GRAPHIC] [TIFF OMITTED] T2923.830

[GRAPHIC] [TIFF OMITTED] T2923.831

[GRAPHIC] [TIFF OMITTED] T2923.832

[GRAPHIC] [TIFF OMITTED] T2923.833

[GRAPHIC] [TIFF OMITTED] T2923.834

[GRAPHIC] [TIFF OMITTED] T2923.835

[GRAPHIC] [TIFF OMITTED] T2923.836

[GRAPHIC] [TIFF OMITTED] T2923.837

[GRAPHIC] [TIFF OMITTED] T2923.838

[GRAPHIC] [TIFF OMITTED] T2923.839

[GRAPHIC] [TIFF OMITTED] T2923.840

[GRAPHIC] [TIFF OMITTED] T2923.841

[GRAPHIC] [TIFF OMITTED] T2923.842

[GRAPHIC] [TIFF OMITTED] T2923.843

[GRAPHIC] [TIFF OMITTED] T2923.844

[GRAPHIC] [TIFF OMITTED] T2923.845

[GRAPHIC] [TIFF OMITTED] T2923.846

[GRAPHIC] [TIFF OMITTED] T2923.847

[GRAPHIC] [TIFF OMITTED] T2923.848

[GRAPHIC] [TIFF OMITTED] T2923.849

[GRAPHIC] [TIFF OMITTED] T2923.850

[GRAPHIC] [TIFF OMITTED] T2923.851

[GRAPHIC] [TIFF OMITTED] T2923.852

[GRAPHIC] [TIFF OMITTED] T2923.853

[GRAPHIC] [TIFF OMITTED] T2923.854

[GRAPHIC] [TIFF OMITTED] T2923.855

[GRAPHIC] [TIFF OMITTED] T2923.856

[GRAPHIC] [TIFF OMITTED] T2923.857

[GRAPHIC] [TIFF OMITTED] T2923.858

[GRAPHIC] [TIFF OMITTED] T2923.859

[GRAPHIC] [TIFF OMITTED] T2923.860

[GRAPHIC] [TIFF OMITTED] T2923.861

[GRAPHIC] [TIFF OMITTED] T2923.862

[GRAPHIC] [TIFF OMITTED] T2923.863

[GRAPHIC] [TIFF OMITTED] T2923.864

[GRAPHIC] [TIFF OMITTED] T2923.865

[GRAPHIC] [TIFF OMITTED] T2923.866

[GRAPHIC] [TIFF OMITTED] T2923.867

[GRAPHIC] [TIFF OMITTED] T2923.868

[GRAPHIC] [TIFF OMITTED] T2923.869

[GRAPHIC] [TIFF OMITTED] T2923.870

[GRAPHIC] [TIFF OMITTED] T2923.871

[GRAPHIC] [TIFF OMITTED] T2923.872

[GRAPHIC] [TIFF OMITTED] T2923.873

[GRAPHIC] [TIFF OMITTED] T2923.874

[GRAPHIC] [TIFF OMITTED] T2923.875

[GRAPHIC] [TIFF OMITTED] T2923.876

[GRAPHIC] [TIFF OMITTED] T2923.877

[GRAPHIC] [TIFF OMITTED] T2923.878

[GRAPHIC] [TIFF OMITTED] T2923.879

[GRAPHIC] [TIFF OMITTED] T2923.880

[GRAPHIC] [TIFF OMITTED] T2923.881

[GRAPHIC] [TIFF OMITTED] T2923.882

[GRAPHIC] [TIFF OMITTED] T2923.883

[GRAPHIC] [TIFF OMITTED] T2923.884

[GRAPHIC] [TIFF OMITTED] T2923.885

[GRAPHIC] [TIFF OMITTED] T2923.886

[GRAPHIC] [TIFF OMITTED] T2923.887

[GRAPHIC] [TIFF OMITTED] T2923.888

[GRAPHIC] [TIFF OMITTED] T2923.889

[GRAPHIC] [TIFF OMITTED] T2923.890

[GRAPHIC] [TIFF OMITTED] T2923.891

[GRAPHIC] [TIFF OMITTED] T2923.892

[GRAPHIC] [TIFF OMITTED] T2923.893

[GRAPHIC] [TIFF OMITTED] T2923.894

[GRAPHIC] [TIFF OMITTED] T2923.895

[GRAPHIC] [TIFF OMITTED] T2923.896

[GRAPHIC] [TIFF OMITTED] T2923.897

[GRAPHIC] [TIFF OMITTED] T2923.898

[GRAPHIC] [TIFF OMITTED] T2923.899

[GRAPHIC] [TIFF OMITTED] T2923.900

[GRAPHIC] [TIFF OMITTED] T2923.901

[GRAPHIC] [TIFF OMITTED] T2923.902

[GRAPHIC] [TIFF OMITTED] T2923.903

[GRAPHIC] [TIFF OMITTED] T2923.904

[GRAPHIC] [TIFF OMITTED] T2923.905

[GRAPHIC] [TIFF OMITTED] T2923.906

[GRAPHIC] [TIFF OMITTED] T2923.907

[GRAPHIC] [TIFF OMITTED] T2923.908

[GRAPHIC] [TIFF OMITTED] T2923.909

[GRAPHIC] [TIFF OMITTED] T2923.910


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
